<html>
<title> - IRAN: WEAPONS PROLIFERATION, TERRORISM, AND DEMOCRACY</title>
<body><pre>[Senate Hearing 109-211]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-211

 
         IRAN: WEAPONS PROLIFERATION, TERRORISM, AND DEMOCRACY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                              MAY 19, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
25-153                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........    57
    Prepared opening statement...................................    57
Burns, Hon. R. Nicholas Burns, Under Secretary for Political 
  Affairs, Department of State, Washington, DC...................     4
    Prepared statement...........................................     9
Coleman, Hon. Norm, U.S. Senator from Minnesota..................    20
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    15
Feingold, Hon. Russell D., U.S. Senator from Wisconsin...........    22
    Prepared statement...........................................    24
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    16
Kemp, Dr. Geoffrey, director of Regional Strategic Programs, the 
  Nixon Center, Washington, DC...................................    31
    Prepared statement...........................................    33
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
Milhollin, Dr. Gary, professor emeritus, University of Wisconsin 
  Law School and director, Wisconsin Project on Nuclear Arms 
  Control, Washington, DC........................................    35
    Prepared statement...........................................    37
Nelson, Hon. Bill, U.S. Senator from Florida.....................    15
Perkovich, Dr. George, Ph.D., vice president for studies, 
  Carnegie Endowment for International Peace, Washington, DC.....    40
    Prepared statement...........................................    42
Samii, Dr. Abbas William, Ph.D., regional analysis coordinator 
  for Southwest Asia and the Middle East, Radio Free Europe/Radio 
  Liberty, Washington, DC........................................    49
    Prepared statement...........................................    51
Voinovich, Hon. George V., U.S. Senator from Ohio................    25

                                 (iii)

  


         IRAN: WEAPONS PROLIFERATION, TERRORISM, AND DEMOCRACY

                              ----------                              


                         THURSDAY, MAY 19, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar, chairman of the committee, presiding.
    Present: Senators Lugar, Hagel, Coleman, Voinovich, Biden, 
Dodd, Feingold, Nelson, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Before I begin, let me just indicate for the benefit of all 
Senators watching our hearing that unfortunately, an objection 
has been filed about this committee meeting more than 2 hours 
after the Senate comes in. The Senate came in at 9:30, which 
means we will be concluding by 11:30. I am sad to mention that, 
but nevertheless, that goes with the circumstances.
    So we will proceed with Ambassador Burns' testimony and 
questioning of him. We will need to restrict our questions so 
that we have ample time for our distinguished second panel of 
witnesses to be heard. And then we will proceed as long as we 
can at that point.
    The Senate Foreign Relations Committee meets today to 
examine issues related to Iran, particularly that country's 
pursuit of nuclear weapons. For more than 18 years, Iran hid 
its nuclear activities from the world despite being a state 
party to the Nuclear Non-Proliferation Treaty.
    To avoid punitive measures after the direction of its 
nuclear program was exposed, Iran reached agreement with the 
United Kingdom, Germany, and France, the EU-3, to suspend its 
nuclear fuel cycle capabilities. It also signed the Additional 
Protocol, which provided for enhanced U.N. inspections of its 
nuclear facilities.
    Unfortunately, Iran has failed to ratify the Additional 
Protocol. It has refused to give the IAEA complete access to 
verify that no weapons activities are occurring, and last week 
it threatened to restart its uranium conversion program.
    European officials responded by warning Tehran that they 
would leave the 2-year-long negotiations should any effort be 
made to resume uranium conversion. Since then, Iran has agreed 
to meet with the Foreign Ministers of the EU-3 next week in 
Europe. The United States has endorsed these negotiations and 
has supported the European offer that Iran be allowed to join 
the World Trade Organization as an added incentive for full 
cooperation on the nuclear issue.
    If these talks do not succeed, the next step may be 
referral of the problem to the U.N. Security Council. Time is 
running out not just for preventing Iranian acquisition of 
nuclear materials, but also for the viability of the Nuclear 
Non-Proliferation Treaty.
    We must recognize that Iran is at a stage in its nuclear 
development where it can move rapidly toward production of 
nuclear weapons if it ceases to be hindered by any constraints. 
Enforcing the NPT has always been complicated by the relatively 
short time period required to move from legitimate civilian 
nuclear power activities permitted under the treaty, to 
building nuclear weapons.
    The success of the NPT depends on the international 
community taking decisive action when evidence emerges that a 
nonnuclear weapons state is illegally pursuing nuclear weapons. 
As in the Iranian case, warning signs that a country is 
cheating may come only a year or less before it is capable of 
building nuclear weapons absent any constraints.
    The efforts of the EU-3 have slowed Iran's progress, but 
the international community still has not coalesced behind a 
clear course of action with the potential to stop the Iranian 
nuclear program.
    The United States already has sanctions in place on Iran 
for its decades-long sponsorship of terror. The international 
community must be willing to join the United States in imposing 
potent economic sanctions if Iran does not comply with its 
obligations. Economic benefits could also be offered to reward 
Iran for good behavior. Essentially, the United States and its 
allies must present the Iranian Government with an unambiguous 
choice between economic self interest and pursuit of nuclear 
weapons.
    Even if the EU-3 succeeds in the short run, we will need to 
apply almost constant diplomatic and economic pressure to 
ensure that Iran does not continue its nuclear program. Iran 
will be an enormous challenge for the United States foreign 
policy, which can only be met through the sustained focus and 
attention of our highest officials. This diplomatic heavy 
lifting includes convincing European nations, and even Russia 
and China, that their interests in Iranian trade and energy 
supplies are secondary to the extreme risks associated with a 
nuclear-armed Iran.
    The possibility of a nuclear-weapons-capable Iran is 
particularly grave because of the Iranian regime's connections 
to terrorists. I recently surveyed 85 top international experts 
in the field of nonproliferation for a forthcoming report, and 
one of the questions that I asked the survey group was whether 
a nuclear attack during the next 10 years was more likely to be 
carried out by a terrorist group or by a government. Seventy-
nine percent of the experts surveyed believed a nuclear attack 
by terrorists was more likely. Consequently, as we look at 
nations that are seeking nuclear weapons, their connections to 
terrorists become an extremely important factor in determining 
our course.
    For the ninth year in a row, the State Department's country 
reports on terrorism has described Iran as the ``most active 
state sponsor of terrorism'' in the world. Iran's continued 
arming of Hizbollah is in defiance of U.N. Security Council 
Resolution 1559, which calls for the withdrawal of foreign 
forces and disarmament of militias in Lebanon. Iran's support 
for Hamas and Palestinian Islamic Jihad, also on the United 
States list of terrorist organizations, is complicating the 
fragile advances toward peace by the Israelis and Palestinians.
    For the past decade, United States policy has attempted to 
balance between containment of Iranian threats and selective 
engagement to take advantage of opportunities created by 
reformist elements. We must be decisive in isolating and 
pressuring Iran to stop its pursuit of nuclear weapons, but we 
should also reach out to the Iranian people with hope that more 
pragmatic, rational voices in Iran will prevail.
    Iran is holding Presidential elections in June of this 
year. If manipulated by the Mullahs as in the past, they are 
unlikely to result in a representative government. But Iranian 
citizens, just like the Lebanese, Palestinians, Iraqis, 
Afghanis, and others, have a strong desire to choose their own 
government. The United States supports the Iranian citizens who 
are desperate for their voices to be heard, yet fearful of the 
Iranian regime's use of oppressive means to prevent dissent.
    The United States needs to take care when promoting 
democracy and human rights in Iran, given the regime's ability 
to taint any individual or group that appears connected to 
America. But we need to continue to emphasize that freedom and 
human rights, including the right to have a representative 
government, are universal values that apply to Iran.
    Momentum for change is building in the Middle East. 
Elections in Iraq, the Palestinian Authority elections of 
President Abbas, and upcoming elections in Lebanon and Egypt 
present new opportunities. These movements toward reform and 
democracy can bring even greater pressure on countries like 
Iran to be more responsive to their people. Our work in Iraq 
and our efforts to support Israeli disengagement from Gaza and 
the West Bank, while moving forward on the Road Map, may be the 
most important contributions we can make to democracy in Iran 
and in the region.
    Today, we have two outstanding panels that will provide 
their perspectives on Iran. First, we will hear from Under 
Secretary of State for Political Affairs, Nicholas Burns. 
Secretary Burns is a good friend of this committee, and we 
always look forward to our discussions with him. We also 
welcome a second panel of distinguished experts. Dr. Geoffrey 
Kemp is director of Regional Strategic Programs at the Nixon 
Center. Dr. Gary Milhollin is director of the Wisconsin Project 
on Nuclear Arms Control. Dr. George Perkovich is vice president 
for Studies at the Carnegie Endowment for International Peace. 
And Dr. William Samii is the Radio Free Europe and Radio 
Liberty Regional Analysis Coordinator for Southwest Asia and 
the Middle East.
    We thank all of our witnesses and look forward to their 
insights.
    We will be joined shortly by the distinguished ranking 
member, Senator Biden, but for the moment we call upon you, 
Secretary Burns. We appreciate your coming and we look forward 
to your testimony.

   STATEMENT OF HON. R. NICHOLAS BURNS, UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Burns. Mr. Chairman, thank you very much for 
your welcome here. It is a great pleasure to be with you and 
all the distinguished members of this committee. I have 
submitted a statement for the record. I will not read that to 
you.
    The Chairman. It will be published in full.
    Ambassador Burns. Exactly. But I would like to make an 
abbreviated statement, if that is agreeable to the members.
    The Chairman. Excellent.
    Ambassador Burns. I will try not to test your patience in 
doing so.
    Mr. Chairman, Iran remains a very serious foreign policy 
challenge for our country and for the democratic world at 
large. For nearly a quarter of a century, the United States and 
Iran have been without diplomatic relations. We remember the 
images of our Embassy hostages. That is seared into the 
consciousness of every American. But it is also easy to forget 
when you juxtapose that image against another image, that there 
were Iranians studying in the United States before that tragic 
episode in 1979.
    Our argument is not with the Iranian people. It is with the 
Iranian Government. It is with that government's threatening 
and often very irresponsible behavior. And we have made clear 
repeatedly our concerns regarding the Iranian Government's 
pursuit of weapons of mass destruction and long-range delivery 
systems.
    We have made clear our concern about Iran's sponsorship of 
terrorism, including its direct support of Hizbollah and other 
Palestinian terrorist organizations, and its direct opposition 
to the existence of the State of Israel. And we have made clear 
our concern about Iran's appalling human rights and democracy 
record.
    Each of these issues is of vital concern to the United 
States. In each and every case Iran has the position that has 
been inimical to the position of the United States and of the 
international community. And at a time when countries across 
the region are moving toward greater openness--and we have just 
seen Kuwait enfranchise women in the last few days, we have 
seen a greater spirit of democracy in the Middle East, 
willingness to inculcate the principals of freedom and 
openness--Iran is moving in the opposite direction to nearly 
all of its neighbors.
    Our concerns with Iran are not merely historical. It is the 
policies and actions of the Iranian Government that could drive 
our own policy. And I would just like to comment, Mr. Chairman, 
on three aspects of those policies on human rights, on Iran's 
nuclear ambitions, and on Iran's support for terrorism.
    Let me start with Iran's freedom deficit, which is 
appropriate, given the fact that there have been democratic 
elections in Iraq and democratic elections in many other parts 
of the world that have been very encouraging in recent months.
    The United States believes that the future of Iran should 
be democratic and it should be pluralistic. And we support 
those who wish to see a transformed Iran from a rigid 
theocratic state into a modern country. A peaceful and 
democratic Iran, of course, would be a key feature in a 
reformed more democratic Middle East. And we believe Iran is a 
country in the process of change.
    Two-thirds of its people are below the age of 35. Many 
young Iranians support the need for a more positive 
relationship with the United States. Ironically, the public 
image of the United States might be more positive in Iran than 
in many other countries in the Middle Eastern region. And so we 
sense that there is sentiment among ordinary Iranians for 
change, for reform, and democracy, and that sentiment should no 
longer be ignored by the ruling elite of the country.
    The regime's human rights record has been abysmal. The 
government continues to commit numerous serious abuses, 
including summary executions, disappearances, torture, and 
other inhumane treatment. In the late 1990s, elements of Iran's 
Secret Services murdered a number of intellectuals and 
journalists and oppositionists.
    In 2000, a courageous journalist, Akbar Ganji, was 
imprisoned for uncovering what he felt was the truth and 
reporting it in his newspaper. Since his imprisonment, many 
journalists and even Web bloggers have been taken into prison 
where they have been abused and threatened. The Iranian 
Government's actions have essentially eliminated the free press 
in Iran.
    In 2003, an Iranian-Canadian photojournalist, Zahra Kazemi, 
was beaten to death in detention. The investigation and trial 
have been a farce, and the Canadian Government has taken steps 
to scale back its own relations with Iran.
    During student protests in 2003, 4,000 demonstrators were 
arrested, and some of them are still held in Iranian prisons.
    There are many examples, Mr. Chairman, of Iranian actions 
against journalists, against young people, against students, 
who are in prison, beaten, tortured, simply because they are 
expressing views that we in our country and in most of the 
world would find to be our God-given rights.
    On the surface, and if you talk to Iranians, Iranian 
Government officials, they will say that they have an active 
democracy, in which Iranians participate regularly in national 
and local elections. But this is a veneer behind which lies a 
perverted process whose integrity is severely compromised by 
the oppressive oversight exercised by the hardline theocratic 
leadership.
    The most egregious example of this extraordinary political 
system occurred in the rigging of the February 2004 Majles 
elections, in which the guardian counsel disqualified thousands 
of reformist political candidates, including more than 85 
sitting members of the Majles itself. We have obvious concerns, 
given this track record, about the upcoming June 17 
Presidential elections, which we fear will be another setback 
for the democratic hopes of the Iranian people.
    There is every indication that the June elections will not 
result in a meaningful expression of the popular will, because 
the political process is controlled by an unelected few, and 
these unelected leaders dominate Iran's political system. They 
have the power to intimidate and then to disqualify political 
candidates, and through the exercise of that power they have 
stymied a popular demand for freedom.
    A thousand Iranians have registered to run in the upcoming 
elections, but we believe the Guardian Council may only approve 
a dozen or so candidates.
    Our administration is deeply appreciative of the support of 
the Congress and of this committee's support for the resources 
that enabled us to implement the President's freedom agenda. We 
have funded a Persian language Web site that essentially serves 
as our virtual Embassy in Iran. We post information there about 
U.S. Government policy. We post information that might be 
helpful to those who support reform in Iran itself.
    As you know, we also fund Persian language broadcasts on 
Voice of America and Radio Farda. We very much support, we do 
not fund, but we very much support, of course, all the private 
American radio and TV outlets that have done such a good job of 
bringing freedom of expression into Iran itself. And we are 
grateful for funds from the Congress that have allowed us to 
support the advancement of human rights and democracy in Iran 
itself.
    These initiatives and programs do require resources, and 
the administration will be approaching the Congress for further 
resources, so that in working with the nongovernmental 
community and the private sector we can make sure that free 
ideas are entering Iran itself.
    That is the first concern, Mr. Chairman, of our Government. 
The second concern is the one that you spent the bulk of your 
statement talking about. And by the way, I think we agree with 
everything that you said and the way you said it in your 
opening statement. But our critical United States concern is 
our strong and resolute opposition to Iran acquiring a nuclear 
weapons capability.
    Iran desires to acquire a nuclear weapon, and that 
threatens the peace and security of all of its neighbors and of 
the United States. It has demonstrated a track record of 
nuclear deception and denial, including an 18-year history of 
trying to hide from the world a clandestine enrichment program, 
undeclared plutonium separation experiments, and other 
suspicious activities. And these have been documented, not by 
the United States, but by the IAEA and its Director General, 
Mr. ElBaradei.
    Iran failed to report the irradiation of uranium targets 
and subsequent processing of those targets to separate 
plutonium. Iran failed to report the use of imported natural 
UF6 for the testing of centrifuges at the Kalaye Electric 
Company.
    Iran failed to declare the pilot enrichment facility at 
Kalaye Electric, the laser enrichment plant at the Tehran 
Nuclear Research Center, and the pilot uranium laser enrichment 
plant at Lashkar Ab'ad.
    The list of Iran's failures is endless, and it represents, 
in our view, the foundation pillars of a clandestine nuclear 
weapons development program. We see no sign that Iran has made 
the necessary strategic decision to abandon its nuclear 
ambitions. Its repeated brinkmanship and its current 
negotiations with France, Germany, and the United Kingdom is 
part of its continuing efforts to divide the international 
community on this very important issue.
    But we would like to say today that there should be no 
misunderstanding in Tehran about the position of our 
Government. The international community is united on this 
issue. Iran must not be permitted to develop the capacity to 
build or deliver a nuclear weapon.
    Many in the United States were skeptical of the chances of 
success of the EU-3 negotiating effort, but President Bush went 
to Europe in February, he talked to President Chirac and 
Chancellor Schroeder. He talked to President Putin. He talked 
to other officials, and he heard a clear commitment from our 
friends and allies that they share our goal of denying Iran a 
nuclear weapon, and they recognize that there must be 
consequences should Tehran fail to adhere to its declared 
international commitments.
    Our European partners made clear that Iran must provide 
objective guarantees to demonstrate that it is not pursuing a 
clandestine weapons program under the cover of a civilian 
nuclear energy program. On this point, the bar for Iran must be 
set very high, because of its history of deception, which has 
undermined the trust of the international community. And in 
that sense, to paraphrase a great American President, if we do 
not trust, then we really must verify.
    During his visit to Europe in February, President Bush 
heard from our friends the importance of the United States 
supporting the European diplomatic effort, and so we decided, 
the President and Secretary Rice decided, that we ought to get 
behind the European effort.
    On March 11, Secretary Rice announced that we are prepared 
to take tangible, practical steps in support of the EU-3 
effort. We would no longer block Iran's application to join the 
World Trade Organization. And we would consider licensing the 
export of spare parts for civilian passenger aircraft to Iran.
    And since that time, we have maintained a near constant 
dialog with the EU-3 countries. Just the other night, the U.K. 
Foreign Secretary, Jack Straw, spent a large part of the dinner 
conversation with Secretary Rice, updating her on the EU-3's 
current negotiating round with the Iranian Government.
    I speak on a daily basis with my British, French, and 
German counterparts, and have since I took this job 2 months 
ago, to make sure that they are aware of the positions of the 
United States as we support this negotiation.
    Mr. Chairman, we believe that the EU-3 deserve our support, 
that they deserve our appreciation for their efforts to resolve 
this problem peacefully and diplomatically. Iran appears to 
have maintained its suspension pledge since November 22, 2004, 
but Iran has asserted, and you have seen the statements from 
Tehran, from various Iranian officials, including some of the 
Presidential candidates, including Mr. Rafsanjani, Iran has 
asserted several times in recent weeks that it intends to 
resume Iranian conversion activities at Esfahan, which are 
covered by its November 2004 agreement with the EU-3.
    This would require the breaking of IAEA's seals in place to 
monitor that suspension. The European governments have made 
clear their deep concern with this possibility, and they have 
reaffirmed that these activities would constitute an Iranian 
breach of the agreement, ending the negotiating process, and 
requiring further action by the international community.
    We support the European governments in that conviction. We 
have communicated that, in fact, as of this morning, to the EU-
3 governments, and we will continue to do so. We believe that 
if that occurred, if the seals were broken, if uranium 
conversion took place, then obviously the international 
community, lead by the EU-3, would then have to support a 
resolution to the IAEA Board of Governors for referral to the 
U.N. Security Council.
    President Bush, when he has spoken about this issue, as 
well as Secretary Rice, have made very clear we support a 
peaceful negotiated settlement of this Iranian nuclear problem. 
And that is why we support the EU-3 process.
    Our message to Tehran today is, adhere to the Paris 
agreement. Maintain suspension of all nuclear-related 
activities, and negotiate in good faith the eventual cessation 
and dismantling of all sensitive nuclear fuel cycle activities. 
In this sense, the spotlight of the Congress and of our 
Government and the international community has to rest squarely 
on the Iranian Government.
    Finally, Mr. Chairman, and I will abbreviate this section, 
our third concern with the Iranian Government has been its 
constant and persistent support of terrorist groups in the 
Middle East region. And you are exactly right that our State 
Department terrorism report has said that Iran is the most 
active supporter, state supporter of terrorism in the world 
today. We all know that Iran has directed the operations, 
funded and supported the operations of Hamas, of Hizbollah, and 
of Palestinian rejectionist groups.
    We know that Hizbollah is responsible for the deaths of 
hundreds of Americans. No terrorist group has killed more 
Americans, with the exception of al-Qaida, than Hizbollah. We 
remembered what happened in 1983, with the bombing of our 
Embassy, with the bombing of the Marine barracks. We remember 
the imprisonment and torture of Colonel Higgins, who was 
executed by Hizbollah.
    We remember all the attacks on America and its allies, and 
Iran has supported for more than 20 years the operations and 
the intent of these terrorist groups. Iran continues to hold 
senior al-Qaida leaders who are wanted for murdering Americans 
and others in the 1998 East Africa Embassy bombings. We have 
sanctioned Iran as a state sponsor of terrorism. We have 
repeatedly called on their regime to cease and desist, and it 
has not done so.
    In November 2004, at the Sharm El Sheikh Conference, Iran 
made commitments to the international community, which it has 
not honored. And beyond terrorism and its own treatment of the 
incipient Iraqi Government that has emerged in Baghdad, its own 
support for warlords in Afghanistan, lead us to believe that 
Iran is also playing a negative role in relations with those 
two important countries.
    So, Mr. Chairman, that is the indictment of the American 
Government concerning Iran. We remain separated from them 
because of these fundamental convictions that they are going in 
the opposite direction from the United States and all of our 
allies on these very important issues. And we will remain 
resolved, and I think five Presidents have been resolved since 
1979, to focus the international spotlight on these actions of 
the Iranian Government, and to ensure that we have the ability 
with the international community to oppose them, as we must, 
and to expect that Iran at some point in the future should 
return to the civilized community of nations. Thank you very 
much.
    [The prepared statement of Ambassador Burns follows:]

   Prepared Statement of Hon. R. Nicholas Burns, Under Secretary for 
         Political Affairs, Department of State, Washington, DC

                              INTRODUCTION

    Thank you, Mr. Chairman, Ranking Member Biden, and distinguished 
members of the committee, for the opportunity to discuss with you today 
United States policy toward Iran.
    Iran remains a serious foreign policy challenge for our country and 
the democratic world at large. For nearly a quarter century the United 
States and Iran have been without diplomatic relations. With the images 
of our Embassy hostages seared so deeply into our collective 
consciousness, it is easy to forget that our countries once enjoyed 
excellent relations and, only a generation ago, 200,000 Iranians were 
studying in the United States. The United States is proud to be home to 
a large community of extremely talented Iranian immigrants who preserve 
a cultural and personal bridge to Iran where diplomatic contact long 
ago broke off.
    It is not with the Iranian people, but with the Iranian regime's 
threatening and often irresponsible behavior, that our concerns rest. 
We have repeatedly made clear our grave concerns regarding the Iranian 
Government's pursuit of weapons of mass destruction and long-range 
delivery systems; its sponsorship of terrorism including its direct 
support to Hizbollah and Palestinian rejectionist groups; its appalling 
human rights and democracy record; its support for violent opposition 
to efforts to achieve peace in the Middle East; and its interference in 
the affairs of its neighbors--especially Afghanistan and Iraq.
    Each of these issues is of vital concern to the United States and, 
in each and every case, Iran has a position inimical to that of the 
United States and the international community. At a time when countries 
across the region are moving toward greater openness, political 
participation, and economic freedom, Iran stands in stark contrast.
    Our concerns with Iran are not merely historical; they do not 
simply reflect the pain felt, real as that pain is, over the storming 
of our Embassy more than two and a half decades ago. It is Iran's 
actions and policies today that drive our policy. Iranian Government 
policies, loosely grouped into three broad categories that I will 
discuss briefly today, directly threaten United States interests in the 
region and beyond.
    In each of these three areas, Iran has a demonstrated track record 
of moving backward against the tide of world events. I will start with 
Iran's freedom deficit, appropriate given the recent election of 
democratic governments in two of Iran's neighbors and the upcoming June 
17 Presidential elections in Iran.

                IRAN'S DEMOCRACY AND HUMAN RIGHTS RECORD

    Iran is a great country with a unique history and culture. The 
Iranian people have made extraordinary contributions in many fields for 
thousands of years. Modern Iran will undoubtedly remain a significant 
country in the future of the broader Middle East.
    The United States believes the future of Iran should be democratic 
and pluralistic. We support those who wish to see Iran transformed from 
a rigid, intolerant theocracy to a modern state. A peaceful, democratic 
Iran would be a key feature in a reformed, more democratic Middle East. 
We believe Iran is a country in the process of change. Some two-thirds 
of its people are below the age of 35. Many young Iranians support the 
need for a more positive relationship with the United States. In fact, 
the United States may have a more positive public image in Iran than in 
other countries of the region. We sense that the sentiment among 
ordinary Iranians for change--for reform and democracy--is strong. But 
that sentiment is ignored by the ruling clique.
    Iran suffers from a deficit of freedom. The regime's human rights 
record remains abysmal and the government continues to commit numerous, 
serious abuses, including summary executions, disappearances, torture, 
and other inhumane treatment. In the late 1990s, elements of Iran's 
secret services murdered a number of intellectuals and oppositionists. 
In 2000, a courageous journalist named Akbar Ganji was imprisoned for 
uncovering the truth and reporting it in his newspaper. Since Ganji was 
imprisoned, many journalists and even Web loggers have been taken into 
prison where they have been abused and threatened. The Iranian 
Goverment's actions have essentially eliminated the free press in Iran. 
In 2003, an Iranian-Canadian photojournalist, Zahra Kazemi, was beaten 
to death in detention. The investigation and trial have been a farce 
and the Canadian Government has taken steps to scale back its relations 
with Iran.
    During student protests in June 2003, 4,000 demonstrators were 
arrested; a few are still held. In December 2003, Parliamentarian 
Mohsen Mirdamadi was beaten by vigilantes as he started a speech in 
Yazd. Before the 2004 elections, when reformist members of Parliament 
signed a petition to the Supreme Leader asking for more democracy, they 
were threatened with arrest and arbitrarily stripped of their 
parliamentary immunity.
    In fall 2004, for a second year in a row, the United States 
cosponsored, and actively supported, a Canadian resolution at the U.N. 
General Assembly condemning the human rights situation in Iran. The 
Iran human rights resolution passed in the U.N. General Assembly's 59th 
Plenary, sending an important signal to the Iranian people that the 
international community recognized their suffering and to the Iranian 
Government that dialog on human rights was no substitute for concrete 
action to improve its record, and that the serious concern about Iran's 
overall international behavior would not blunt the international 
community's focus on the internal human rights situation.
    On the surface, the Iranian Government points to a picture of an 
active democracy in which Iranians participate regularly in national 
and local elections. But this is a veneer behind which lies a perverted 
process whose integrity is severely compromised by the oppressive 
oversight exercised by hard-line clerical bodies. One of the most 
egregious recent examples of this extraordinary system was the rigging 
of the February 2004 Majles elections, in which the Guardian Council 
disqualified thousands of reformist candidates, including more than 85 
sitting members of the Majles. We commend the bravery and dedication of 
the many ordinary Iranians who put their livelihoods at risk to advance 
the principles of democracy, religious tolerance, and the 
accountability of the government to its own people.
    We are similarly very concerned that the upcoming June 17 
Presidential elections will represent another setback for the 
democratic hopes of the Iranian people. Candidate registration started 
Tuesday, May 10 in Iran and ended May 15. At the end of the 
registration period, the names of the Presidential candidates will be 
forwarded to the 12-member Guardian Council, which then has up to 10 
days to assess the eligibility of the candidates. There is every 
indication the June election will not result in a meaningful expression 
of the popular will, because the political process and the media are 
controlled and manipulated by an unelected few--the clerical elite and 
their associates. These unelected leaders dominate Iran's political 
system, have the power to intimidate and disqualify candidates, and 
through the exercise of that power have stymied popular demands for 
freedom. Of the over 1,000 Iranians who have registered to run in the 
upcoming elections, the Guardian Council is likely to approve less than 
a dozen candidates. Indeed, in 2001, only 10 of the 814 registered 
candidates were allowed to run. The diminished role of women, in 
Iranian political life since the February 2004 Majles elections, is 
another clear indicator of the regime's effectiveness in stymieing free 
popular will and of its antidemocratic beliefs.
    In November 2003 at the National Endowment for Democracy, President 
Bush outlined a forward strategy for freedom in the Middle East. He 
said that ``60 years of Western nations excusing and accommodating the 
lack of freedom in the Middle East did nothing to make us safe--because 
in the long run, stability cannot be purchased at the expense of 
liberty.'' In his 2005 Inaugural Address, the President reiterated 
America's support for the people of the broader Middle East and North 
Africa in their fight for freedom. ``We will persistently clarify the 
choice before every ruler in every nation: The moral choice between 
oppression, which is always wrong, and freedom, which is eternally 
right.'' President Bush spoke directly to the Iranian people in his 
February 2, 2005, State of the Union Address, saying: ``As you stand 
for your own liberty, America stands with you.''
    The administration is deeply appreciative of Congress's and this 
committee's support for the resources that enable us to implement the 
President's Freedom agenda and reach out to the Iranian people. A few 
examples:

--Since May 2003 we have funded a Persian language Web site that serves 
    as a ``virtual embassy'' by providing the only channel for both 
    United States policy statements in Persian as well as a range of 
    information about democracy, American society and values, and 
    consular information.
--We are also funding political discussion in Persian on television and 
    radio broadcasts into Iran under the auspices of the Voice of 
    America. Recently VOA announced that it was increasing the duration 
    of these broadcasts. The United States Government also funds news 
    and music broadcasts into Iran on Radio Farda. This service is 
    specifically targeted at the large population of younger people in 
    Iran.
--The FY 2005 Foreign Operations, Export Financing, and Related 
    Programs Appropriations Act doubled to $3 million the funds 
    available to our Democracy, Human Rights and Labor Bureau to 
    support the advancement of human rights and democracy in Iran. We 
    are currently reviewing applications for FY 2005; in 2004 we 
    provided $1 million to document human rights abuses inside Iran and 
    $500,000 for National Endowment for Democracy programming.
--We have also recently established, with European and Canadian allies, 
    a Human Rights Working Group that will convene quarterly to share 
    information and coordinate our approach to the issue.

    These initiatives and programs require resources. Our commitment of 
funds to support freedom in Iran is tangible evidence of the United 
States support for a better future for the Iranian people, and we 
appreciate congressional support for our programs and efforts.
    The freedom deficit and the severe restriction on free expression 
and fair elections is the first of our concerns with Iranian Government 
policy.

                  COUNTERING IRAN'S NUCLEAR AMBITIONS

    A second and critical United States concern is our strong and 
resolute opposition to Iran acquiring a nuclear weapons capability. 
Iran's desire to acquire a nuclear weapon threatens the peace and 
security of the United States, our friends and allies, and the 
stability of the entire region. Iran's demonstrated track record of 
nuclear deception and denial is troubling, including an 18-year history 
of trying to hide from the world a clandestine enrichment program, 
undeclared plutonium separation experiments, and other suspicious 
activities, as reported by IAEA Director General El Baradei. Iran 
failed to report the irradiation of uranium targets and subsequent 
processing of those targets to separate plutonium. Iran failed to 
report the use of imported natural UF6 for the testing of centrifuges 
at the Kalaye Electric Company. Iran failed to declare the pilot 
enrichment facility at Kalaye Electric, the laser enrichment plant at 
the Tehran Nuclear Research Center, and the pilot uranium laser 
enrichment plant at Lashkar Ab'ad. The list of Iran's failures goes on 
and on and represents--not mere administrative failures--but, in our 
view, the foundation pillars of a clandestine nuclear weapons 
development program.
    We see no sign Iran has made the necessary strategic decision to 
abandon what we conclude is an active nuclear weapons program. Iran's 
repeated brinksmanship in its negotiations with the ``European Union 
Three'' or EU-3, of France, Germany, and the United Kingdom, is part of 
Iran's continuing effort to divide the international community, weaken 
our resolve, and avoid adhering to its international obligations.
    On this issue, though, let there be no misunderstanding in Tehran. 
The international community stands united: Iran must not be permitted 
to develop the capacity to build or deliver a nuclear weapon. Many in 
the United States were skeptical of the chances of success for the EU-3 
diplomatic effort, given Iran's track record. But President Bush, on 
his recent visits to Europe and Moscow, heard a clear commitment from 
our friends and allies: We share the goal of denying Iran a nuclear 
weapon and recognize that there must be consequences should Tehran fail 
to adhere to its international commitments. Our partners made clear 
that Iran must provide objective guarantees to demonstrate that it is 
not pursuing a clandestine weapons program under the cover of a 
civilian nuclear energy program. On this point, the bar for Iran must 
be set high: Its history of deception of the IAEA and the world has 
undermined the international community's trust. To paraphrase a great 
American President: If we don't trust, then we really must verify.
    During his visit to Europe in February, the President heard from 
our friends of the importance of United States support for the EU-3 
diplomatic process, in order to reinforce to the world that the ball 
lies squarely in Iran's court to adhere to its agreements. On March 11, 
Secretary Rice announced that the United States was prepared to take 
tangible, practical steps in support of the EU-3 diplomatic track, and 
would no longer block Iran's application to join the WTO and would 
consider licensing the export of spare parts for civilian passenger 
aircraft to Iran. Since that time, we have maintained a near constant 
dialog with the EU-3. For example, the Secretary saw U.K. Foreign 
Secretary Jack Straw on Tuesday, and I speak on a daily basis with my 
United Kingdom, French, and German counterparts to reinforce our utmost 
support for their leadership on this incredibly vital issue to our 
shared security interests.
    The EU-3 deserves our appreciation for its efforts to resolve 
Iran's nuclear challenge through patient, principled diplomacy. Iran 
appears to have maintained its suspension pledge since November 22, 
2004, but has asserted several times in recent weeks that it intends to 
resume uranium conversion activities at Esfaham which are covered by 
its November 2004 agreement with the EU-3, and would require the 
breaking of IAEA seals in place to monitor that suspension. The 
Europeans have made plain their deep concern with this possibility and 
reaffirmed that these activities would constitute an Iranian breach of 
the agreement, ending the negotiation process and requiring action by 
the international community. We support the EU-3 in their commitment to 
the Paris agreement signed in November and believe that, if it is 
breached, the United States and the EU-3 must support a resolution in 
the IAEA Board of Governors reporting Iran to the U.N. Security 
Council.
    President Bush and Secretary Rice have made clear publicly that we 
support a peaceful, negotiated settlement of the Iranian nuclear 
problem. That is why we support the EU-3 process. Our message to Tehran 
today is: Adhere to the Paris agreement, maintain suspension of all 
nuclear-related activities, and negotiate in good faith the eventual 
cessation and dismantling of all sensitive nuclear fuel cycle 
activities.
    The spotlight must remain on the Iranian Government and on the 
requirement that the Iranian Government adhere to its international 
commitments. Unfortunately, we see no sign of a strategic decision to 
abandon nuclear weapons efforts, and, particularly in the light of 
recent threats by Tehran to resume enrichment, we remain deeply 
skeptical of Iran's intentions. United States policy toward Iran on 
this urgent issue is resolute. As President Bush noted on September 27, 
2004: ``We've made it clear, our position is that they won't have a 
nuclear weapon.''

          IRAN'S DESTABILIZING IMPACT ON THE REGION AND BEYOND

    Iran has already used another unconventional weapon--terrorism--
against innocent Americans, Europeans, Arabs, Israelis, and others. 
Iran remains the most active state sponsor of terrorism in the world. 
The State Department's 2004 Country Reports on Terrorism notes that 
``its Islamic Revolutionary Guard Corps and Ministry of Intelligence 
and Security were involved in the planning and support of terrorist 
acts and continued to exhort a variety of groups to use terrorism in 
pursuit of their goals.'' Iran's extensive involvement in supporting 
terrorism truly puts it in a class by itself.
    We are deeply concerned about Iran's connections to numerous 
terrorist groups, including those that violently object to the right of 
Israel to exist or to any negotiated peace between Israelis and 
Palestinians. For example, Iran provides money, weapons, and training 
to Hamas, Hizbollah, and Palestinian rejectionist groups. These are 
some of the world's most deadly terrorist organizations, responsible 
for the killing of thousands of innocents, including Americans. 
Hizbollah, for example, has been responsible for more American deaths 
than any other terrorist organization in the world apart from al-Qaida. 
Furthermore, Iran's support for these groups fuels terrorist violence 
in Israel and the Occupied Territories, seeking to undermine the 
prospects for Middle East peace at this moment of historic opportunity.
    Iran continues to hold senior al-Qaida leaders who are wanted for 
murdering Americans and others in the 1998 East Africa Embassy bombings 
and for plotting to kill countless others, Iran has refused to identify 
those individuals in its custody.
    We have sanctioned Iran as a State Sponsor of Terrorism, and called 
for the regime to abide by the requirements of U.N. Security Council 
Resolution 1373 to deny safe haven to those who plan, support, or 
commit terrorist acts and to affirmatively take steps to prevent 
terrorist acts by providing early warning to other states by exchange 
of information. Iran should immediately turn over, to face justice, all 
al-Qaida related terrorists in its custody or on Iranian soil to 
appropriate jurisdictions.
    We are also working closely with the United Nations and our key 
allies, particularly France, to fully implement UNSCR 1559, which calls 
for the dismantling of all armed militias in Lebanon, including 
Lebanese Hizbollah, Iran has provided Lebanese Hizbollah with funding, 
safe haven, training, and weapons. We all remember that Lebanese 
Hizbollah was responsible for the death of hundreds of Americans in 
Beirut in the 1980s.
    As we meet with our allies from around the world, we take every 
opportunity to express our concerns about Iran's support for terrorism 
and our concerns about Iranian interference in the efforts to secure a 
lasting, just peace between the Israelis and Palestinians. We actively 
seek the involvement of the international community to reflect those 
concerns in their dealings with the regime, diplomatically as well as 
commercially.
    Iran must also live up to its commitments to develop productive 
relationships with its neighbors, support the new Iraqi Government, and 
renounce in word and deed any relationship to individuals or groups 
that support instability and engage in terrorism.
    Iran is not meeting these commitments with regard to Iraq. Iran 
made commitments to Iraq and the international community at the 
November 2004 Ministerial Conference in Sharm El Sheikh to assist Iraq 
in its security (including border control), to support the political 
process, and to practice noninterference in Iraq's internal affairs. 
Unfortunately, we see little evidence of Iranian assistance, and 
continuing troubling indications of Iranian interference in Iraqi 
internal affairs.
    We will continue to work closely with the new Iraqi Government to 
address all issues related to Iraq's stability and security. In our 
dealings throughout the region we continue to stress the importance of 
protecting Iraqi sovereignty.

                               CONCLUSION

    Notwithstanding the success of the worst regime elements in 
reasserting control over Parliament, Iranian society is moving in its 
own positive direction, Iranians are unhappy about the Guardian 
Council's heavy-handed exclusion of reformist candidates from 
elections, the government's curtailment of press freedoms, and the 
deteriorating human rights situation. In addition, they are frustrated 
by the country's chronic unemployment and their government's failure to 
provide jobs for the thousands of young Iranians entering the workforce 
each year. Structural flaws in the economy can be papered over with 
extraordinarily high oil revenues, but they don't go away. Iran is a 
great nation which has given the entire world a powerful cultural 
legacy and the Iranians have much yet to offer in the years ahead.
    It is our hope that United States relations with Iran will change 
for the better; but that cannot happen without a change in Iran's 
policies in the areas I have discussed. The pursuit of weapons of mass 
destruction and delivery systems makes Iran less secure and the region 
more unstable. The regime must end its sponsorship of terrorism, 
including its direct support to Hizbollah and Palestinian rejectionist 
groups and begin to help build a better life for all parties involved. 
American citizens hear about Iranians who have gone to jail or have 
been murdered. How can we be silent when we see individual Iranians 
risking everything to achieve the democratic freedoms we ourselves 
treasure? How can we turn our backs when the Iranian regime attempts to 
subvert the newborn democracies in Iraq and Afghanistan?
    We have had no diplomatic relations with Tehran for more than 25 
years, through five Presidential administrations from both political 
parties. While we are optimistic about Iran's future, the onus to 
improve its relationship with the rest of the world is squarely on 
Tehran and will be found in concrete actions in the three broad areas I 
discussed briefly today. For all the lack of diplomatic contact, there 
is no lack of communication about what is necessary to transform this 
relationship. The government in Tehran knows what is expected of it, 
and must act if it wishes to rejoin the community of civilized nations.

    The Chairman. Thank you very much, Secretary Burns.
    We will have a 5-minute round of questions at this point. 
And I will commence by asking you this basic question. Analysts 
of the situation in Iran have suggested four possible outcomes 
in terms of our relations with Iran, one of which is that we 
foster regime change. Second, we conduct a military attack on 
Iran in the event that they are not forthcoming in terms of 
development of weapons of mass destruction. Third, that we 
offer very substantial incentives, along with European friends, 
and this would have to be a united front, so that Iran's 
economy would be perceived by Iranians as prospering to an 
extent that they would forego their nuclear experiments. And 
fourth, someone suggested that none of the above are going to 
work, that we shall simply have to learn to live with a nuclear 
weapon in Iran as we have with weapons in various other parts 
of the Middle East.
    The third option I select, at least as potentially 
promising, although without prescribing what our policy ought 
to be. I note the New York Times this morning points out that 
an Iranian negotiator suggests that perhaps 10 nuclear reactors 
provided by Europeans and others might be an incentive to begin 
thinking about the economic routes. He disparages the spare 
parts for aircraft situation that we have endorsed as almost 
disparaging.
    Is there a route, in your judgment, along the economic 
front, or is this a situation in which your judgment is that 
the Iranians might pocket any of the economic incentives and 
proceed in a covert way with development of centrifuge 
technology and progress toward making a nuclear weapon?
    Ambassador Burns. Mr. Chairman, thank you. I would answer 
your question by pointing to the normal relations that Iran has 
with much of the world, and many of our European allies 
maintain Embassies in Tehran. They have normal--somewhat normal 
political relations. There is trade between the countries and 
none of that economic trade, commercial discourse has affected 
the Iranian Government in such a way that it would lead the 
Iranians to conclude that they should live without a nuclear 
weapons capability.
    So I do not believe it stands to reason that if the United 
States suddenly decided to change the policy of the last five 
Presidents, Democratic and Republican, open up the trade gates 
in the hopes that that might encourage the Iranians to give up 
their nuclear weapons aspirations, that is the standard reason 
that would work.
    Instead, we have pursued a patient policy, over many 
administrations, over more than two decades, of encouraging 
peaceful change within Iran, democratic pluralistic change. And 
more recently, since February and March of this year, we are on 
the course of hoping for a peaceful negotiated settlement of 
the nuclear negotiations between the EU-3 and Iran itself.
    So, I think the policies of our government have been very 
clear and transparent, and that there is no reason to believe 
that extra incentives offered by the United States at this 
point would make a real difference. We believe that Iran needs 
to face the united will of the international community. And we 
are there now, because we know that the EU-3 and the Russian 
Government are advising the Iranian Government not to break the 
current accord, not to go into the plant at Esfahan, not to 
break the seals, and not to begin to convert uranium.
    Just to get to the last part of your question, Mr. 
Chairman, some people have suggested, well, if you would allow 
Iran access to peaceful civilian nuclear power, then they would 
not want to build a nuclear weapons capability. But the problem 
with that is that the Iranians concealed clandestine nuclear 
weapons research for 18 years from the International Atomic 
Energy Agency, and that is the verdict of the IAEA, not just of 
our Government, and of its chairman.
    Given that record of deception, we believe that Iran cannot 
be allowed to have enrichment and processing capability that 
would allow it to produce fissile material, which is the 
essential ingredient in a nuclear warhead. And we are focused 
on that. And I think we have the agreement of all of our 
allies. And so our final goal is the cessation and dismantling 
of all sensitive nuclear fuel cycle activities in Iran itself.
    The Chairman. Thank you very much for that response. I 
wanted to wait until more members were here, but I am going to 
ask the staff of our committee to attempt to work with the 
leadership on both the Republican and Democratic sides on the 
floor to gain unanimous consent this committee might continue 
to meet.
    This is an extremely important hearing. I cannot imagine 
any argument with regards to judiciary matters on the floor 
that supercedes the importance of what is occurring here. So I 
am going to make that appeal publically, and I am hopeful that 
our leaders will respond, because we do have indications that 
thus far that response has not been forthcoming. That means 
that we will be shutting down at 11:30, and that will be 
unfortunate with regard to the hearing, as well as for other 
witnesses.
    Senator Dodd, you are recognized.

   STATEMENT OF HON. CHRISTOPHER J. DODD, U.S. SENATOR FROM 
                          CONNECTICUT

    Senator Dodd. Mr. Chairman, the ranking Democrat, Senator 
Biden, is not here, and I always hesitate to try and speak for 
Senator Biden on any matter. I would certainly hear your 
concern on the point you just made and regret as well we are in 
this situation, but obviously there is an issue here that looms 
large over us, a cloud, so to speak, as we talk about the very 
issue before us here.
    There is a nuclear option that is pending before the U.S. 
Senate and my hope is that matter can be resolved amicably 
within the next number of hours. And by creating a little bit 
of tension institutionally, it may get us closer to that result 
or not. So this is regrettable, because this is a very 
important hearing, and I commend you for holding it.
    I am going to defer to my colleague from Florida, who has 
another engagement, and I will come back to----
    The Chairman. Very well.
    Senator Dodd. Thanks, Mr. Chairman.

    STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, just in the interest of 
felicity, if Chuck Hagel were President I would go on bended 
knee and ask him to appoint Ambassador Burns to the United 
Nations, and then we would not have any fights here.
    Senator Hagel. And I would appoint him.
    Senator Nelson. You just ruined Ambassador Burns' career by 
that statement. [Laughter.] I believe you might even have 
Senator Voinovich's support. [Laughter.] We know that the 
Europeans have been negotiating with Iran for some period of 
time. What has caused the sudden change of heart in the United 
States to decide to work with the Europeans now?
    Ambassador Burns. Senator, I think there was a fair degree 
of skepticism within our Government, and other places, about 
the Paris Accords in November of last year when it was 
announced, because of the long track record that we have 
watched, where Iran has hidden many of its clandestine 
activities.
    When President Bush went to Europe in February, he went to 
NATO, had a long discussion with leaders there, had a dinner 
with President Chirac, had a day in Mainz, Germany, with 
Chancellor Schroeder, and this was the leading issue on the 
agenda. And it was clear to the President and Secretary Rice at 
the end of that visit that the European leaders shared the same 
sentiment that we did, that the end result of these 
negotiations between the EU-3 and Iran had to be the cessation 
and dismantling of the nuclear fuel cycle activities, and had 
to be a place where Iran could not use what they said was a 
peaceful nuclear energy program to protect and hide behind it a 
nuclear weapons program.
    And it was really that trip that then lead Secretary Rice 
to have a series of discussions with the EU-3 Ministers in late 
February, early March, and that lead to our March 11 
announcement that we would support them. And I must say, they 
have been very, very faithful partners to us since then.
    Now we are not at the table. We chose not to be directly 
involved with the Iranians. We are not talking to the Iranians 
directly. But we are talking to them every day. One of my jobs, 
working for Secretary Rice, is to keep in very close touch. 
They have been transparent with us. Our EU allies, they have 
been, we think, very tough, as they should be, as they 
negotiate this issue.
    There is an important meeting next week, probably in 
Brussels, next Tuesday, May 24, where the three EU-3 Ministers 
will meet with the Iranian negotiator, and we have every reason 
to believe that the EU-3 will retain there a very tough 
position that will insist that Iran adhere to this accord.
    What appears to be happening, if you look at the public 
statements out of Tehran--Iran, signed a deal in November, we 
will suspend all of our nuclear activities--now they want to 
recommence some of those activities and continue the 
negotiations. And that does not make any sense.
    Senator Nelson. Is this a recognition or acknowledgment 
that the former policy of not talking to the Europeans was a 
failed policy?
    Ambassador Burns. Well, I would not say it was a failed 
policy, because I think you have to--we will both remember that 
before November 2004 there really was not a serious negotiating 
effort with an agreement in place that would provide objective 
guarantees that would suspend the nuclear activities of the 
Iranian Government, and, hopefully, lead to something even more 
rigorous.
    And once President Bush had a chance to sit down and talk 
directly to the European leaders, he made the decision on 
behalf of our Government that we would support them.
    Senator Nelson. Mr. Chairman, I thank Senator Dodd for 
yielding me part of his time so that I could go on to this 
meeting. Thank you very much.
    The Chairman. Thank you, Senator Nelson.
    Senator Hagel.

   STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you.
    Secretary Burns, welcome.
    Ambassador Burns. Thank you.
    Senator Hagel. I noted yesterday in stories that appeared 
in most of our newspapers that the Iraqi Foreign Minister, or 
the Iranian Foreign Minister, was in Iraq on Tuesday. Could you 
share with the committee your thoughts about the Iranian 
Foreign Minister being in Iraq a few hours after Secretary Rice 
was there, what you know about that visit, what you might 
conclude by that Iranian initiative?
    Ambassador Burns. Senator, thank you. It is true that 
Secretary Rice was the first Foreign Minister to visit the new 
government after it was formed. And she was very pleased to do 
that in her visit on Sunday. And she had an excellent 
discussion with the new Prime Minister and his entire Cabinet. 
She met with our military leadership. And then, of course, we 
saw the subsequent visit of Foreign Minister Karzai to Baghdad.
    And, I guess, according to press reports, he is going to 
stay in the country for a few days. It is not surprising, given 
the fact that many of the Shiite groups in Iraq have had long-
time contacts with Iran, and some of the current political 
leaders and the Shiite community in Iraq had refuge in Iran 
during the Saddam period.
    What we would hope is the following: That Iran would play a 
much more positive and productive role in trying to support 
Iraq, as we are trying to support Iraq. But our suspicion has 
been that Iran did not play a constructive role in the many 
weeks and debates about the formation of the current Iraqi 
Government. And the key to a successful future united Iraq is 
to see this power-sharing agreement among the Shiite and Sunni 
and Kurdish elements, and the Iranians do not seem to have 
spent much time supporting that goal of multiethnicity, of 
shared power of a united state in Iraq that overcomes the 
ethnic and religious differences that have been so much a part 
of the fabric of Iraq for a long time.
    So our strong advice for Iran would be to be more 
constructive about what really needs to be done to help the 
Iraqi Government.
    Senator Hagel. Thank you. Picking up a little bit on 
Senator Nelson's line of questioning. If the next Iranian 
Government represented by a new President after the elections 
next month would position themselves so that they would reach 
out to the United States for the United States involvement in 
some direct conversations, not negotiations, but direct talks, 
what would be our position if that occurred?
    Ambassador Burns. Senator, and you will understand, it is 
hard to answer a hypothetical question not knowing who the 
individuals are and not knowing the context, but I think I can 
say that if you look back over the history of our relations 
going back to 1979, we have not been without communication. 
There has been the Algiers process, where for many years the 
lawyers of the State Department and the lawyers of the Foreign 
Ministry of Iran have tried to adjudicate some of the claims 
that have arisen over the closing of the two Embassies and 
complaints by private citizens.
    From time to time, over the last more than 25 years, 
various administrations have chosen to have discussions in 
various capitals with the Iranian Government on discreet 
issues.
    I think there is a very real sense among those of us 
currently in government and those who are in government in the 
past, it has not been the United States that has not wanted to 
see change in this relationship, it has been Iran.
    We have to judge them on their policies and on their 
actions. And on terrorism, human rights, and now on nuclear 
weapons development, they are going in the opposite direction 
of all the other states that are making so much progress in the 
Middle East. So we have not been, over the past 25 years, 
against communication, but the Iranian Government has pretty 
consistently refused to have any interest in normal and 
responsible discourse, and they have not changed their 
policies.
    Senator Hagel. Do you think, however, if the United States 
was more engaged in a more direct way that that would have an 
effect, if the climate was better? Obviously, we are relying on 
our European allies. We are on the outside of that ring, 
possibilities that if the environment would be better that that 
might have more of an impact or do you think it would not? Or 
would it matter?
    Ambassador Burns. Obviously, we thought about this 
question. You have to think about all the tactics that are 
available to any government as you confront a very serious 
problem like a nuclear weapons capability in the hands of a 
theocratic state.
    And it is our judgment that on the nuclear question, the 
EU-3 are pursuing a very tough resolute course of action. And 
we have supported them. We do not believe that there is any 
reason to think that if the United States were at the table the 
Iranians would be any more open to further change.
    And on the broader question of relations between the two 
countries or the nonrelations, in an official sense, this is 
really their choice. They have isolated themselves by their 
actions. And so our Government is always going to be willing to 
look for ways to improve relations with any government in the 
world, but Iran has given us no reason to think that that will 
be--that that will happen any time soon.
    Senator Hagel. Thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman. Let me just, if I 
can, pick up on a question Senator Hagel raised, and then I am 
going to take a couple of minutes and just share some thoughts 
on this. First of all, thank you for being here. I commend you 
for your fine work you are doing on these issues. They are 
complicated and terribly important.
    I picked up some reports that following the visit by the 
Iranian Foreign Minister to Iraq that there is a proposed--at 
least I read about a proposed visit by the Iraqi Energy 
Ministry to be going to Iran--and there is some speculation 
about the possibility of some joint venturing on energy 
projects, which raises the obvious question of the Iraq-Libya 
sanctions legislation.
    Can you tell us whether or not there is such a proposed 
visit in the plans, and what more we can--what you may know 
about that.
    Ambassador Burns. Thank you, Senator Dodd. We have seen the 
press reports about the Foreign Minister's visit to Iraq. I 
think we have received some initial very general reports from 
our Embassy in Baghdad about the nature of that visit. I am not 
aware of a proposed visit by the Iraqi Oil Minister to Tehran.
    Senator Dodd. Okay. I want to follow up on that, because, 
obviously, it would pose some thorny questions here, obviously, 
in terms of sanctions.
    Mr. Chairman, let me, if I can, just share a couple of 
thoughts on the matter and come back with the limited time we 
have here this morning. I do not know of any more important 
issue. If you had to prioritize the issues on foreign policy, I 
think this one is right at the top, in my view. So it is very 
appropriate we are having a hearing to discuss this, discuss 
the matter. And obviously, we thank our witnesses, and we have 
some wonderful ones here this morning. And my hope is, we can 
actually hear from them, but as you point out we may not be 
able to under this setting.
    I think when it comes to the Iranian question we know a few 
things with almost absolute certainty. And I think there is 
probably universal agreement about this, although some may 
dissent from it. The five points, and there may be others, but 
the five points that I sort of identify as being--there is 
common agreement. Iran is almost certainly attempting to 
acquire a nuclear weapons capability, and it is in our common 
interest to do everything we can to stop them from doing so.
    How do we know they are getting the weapons? The country 
has hid its nuclear program from the world for nearly two 
decades. It is now reluctant to give up its capabilities for a 
complete fuel cycle. We know that. And even as part of its 
offers to negotiations, Iran is insisting on keeping, at least, 
a small nuclear research program. Further evidence, I think 
that makes the point, which would eventually provide it with 
some capacity to develop weapons-grade fuel. These are not 
actions of a country that seeks only to have a nuclear energy 
program for civilian purposes.
    The second point is, I think that Iran is developing, or 
attempting to develop, long-range missiles that would enable it 
to project power throughout the greater Middle East and beyond. 
Iran claims that its Shahab-4 missile has a range that would 
enable it to reach large portions of the Near East and 
Southeastern Europe. That places United States bases in Turkey 
at great risk. And Iran reportedly bought 12 X-55 missiles from 
the Ukraine in 2001. And that would even further extend its 
firing range, which should be of grave concern to all of us.
    If Iran develops the capacity to arm those missiles with 
nuclear warheads, then, of course, there would be serious 
consequences on a global level.
    The third point, which I think is general agreement, is 
that Iran continues to provide material and logistical support 
for terrorist groups, such as Hizbollah and Hamas. It seems 
quite clear they are doing it. This includes the provisions of 
weapons and money. Though it seems that Hizbollah is trying to 
increase its role politically in Lebanon, that group's military 
activities continue to pose a serious threat to Lebanese 
stability as well as to the Israeli-Palestinian peace efforts.
    Fourth, Iran is attempting, I think, to extend its 
influence in the new Iraq. And again, the question by Senator 
Hagel and others, and the possibility of joint cooperation in 
some areas, certainly should cause us some concern.
    Fifth, Mr. Chairman, and I will ask unanimous consent that 
further comments to develop these points in the statement 
here--the state of democracy in Iran is weak. Despite the clear 
movement of people in Iran who want to move in a different 
direction, every time they step forward they are barred, 
obviously, from holding office or running.
    Having said all of that, and again, I do not think there is 
any disagreement about that, I want to sort of associate myself 
with the comments by Senator Hagel here, because I am of the 
view that as a result of these points, we have to engage a bit 
more. I just do not think you want to outsource your foreign 
policy to the Europeans on this matter. I think it is important 
what they are doing, and we ought to be supportive and 
cooperative. But I do think it is critical that we engage as 
well.
    We have a diplomatic relationship with Iran. We have 
diplomatic relations with people who are sworn enemies. I think 
we make a mistake by assuming some sort of engagement as a sign 
of weakness, or that we are in some way condoning or endorsing 
activities here. And I am not suggesting full diplomatic 
relations at all, but a far more direct engagement. The very 
points that are a matter of grave concern, it seems to me, 
speak loudly of the importance of having some system by which 
we can begin to influence these events, unless we are 
confronted, ultimately, with the very dreadful choices that the 
chairman has outlined in his initial question to you, which 
none of us want to see us have to arrive at, if we can avoid 
them.
    These questions demand our attention. And I just think, Mr. 
Chairman, as one member of this committee, I know I am probably 
at odds with most of my colleagues on this committee, and 
certainly I know. And Secretary Burns has made it quite clear 
that there is a great deal of reluctance for us to move forward 
in any kind of a direct engagement here. And he cites good 
reasons about Iranian behavior. But it seems to me, despite 
that, it is in our common interest here to try and find a way 
to become more directly involved here if we are going to solve 
any of these five or six issues that I have raised here this 
morning with any degree of success in the coming years.
    And with that, I will come back with a couple of questions 
later on, Mr. Chairman, but I appreciate the opportunity to 
express that point of view.
    The Chairman. Well, I thank the Senator for a very 
thoughtful analysis.
    Senator Coleman.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman. I do note my 
colleague from Connecticut mentioned the ``nuclear option'' and 
its relevance, perhaps, to this conversation. I would also note 
that the approach taken by my colleagues on the side of cutting 
off engagement, perhaps at about 11:30, may be tacit 
acknowledgment that sometimes you can put pressure on folks by 
cutting off engagement.
    Let me turn, however, again to Senator Hagel's question, in 
which he talked about the prospects and the hypothetical of a 
representative of a new Iranian President reaching out.
    The fact is the Mullahs rule Iran, so my question to you 
is: What is the prospect, regardless of who the President is, 
of having any sort of ability to actually formulate foreign 
policy?
    Ambassador Burns. Senator, I think you are right to point 
to that issue. If you remember back in 1997 when Mr. Khatami 
was elected, there was great hope in the United States and 
Europe--I remember at the time, the Clinton administration--
great hope that we might be able to engage a reformist-oriented 
Iran, and all the promise of his particular government was not 
borne out in deeds, because of this ruling clique that holds 
the reigns of power in Iran itself.
    And as we look ahead to the June 17 election, it looks like 
the Guardian Council will disqualify most of the reformist 
candidates. And so the people of Iran will be left with a 
choice of, you know, people who do not represent the drive for 
reform in Iran. And that would mean that after the new 
government is formed on June 17, we would all be left around 
the world in trying to communicate or deal with a government 
that has not wanted to deal with us and that has not changed in 
any way its support for terrorism, its refusal to recognize 
even the existence of Israel, and now its support for a nuclear 
weapons program, and its abysmal human rights record.
    So it is a very difficult situation. I was trying to think, 
preparing for this testimony yesterday, is there another 
diplomatic relationship like this. And there really is not. We 
do sit down with the North Koreans. We are trying to sit down 
with the North Koreans, if they would just come to the table, 
in the six-party talks. We have an interests section in Cuba. 
We talk to the Cubans, have had for many decades. But we have 
this very strange relationship with Iran, or nonofficial 
relationship with Iran. The key to it is to see a change in 
behavior and policies and actions of the Iranian Government, 
and we have just not seen any improvement.
    Senator Coleman. I believe I have time to ask one other 
question. In an interview with USA Today, Kofi Annan said he 
hoped the United States and the Europeans would not bring the 
issue of Iran's nuclear weapons program to the Security 
Council. I do not know whether you have seen the piece. I think 
he said he believed we would be too divisive.
    I take it you do not share this perspective. At least, it 
is my understanding of your testimony. But I ask you whether 
you share that. And then I raise another issue: If, in fact, 
Iran violates, breaches the Paris accord, what is the 
likelihood of bringing China and Russia on board to get 
anything through the Security Council?
    Ambassador Burns. Thank you, Senator. It is our very strong 
hope that Iran will not break the Paris agreement. So that 
means, specifically, that it will not go into the plant at 
Esfahan, break the IAEA's seals, and begin to convert uranium. 
If they do that, then they violate the suspension provision of 
the 2004 agreement in Paris.
    The European countries have said, the three of them, 
including Secretary Straw the other night when he held his 
joint press conference with Secretary Rice, that they would 
take Iran to the IAEA Board of Governors in emergency session, 
and then they believe the IAEA would refer the Iranian 
violation of the agreement to the United Nations Security 
Council. That is what our European partners have said, and, of 
course, Secretary Rice has said that we would support that. Now 
once it gets to the Council, anything could happen. There could 
be a Presidential statement. There could be a U.N. Security 
Council statement. There could be much tougher actions leading 
to further international sanctions on Iran.
    Our strong hope and our message to Tehran today is that 
they not take that step to recommence uranium conversion, that 
they honor the agreement they have had, that they continue the 
negotiations with the EU-3 on a peaceful, diplomatic basis 
through the June 17 elections. And if, and when, a new Iranian 
Government emerges after those elections, the Europeans would 
continue and we would continue our support. But we cannot 
support, and I think the Europeans have said they cannot 
support, a process where Iran breaks the agreement, breaks 
suspension, returns to nuclear activity, but says we want to 
continue the negotiations. That is not sustainable.
    Senator Coleman. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Coleman.
    Senator Feingold.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Thank you, Secretary Burns. In your 
testimony you suggested that the United States may have a more 
positive image in Iran than we may think, and you spoke of the 
youthful population's desire for reform. Say a little bit, if 
you would, about another factor in Iran's political dynamics. 
How strong is nationalist sentiment in Iran? What relationship 
exists, if any, between Iranian nationalism and popular support 
for Iran's nuclear program? If you could just comment on those, 
and how much of a factor is this going to be in our ability to 
support voices speaking out for reform?
    Ambassador Burns. Senator, I think it is the really 
important question, because it lies at the heart of whether or 
not we think Iran can change in the future. What I would like 
to say on the first part of your question is that, obviously, 
the Iranians are a very proud people. They have a great 
history, a very long history, and, in our view, a great sense 
of pride among all Iranians, including the younger generation 
about what their culture has achieved over a millennia. We are 
aware of that, and that is not surprising, given the great and 
rich culture of that country.
    There is also a second new wave in Iran, and that is the 
under-35 population. It is the majority of the population. They 
clearly, in their support for Mr. Khatami in 1997, and 
subsequent elections, and what they have done in the streets, 
and what the university students have done in demonstrating, 
they clearly are signaling their desire for change, for greater 
rights for women. And women's rights have taken a major hit in 
the last couple of years. They have actually drawn back some of 
the advances that have been made, the Iranian Government has 
done.
    So these young people want to live in a more pluralistic 
and liberal society, because they have access to the private 
radio and TV from Los Angeles and from our great Iranian-
American community in the United States, which is broadcasting 
into Iran from Radio Farda and from Voice of America. They know 
what the outside world is like. They want to be part of it.
    So I think you are right to suggest that there are two 
sentiments among the Iranian people. It seems to us, and I 
would like to get back to you on this, maybe with a more 
considered answer, that the drive for a nuclear weapons program 
has not been a major divisive issue within the Iranian society, 
and obviously one source of pride. Hard to say. We are not 
there on the ground. And that is why I would like to get back 
to you----
    Senator Feingold. Sure.
    Ambassador Burns [continuing]. With maybe some more 
considered thought on that. But I think you are right to assert 
that there are two perhaps conflicting streams of thought here.
    [The submitted answer by Ambassador Burns to the 
information requested follows:]

    Question. How strong is nationalist sentiment in Iran? What 
relationship exists, if any, between Iranian nationalism and popular 
support for Iran's nuclear program?

    Answer. We believe that there is broad popular support for Iran's 
development of nuclear technology. For its domestic audience, the 
regime has couched its argument in favor of a nuclear program in terms 
of Iranian nationalism. The regime has played to longstanding Iranian 
public fears and prejudices by falsely claiming that United States and 
European objections are illegal, illegitimate, and seek unfairly to 
block Iran's ``right'' to develop nuclear technology.
    The regime claims the West is motivated by a fear of Iran and a 
desire to limit Iranian scientific and technological advancement as a 
means to prevent or retard the Iranian nation from assuming its 
rightful leadership role in the region. In making these arguments, Iran 
has consistently ignored the requirement that its nuclear activities 
must be in conformity with the nonproliferation articles of the treaty 
on the Non-Proliferation of Nuclear Weapons and, in fact, they have not 
been. In response to international concerns that its nuclear ambitions 
are destabilizing, the regime insists emphatically that its intentions 
are peaceful and that use of a nuclear weapon would be ``un-Islamic.'' 
This assertion by the regime serves to generate domestic support for 
Iran's nuclear program, clearly influences Iranian public opinion and, 
given the absence of access to nonstate controlled media, complicates 
efforts to assess real public support for development of a nuclear 
weapon.

    Senator Feingold. When I was in Mali in Africa, in January, 
I was really struck by the enthusiastic reception that it 
seemed like hundreds of thousands Malians gave to Iranian 
President Khatami, who was there. Thousands of Malians lined 
the streets to cheer his motorcade, and most of them were 
children.
    What can you tell us about Iran's overall strategy of 
outreach and engagement of the developing world?
    Ambassador Burns. Well, Senator, we know that Iran, for a 
very long time since the revolution, has had a very vigorous 
public diplomacy campaign to authorize their brand of Islam 
throughout the Muslim world. We know they have been very 
vigorous in mosque construction, in supporting religious 
communities, and very vigorous in their outreach to their 
neighbors. Not surprising. Many countries do that.
    The really interesting thing is, if you look at the Middle 
East region and look at the trends in the Palestinian community 
with the elections in Israel, in Iraq, the trend is--in the 
enfranchisement of women in Kuwait that just occurred 2 days 
ago--the trend is for greater openness and greater receptivity 
to pluralistic ideas. But Iran is marching in the opposite 
direction.
    And so we wonder if this Iranian public relations offensive 
can ultimately be successful in a Muslim world, which we think 
gradually is going to have to be more open to different types 
of ideas.
    Senator Feingold. Well, on a commercial side, how 
successful has Iran been in building commercially based 
alliances with China and India and Russia, and how much of an 
obstacle will that be to our diplomacy?
    Ambassador Burns. Senator, I cannot give you off the top of 
my head the trade figures, but I can tell you that, obviously, 
Iran has a vigorous trade relationship with Russia and China, 
and with many other countries in the region. We have counseled 
our European allies, all of whom have diplomatic relations, 
most of whom have Ambassadors, and Iran, that they should be 
very careful, especially in dual-use technologies.
    The presence of ILSA I think has been--the legislation 
since 1996 has been a positive force, an instrument for both of 
the last two American administrations in trying to caution our 
allies about trade relations with Iran.
    Senator Feingold. What are the next steps if Iran does 
resume steps toward the uranium enrichment process that is 
supposed to be frozen? And what specifically would the United 
States pursue in the Security Council, if that happened?
    Ambassador Burns. Senator, we have made clear, but I think 
more importantly in this case, the European three countries 
have made clear that if Iran violates the Paris agreement of 
2004, if it breaks the seals and begins to convert uranium, if 
it seeks an enrichment capability or reprocessing capability, 
it is obviously going to be going in the opposite direction. It 
would have violated the agreement. The EU-3 would want to take 
action, at the IAEA and the United Nations, and we would 
support that. And we said that quite consistently over the last 
2 weeks.
    Senator Feingold. Have we laid the groundwork so we can be 
effective on this in the Security Council, if this happens?
    Ambassador Burns. You know, our strong hope is that this is 
not going to happen. It is very interesting what has been 
occurring publicly in the last 2 weeks. The Iranians have an 
agreement. They have been saying publicly in Europe and in 
Tehran, ``We might now break the agreement,'' but have not done 
it. So we are using, even forums like today, like this hearing, 
to say to the Iranians, ``Do not break the agreement. Meet your 
commitment to the Europeans. Find a peaceful negotiated 
solution to this problem.'' That is our very strong hope.
    Senator Feingold. Thank you, Mr. Chairman.

   Prepared Statement of Hon. Russell D. Feingold, U.S. Senator From 
                               Wisconsin

    I thank the Chairman and Senator Biden for holding this hearing 
today, and I thank all of the witnesses for their time and their 
insights.
    I share the deep concern of many Americans regarding Iran's 
destabilizing nuclear program and Iran's ongoing support for 
international terrorist organizations. And while I share the 
administration's enthusiasm--though not all of their strategies--for 
promoting democracy around the world, I also recognize that there 
appears to be widespread popular support in Iran for nuclear weapons 
development, despite other sources of popular dissatisfaction with the 
ruling regime.
    The serious security issues that we confront in Iran underscore the 
vital importance of moving forward on a number of broad policy fronts. 
The United States should be deeply engaged in working toward reforms of 
the global nonproliferation regime, and particularly the current review 
of the Nuclear Non-Proliferation Treaty. We must work to build a new 
international consensus so that countries cannot legally go right to 
the brink of producing a nuclear weapon, making it a little late for 
enforcement action once they finally do cross the line. But the 
administration has failed to adequately prepare for this important 
opportunity.
    The United States has limited leverage in Iran, and so must rely on 
effective multilateral mechanisms to apply pressure to Tehran. But 
again, although the United States is now working with the Europeans on 
the Iranian nuclear issue, for too long, and on too many other fronts, 
this administration has pursued go-it-all strategies that make it more 
difficult to muster international support for action when such support 
is vitally needed.
    The United States needs unimpeachable credibility in the event that 
our intelligence does reveal ongoing Iranian pursuit of nuclear 
weapons. But as we all know, U.S. credibility on these matters in the 
view of the intelligence failures relating to Iraq--and the overheated, 
sometimes misleading rhetoric that the administration used to 
characterize intelligence relating to Iraq--is at an all-time low.
    These issues--our pursuit of a better nonproliferation regime, our 
capacity to generate international support, and our credibility--are 
vital to our security. I am concerned that this country is not on sound 
footing to confront the difficult choices posed by Iran's policies 
today. So while I look forward to today's review of where we stand now, 
I also want to highlight the fact that our Iran pro-choices do not 
occur in a vacuum. We have to get the context for tackling this 
difficult problem if we are to succeed.

    The Chairman. Well, thank you very much, Senator Feingold. 
Let me give some good news to the committee and all of our 
watchers. Very able work by Democratic and Republican staff 
members, with cold calls by respective parties, has brought 
agreement that there will be a unanimous consent request filed 
for the committee to be able to continue and that that will not 
be objected to.
    So I just want to express publically my appreciation to the 
Democratic and Republican persons on the floor and to our 
leaders for permitting this to continue, because I believe it 
is important and I believe that all members feel it is 
important.
    Senator Voinovich.

   STATEMENT OF HON. GEORGE VOINOVICH, U.S. SENATOR FROM OHIO

    Senator Voinovich. I am comforted that you are on a regular 
communication basis with the EU-3, indicating our interest in 
what they are doing. I think that constant communication back 
and forth is as effective as if we were at the table.
    Second of all, I wonder--I would assess that from what you 
said that you think we are making progress, as contrasted with 
some people who think that we are not making progress in terms 
of Iran and getting them to abide by their agreements. You have 
mentioned that the President has talked to President Putin and 
others.
    What I would like to know is: How much communication have 
we had with other members of the Security Council in regard to 
what we are doing there? And the reason I am asking that 
question is that by having communication with the members of 
the Security Council about what is going on and perhaps trying 
to influence them to, maybe, pick up the phone and call some 
people, that that would put more pressure on Iran to comply 
with what the EU-3 are trying to get them to accomplish.
    Ambassador Burns. Senator, thank you. I would agree with 
your first two points, that we have played an effective role 
since March 11 through the daily diplomatic contact, even this 
morning, that we have had with the EU-3. We will continue that. 
I would also agree there has been progress over the last couple 
of months in the sense that there is an agreement in place 
between the EU-3 and Iran. It is very specific and it is very 
transparent. And it is verifiable by the IAEA. And that had not 
been the case for many years prior to that agreement. And that 
is one of the reasons why President Bush decided we ought to 
support the EU-3 process.
    We have worked very closely with other members of the 
Security Council. We were in touch with the Russian Government 
over the weekend. There was a visit by a Russian official to 
Tehran last week on this issue. We have a full debrief. The 
Russians have been--and we have been also in constant touch 
about this, so that if--if this issue should go to the Security 
Council, we would hope for the broadest possible support of all 
of its members. And we have talked----
    Senator Voinovich. How about the Chinese?
    Ambassador Burns. We have had more limited contact with the 
Chinese, because the Russians also have a role here, as you 
know, because of the relationship that the Russians have had 
with the Bushehr facility in Iran. And we have advised the 
Russians that here is an opportunity for the Russian Government 
to play a very constructive and useful role. And our 
understanding, from conversations that I have had with the 
Russian Deputy Foreign Minister is that they have counseled 
Iran not to break the agreement, not to begin the process of 
uranium conversion, and we hope the Russians will continue to 
insist upon that in their talks with the Iranians.
    Senator Voinovich. The other question I have is: If we are 
successful with the peace process in the Middle East between 
Israel and Palestine, and we are making some progress on that, 
what impact do you think that would have on this whole 
situation in terms of Iran?
    Ambassador Burns. Well, obviously, it would be a great and 
positive----
    Senator Voinovich. Does Iran want to go back to before 48? 
I mean I do not----
    Ambassador Burns. Obviously, it would be a great and 
positive development to see a peace agreement. And we are 
working, the Secretary and President are working for that every 
day. Iran is alone among the states of the Middle East in 
refusing to acknowledge the existence of a State of Israel and 
its right to exist.
    Iran has funded and directed the operations of three of the 
major terrorist groups that have inflicted countless casualties 
upon the Israeli public in Gaza and in the West Bank, and in 
Israel itself. And those groups have killed Americans.
    As I said in my testimony, we have not forgotten 1983 and 
the hundreds of Americans killed in Beirut, and 1984, when 
Malcolm Kerr was killed, the president of the American 
University of Beirut. In 1985, when Colonel Higgins was 
captured by Hizbollah and tortured, and then executed. And Iran 
has supported these groups consistently, and to this very day. 
So at a time when you see in Egypt, in Jordan, in the gulf, you 
know, policies designed to support the peace negotiations 
between Israel and the Palestinians, Iran refuses and fuels the 
terrorism designed to stop that peace process.
    Senator Voinovich. Are the other nations doing anything to 
influence them at all?
    Ambassador Burns. I think we would have to go through the 
relationship that each of them has. I do not think there is a 
lot of love lost, frankly, among many Middle Eastern countries 
for the Iranian Government and regime, and for the policies 
that they have pursued.
    Senator Voinovich. Thank you.
    The Chairman. Thank you very much, Senator Voinovich.
    Senator Dodd, do you have a final question?
    Senator Dodd. Just a couple, Mr. Chairman. Again, I 
appreciate the secretary being here. And I am glad we are able 
to work out the situation----
    The Chairman. I appreciate it.
    Senator Dodd [continuing]. So we can go forward on the 
floor. Just a couple of questions.
    One is, there was a radio interview done by, I guess it was 
some months--I think January, when the Vice President, at 
least, seemed--and I do not want--I am not going to--I do not 
have the quotes here, but, at least, the impressions were in 
some quarters that the Vice President was suggesting that the 
United States might be willing to back up or back an Israeli 
air strike on Iran's nuclear facilities.
    One, was there an interpretation within the Department that 
that is what he was saying, on the one hand. Could you share, 
first of all, your comments on that? Do you know what I am 
speaking about?
    Ambassador Burns. Senator, I do not recall the specific 
comments, but I can speak to the issue in general.
    Senator Dodd. Why do you not speak to the issue and put 
aside for a second whether or not that was the case, because I 
think your very interesting interchange with Senator Feingold 
is a very worthwhile one. I think it is important, I think, to 
make the point. I think it has been made by others, that this 
nuclear issue in Iran is not--there is not a bright line 
between the reformers and the existing government. There is a 
sense of probably collective Iranian pride over this 
capability, and that they are beyond the capabilities of 
whether or not you could actually take out the Iranian nuclear 
program by an air strike is one question I would ask you. You 
are very knowledgeable about this. And all of this would 
suggest is that this is much more complicated than the Iraqi 
strike a number of years ago that the Israelis conducted.
    And second, what are the political implications of that 
should it occur, in terms of trying to build some relationships 
within that more moderate Iranian constituency?
    Ambassador Burns. Senator, obviously, this is a very 
sensitive question, and it requires a careful response. And the 
way I would respond would be to say that our policy is grounded 
first and foremost in the conviction that the Iranian people 
ought to have the same right to a democratic and free future 
that all people should have; that Iran should not be immune 
from the more positive changes that we think are under way in 
the greater Middle East; and that the basis of our policy in 
funding VOA and Radio Farda and the democratization programs 
that the Congress has funded, is to support that long-term 
change within Iran itself.
    Secretary Rice was asked in her first trip to Europe in the 
first week of February of this year on countless occasions a 
variation of the question that you have just asked. And what 
she said on those occasions was that--was that that is not on 
the agenda. That type of action is not on the agenda at this 
time, because we have resolved to pursue and to support a 
peaceful negotiated settlement of the Iran nuclear problem.
    Secretary Rice, and the President, and other administration 
officials, including the Vice President, have also said on many 
occasions that, of course, the United States and the American 
President never take any option off the table as well, but it 
is very clear that we are pursuing and supporting a peaceful 
negotiating process lead by the Europeans. And we have been 
very stalwart supporters of that process.
    All of this lies within the hands of Iran. If they would 
just continue to honor the agreement they signed in November, 
then that will lead toward the peaceful negotiated settlement.
    Senator Dodd. I do not disagree with that. I just have this 
question. Let me move to that question, too, because I do think 
it is worthwhile. I was very pleased to see the shift that 
occurred with the EU-3 efforts that have been--at least the 
perception of some hostility to that particular effort earlier 
on. It, at least, appeared to this Senator that it was a change 
in tone, and I welcomed that. It was a very smart and proper 
move to make, and we are very hopeful that can prove to be 
successful.
    You are not going to shock me, nor, I believe, that you 
would be shocked to hear the Iranians say that as part of this 
negotiation they would like the United States to be more 
directly involved. I am not going to be surprised to hear that 
request forthcoming. Are we prepared to answer that when it 
occurs, and if so, what is our answer going to be?
    Ambassador Burns. It is interesting that you should raise 
it. I would have to--and I will check with some of my 
colleagues in the Government. I just took this job 2 months 
ago, so my colleagues who were on this beat before I was. But 
certainly in my time, in the last few months, we have never 
received such a request from----
    Senator Dodd. No. I am not suggesting we have. I am 
anticipating we might get one, and I am curious as to what our 
response would be if we were to received one.
    Ambassador Burns. Our view is that the current negotiating 
process is the best way forward. And the other thing to keep in 
mind is, we are at May 19, there will be elections on June 17. 
We cannot now predict what type of government, who will be in 
charge in Tehran, what individuals will be sitting across the 
table. So, I think, that is not a question that we can answer 
right now. So we are content to support the current EU process.
    Senator Dodd. Well, I would be very interested, and I am 
sure the committee might be, that if it comes up, to re-engage 
in conversation about how we might respond to that if it were 
to occur, that is a request for our more direct involvement 
with the EU-3 as it emerges.
    And last, if I can, just to quickly--and again, I wish we 
had more time to hear, because you obviously have some 
knowledge about all of this. I have been interested to hear 
some people comment about the diversity of opposition groups 
within Iran itself. It runs a rather broad--a wide spectrum, 
rather, for those who are out and out hostile to it, and would 
engage in activities that would be more direct, and others who 
are looking to engage in opposing the present Government of 
Iran through the normal political processes in the country, 
albeit, they have had a very difficult time doing that.
    Give us a few minutes, if you would, give us some sort of 
picture of this spectrum, if you will.
    Ambassador Burns. Senator, there is no question in our 
minds, given everything that we know about what is happening 
within the Iranian society itself, that it is a society in 
ferment. It is a very dynamic time in the history of Iran. We 
believe there is great disillusionment, particularly among the 
younger segment of the population, about the policies of the 
current ruling regime, particularly regarding women and the 
discriminatory policies that have gotten tougher over the last 
few years in denying women basic rights, certainly in the 
treatment of journalists and broadcasters by the Iranian 
Government, so many of them have been arrested. And in one 
case, the one that I talked about in my testimony, tortured and 
executed.
    And so we believe that the best thing they can hope for is 
to see that fermentation continue, and to see a process where 
people gradually acquired greater rights, and so that their 
influence might be felt more strongly by the regime.
    Senator Dodd. How directly can we be supportive? Are we 
being supportive? Can we be more supportive? What are we doing 
to be supportive?
    Ambassador Burns. We are being supportive in some of the 
funds we receive from Congress. We are funding Voice of America 
radio programs into Iran, which is vital, given the lack of 
free information. Radio Farda.
    We are now considering actually buying some time on private 
American radio and TV broadcasts into Iran to showcase our own 
programs and to Iran itself. The National Endowment for the 
Humanities has been active. We have formed a human rights group 
with some of the other--with our European allies, designed to 
put a human rights spotlight on Iranian Government performance.
    So, yes; we are involved. We have limits in our ability to 
be effective, because we do not have people on the ground. We 
do not have an Embassy there. There are very few Americans who 
have access to that society because of the sanctions that are 
in place. So most of this is done through NGOs. And much of it 
is also being done by our European allies and other countries 
that have more normal relationships.
    Senator Dodd. We have been, though, quietly supportive of 
some contacts. I noted the other day that James Billington, the 
Librarian of Congress, spent some time in Iran meeting with 
people on a cultural level, obviously did so with the approval 
of the administration and facilitating that.
    Are there other such contacts that we are quietly promoting 
without advertising, to a great extent, to develop some 
contacts?
    Ambassador Burns. There are a few. We have not taken a 
position that we should not talk in any way, shape, or form 
with the Iranians. There have been diplomatic contacts in 
decades past, but none recently, and none on the nuclear issue.
    And I would just point you back, do you remember the Bam 
earthquake?
    Senator Dodd. Yes.
    Ambassador Burns. A terrible tragedy there. I remember 
Secretary Powell offered assistance. We offered to send a high-
level delegation with a Member of the Senate, with a member of 
the President's family to Iran, and that was refused.
    So we have taken, in the past, many opportunities to try to 
signal our interest in reaching out to normal people there on a 
humanitarian basis, and more often than not have been rebuffed.
    Senator Dodd. Well, I appreciate that. We have other 
witnesses to hear from. I would hope that you would continue to 
pursue that, because I go back to the point I tried to make at 
the outset of my comments here. The importance of engaging--
and, again, I want to emphasize, by that I do not in any way 
mean that we are sanctioning Iranian behavior. But I think 
keeping that effort up is very much in our common interest to 
do so. So I appreciate your testimony. You are very 
knowledgeable. And I thank you for being here.
    The Chairman. Well, thank you, Senator. And I join Senator 
Dodd in thanking you for coming today, Under Secretary Burns.
    Ambassador Burns. My pleasure.
    The Chairman. We asked that the administration furnish a 
witness at the highest level who is best informed with regard 
to our policy, and we are grateful that you have been 
forthcoming in response to our questions.
    I congratulate you again on your tenure as our Ambassador 
to NATO. And we just mention this, as all committee members 
have on many occasions, that your tenure was very important in 
terms of the expansion of NATO's membership, and likewise, the 
expansion of the mission of NATO. The work you have done there 
has not gone without notice. We just take this opportunity 
again to congratulate you and your colleagues who worked with 
you in that endeavor.
    Well, having said that----
    Ambassador Burns. Thank you, Senator.
    The Chairman [continuing]. We appreciate you coming, and we 
now call upon our second panel of witnesses. And that panel 
includes Dr. Geoffrey Kemp, director of Regional Strategic 
Programs at the Nixon Center; Dr. Gary Milhollin, director of 
the Wisconsin Project and Nuclear Arms Control; Dr. George 
Perkovich, vice president for Studies, Carnegie Endowment for 
International Peace; and Dr. A. William Samii, regional 
analysis coordinator for Southwest Asia and the Middle East, of 
Radio Free Europe and Radio Liberty.
    Gentlemen, we appreciate your coming to the committee this 
morning. I will ask you to testify in the order that I 
introduced you, and that will be first of all, Dr. Kemp. Let me 
just say that each of your prepared statements will be made a 
part of the record in full, so you need not ask for permission 
that that occur. It will occur. And I will ask you to proceed 
as you wish, hopefully summarizing many of your comments so we 
can then proceed to questions of the committee.
    Dr. Kemp, thank you for coming again to our committee. It 
is always good to have you here, and please proceed.

STATEMENT OF DR. GEOFFREY KEMP, DIRECTOR OF REGIONAL STRATEGIC 
           PROGRAMS, THE NIXON CENTER, WASHINGTON, DC

    Dr. Kemp. Thank you very much, Senator. I am delighted to 
be here again. I will give a summary of a summary.
    Iran's extensive program to develop an independent nuclear 
fuel cycle has reached a point where, short of a 
counterrevolution, I doubt if any future Iranian Government 
would be prepared to dismantle it. The focus of current 
negotiations between Iran, on the one hand, and the United 
States and the European Union, on the other, is whether the 
Islamic Republic would be willing to end some activities, such 
as uranium enrichment, in exchange for assistance for this 
nuclear power program.
    In my judgment, Iran's leaders will never comply with these 
demands unless the United States and the EU can offer the 
Iranian Government far more incentives than they have, so far, 
been prepared to put on the table.
    At the same time, as long as talks are ongoing, they are 
unlikely to precipitate a crisis, at least not in the short 
term. But absent some fundamental change in the Iranian 
leadership, combined with a willingness on the part of the Bush 
administration to take big risks, the United States is on 
course for a serious crisis with Iran at some point in the 
coming months.
    No agreement between the United States and Iran on the 
nuclear question is possible unless two fundamental changes 
occur. First, there must be an Iranian Government prepared to 
negotiate with the United States about the fundamental problems 
of the bilateral relationship. Second, the administration here 
has to be prepared to negotiate on these issues with a regime 
that many of its policymakers and supporters wish to get rid of 
altogether.
    What are the near-term options on this issue? A joint 
United States-European Union decision to take Iran to the 
Security Council, because of violations of its NPT agreements, 
could have a compelling impact on Iran, provided Russia, China, 
and other U.N. Security Council members supported it, and 
important countries, such as Japan, agreed to end key economic 
ties to Tehran.
    Under these circumstances, Iran's leaders might blink, 
especially if other Middle East developments were, from its 
perspectives, going in the wrong direction. Namely, that 
American policy was succeeding better than we expect. This 
could include an Arab-Israeli peace settlement, an end to the 
Syrian occupation of Lebanon in its entirety, the disarmament 
of Hizbollah, and the emergence of a pro-American democratic 
Iraq.
    But these are a lot of ifs. Iran would have to be found in 
clear, unequivocal violation of the NPT to get the support from 
the majority of the Security Council. So far, the Iranians have 
been too clever to allow this to happen. Russia and China both 
have huge stakes in Iran, and regard the Iranian Government as 
a friendly power. These interests will only grow in the coming 
years, especially given China's insatiable need for petroleum 
to meet its burgeoning car-owning middle class.
    Another alternative that was just briefly discussed here 
is, of course, the possible use of force. By this, I mean a 
massive military assault by the United States on Iran's 
infrastructure that could cause significant damage to the 
program. But I think this option would have to assume the 
United States had no choice but to declare war on Iran, for 
this is what it really would be. Such an act would probably be 
unanimously condemned, including by the Bush's administration's 
closest ally, Britain.
    Given the loss of credibility over United States 
intelligence on Iraq's weapons of mass destruction, proving 
that Iran has the bomb will be very difficult unless Iran 
obliges us by doing something reckless and out of character, 
such as testing a nuclear device.
    If these options are not likely to work, what are the 
prospects for a political agreement that provides enough 
incentives on both sides to take it seriously? In my judgment, 
this will only happen if pragmatic, as opposed to ideological 
conservatives emerge as decisive players in Iran's June 2005 
Presidential elections.
    Could a leader such as Rafsanjani, the former President, 
contemplate such a deal? Could he sell it to his theocratic 
friends? Would the Bush administration be willing to negotiate 
with such a man and such a regime? For the United States the 
bottom line would have to be the end of Iran's nuclear weapons 
program, the end of terrorism against Israel, and cooperation 
with us in Iraq and Afghanistan.
    For Iran, it would have to mean the end of United States 
economic sanctions. And this, I think, is the critical point, 
the acceptance of the Islamic Republic as a legitimate player 
in the region.
    If for whatever reason a radical new approach on the part 
of both Washington and Tehran is out of the question, the best 
the administration can hope for is that we prepare for the 
coming crisis jointly with the Europeans as allies rather than 
as loggerheads. And in that regard I have to say, Mr. Chairman, 
I was very pleased to hear Secretary Burns' testimony, which 
mentioned cooperation with the Europeans more times than I have 
heard in 4 years.
    In the face of European-Atlantic solidarity, there is a 
chance that the Iranians will be prepared to fudge the program 
for a few more years. But ultimately, I think we have to accept 
there is no way the United States, Europe, or the U.N. Security 
Council can stop a country, a proud country of 70 million 
people with abundant resources and lots of oil, from getting 
the ingredients for a nuclear bomb if that is what their 
leaders believe they must have.
    For this reason, it would be very prudent to engage in 
substantive dialog, not just with our European allies, but 
other friends, particularly in the gulf countries, about what 
to do if the Iranian bomb becomes a reality, and preemptive war 
with Iran is considered the unacceptable option.
    Most importantly, and here I reiterate what Secretary Burns 
said, the United States and Europe must bite the bullet and 
agree with each other on a common strategy that is unambiguous 
as to the limits of the carrots and sticks both parties are 
prepared to present to Iran's leaders and the international 
community.
    In other words, we need to draw a much more specific 
roadmap to establish clear responses to certain Iranian 
actions, such as their decision to convert exofluoride gas or 
their resumption of the Iranian enrichment program.
    The key, Mr. Chairman, must be to prevent Iran from driving 
a wedge between the United States and Europe on this issue.
    Thank you.
    [The prepared statement of Dr. Kemp follows:]

Prepared Statement of Dr. Geoffrey Kemp, Director of Regional Strategic 
               Programs, the Nixon Center, Washington, DC

    The Bush administration and its European allies will soon have to 
make some tough decisions on what to do about Iran's nuclear ambitions. 
Iran's extensive program to develop an independent nuclear fuel cycle 
has reached a point where, short of a radical counterrevolution, no 
future Iranian Government will be prepared to dismantle it. The focus 
of current negotiations between Iran on the one hand, and the United 
States and the European Union on the other, is whether the Islamic 
Republic would be willing to end some activities, such as uranium 
enrichment, in exchange for assistance with its nuclear power program.
    Iran's leaders will never comply, even with these demands, unless 
the United States and the EU can offer the Iranian Government far more 
incentives than they have so far been prepared to put on the table. At 
the same time, as long as talks are ongoing, they are unlikely to 
precipitate a crisis, at least not in the short term. But absent some 
fundamental change in the Iranian leadership, combined with a 
willingness on the part of the Bush administration to take big risks, 
the United States is on course for a serious crisis with Iran at some 
point in the coming months.
    When it comes to Iran's nuclear activities, the Bush 
administration, like its predecessors, has tried to balance its formal 
wish to strengthen the global nuclear nonproliferation regime (which 
requires a high degree of international cooperation) with its specific 
demands on Iran and the other remaining member of the Axis of Evil, 
North Korea.
    Iran's leaders and many ordinary Iranians accuse the United States 
of double standards and do not take kindly to the admonitions of the 
Bush administration and the European Union about the dangers of their 
nuclear program, which, so long as it is technically in compliance with 
NPT rules, is legal. The Mullah's surmise that the reason they are 
under scrutiny by the United States is because of their policies on 
other issues, such as support for terrorism and their rejection of 
Israel's right to exist. After all, the United States had plenty of 
opportunity to shut down the Bushehr nuclear plant when the Shah began 
to develop Iran's nuclear program in the 1960s and 1970s. But the Shah 
was an ally; the strongest pillar for the defense of the Persian Gulf. 
He was a man we could trust and a friend of Israel. He was the ruler 
whose country was, to quote President Jimmy Carter in 1978, an ``island 
of stability.'' But in a matter of months, a revolution threw the Shah 
out, and the United States had to face the radical (and anti-American) 
Islamic Republic of Iran. In short, when the United States comes to the 
nuclear negotiating tables, whether in Vienna, Geneva, or New York, it 
comes with a lot of baggage and its homilies are greeted with great 
skepticism not only by Iran, but by many countries who are signatories 
of the NPT.
    This does not mean that attempts to stop Iran's nuclear activities 
are unworthy; an Iranian bomb would radically change the strategic 
environment in the Middle East and be a further nail in the coffin of 
the NPT. Furthermore, President Bush has made it clear the United 
States will not allow Iran to get nuclear weapons. Speaking at the 
White House on June 18, 2003, Bush stated, ``the international 
community must come together to make it very clear to Iran that we will 
not tolerate the construction of a nuclear weapon.'' This is a clear 
statement of policy and cannot be fudged. The question is: How will 
Bush and the Europeans implement an agreement with Iran that denies 
them the right to develop an independent fuel cycle? The answer is that 
they will fail unless Iran's leaders and its public are convinced a 
deal is worth their while.
    No agreement between the United States and Iran on the nuclear 
question is possible unless two fundamental changes occur. First, there 
must be an Iranian leadership that is prepared to negotiate with the 
United States about the fundamental problems with the bilateral 
relationship. Second, the Bush administration has to be prepared to 
negotiate on these issues with a regime many of its policymakers and 
supporters wish to get rid of altogether.
    Aside from a broad band ``grand bargain'' United States-Iranian 
settlement, what are the near-term options on the issue? A joint United 
States-European Union decision to take Iran to the Security Council 
because of its violations of its NPT agreements could have a compelling 
impact on Iran, provided Russia, China, and the other U.N. Security 
Council members supported it and important countries such as Japan 
agreed to end economic ties to Tehran. Under these circumstances, 
Iran's leaders might blink, especially if other Middle East 
developments were, from its perspective, going in the wrong direction. 
This could include an Israeli-Palestinian settlement, an end of Syrian 
occupation of Lebanon, the disarmament of Hizbollah, and the emergence 
of a democratic pro-American Iraq. But these are a lot of ``ifs.'' Iran 
would have to be found in clear, unequivocal violation of the NPT to 
get support from the majority of the Security Council. So far the 
Iranians have been too clever to allow this to happen. Russia and China 
both have growing economic stakes in Iran and regard the Iranian 
Government as a friendly power. These interests will only grow in the 
coming years, especially given China's insatiable need for petroleum to 
meet the needs of its burgeoning, car-owning middle class.
    The other alternative is the use of force. A massive military 
assault by the United States on Iran's nuclear infrastructure could 
cause significant damage to the nuclear program and could have negative 
fallout for the conservative autocrats, who are disliked by the 
population, and who would be seen to have grossly mishandled relations 
to the point where Iran had become a target of United States military 
actions. This option would have to assume that the United States had no 
choice but to declare war on Iran, for this is what it would be. Such 
an act would be unanimously condemned, including by the Bush 
administration's closest ally, Britain. Given the farce over United 
States intelligence on Iraq's weapons of mass destruction, proving that 
Iran has the bomb will be very difficult unless Iran obliges by doing 
something reckless and out of character, such as testing a nuclear 
device. There is a strong likelihood that while a military campaign 
against Iran would cause great damage, the net effect would be to 
reinforce Iran's determination to get nuclear weapons.
    If these options are unlikely to work, what are the prospects of a 
political agreement that provides enough incentives on both sides to 
take it seriously? This will only happen if pragmatic, as opposed to 
ideological, conservatives emerge as decisive power players in Iran's 
June 2005 Presidential elections. Could a leader such as former 
President Rafsanjani contemplate such a deal? Could he sell it to his 
theocratic friends? Would the Bush administration be willing to 
negotiate with such a man and such a regime? For the United States, the 
bottom line would have to be the end of Iran's nuclear weapons program, 
the end of terrorism against Israel and cooperation in Iraq and 
Afghanistan. For Iran it would mean the end of United States economic 
sanctions and the acceptance of the Islamic Republic as a legitimate 
player in the region. It might be difficult to persuade the U.S. 
Congress to take these steps, especially if other trends in the Middle 
East were positive. Likewise, the Iranian security establishment will 
be highly suspicious of any deal with the Great Satan. Like their 
brethren in the former Soviet Union and present day China, they are 
invariably suspicious of the United States and, by and large, have not 
traveled outside of their country. Their attitudes are very different 
of those of the Iranian bureaucrats who are well aware that Iran needs 
access to the world market and more engagement with the United States 
to solve its long-term economic problems. The security establishment, 
on the other hand, benefits from the confrontation with the United 
States, getting abundant money to pursue many programs, including a 
nuclear program.
    So, all of these signs are cause for pessimism. If, for whatever 
reason, a radical new approach (on the part of both Washington and 
Teheran) is out of the question, the best the administration can hope 
for is that we prepare for the coming crisis jointly with the Europeans 
as allies--rather than at loggerheads. In the face of Euro-Atlantic 
solidarity, there is a chance that the Iranians will be prepared to 
fudge the program for a few more years. But ultimately, there is no way 
that the United States, Europe, or the U.N. Security Council can stop a 
proud country of 70 million people with abundant resources from getting 
the ingredients for a nuclear bomb if that is what its leaders believe 
must happen. For this reason, it would be prudent to engage in a 
substantive dialog with other allies and friends, especially the gulf 
countries, about what to do if the Iranian bomb becomes a reality and a 
pre-emptive war with Iran is an unacceptable option.
    Most importantly, the United States and Europe must bite the bullet 
and agree with each other on a common strategy that is unambiguous as 
to the limits of carrots and sticks both parties are prepared to 
present to Iran's leaders and the international community. In other 
words, the United States and Europe need to draw up a ``Roadmap'' to 
establish clear responses to specific Iranian actions such as Iranian 
conversion of hexafluoride gas or resumption of the uranium enrichment 
programs. The key must be to prevent Iran from driving a wedge between 
the United States and Europe.

    The Chairman. Thank you very much, Dr. Kemp.
    Dr. Milhollin.

STATEMENT OF DR. GARY MILHOLLIN, PROFESSOR EMERITUS, UNIVERSITY 
  OF WISCONSIN LAW SCHOOL AND DIRECTOR, WISCONSIN PROJECT ON 
              NUCLEAR ARMS CONTROL, WASHINGTON, DC

    Dr. Milhollin. Thank you very much, Senator. I am pleased 
to appear before the committee. The committee has asked me to 
concentrate upon the present negotiations between Iran and 
Britain, France, and Germany. Before I do that I would like to 
point out that my organization does maintain a very large Web 
site on Iran's mass destruction weapons programs. It is known 
as IranWatch.org. And I would refer the committee to that site 
for additional information and analysis.
    I would like to begin by saying that the deal made in 
November was conceived to be tactical only. It was conceived to 
simply present an opportunity for continued talks and an 
opportunity to make a deal. It was not seen as a solution to 
the overall problem. That solution, as has emerged, would have 
to include action by Iran to give up its ability to make 
fissile material; that is, give up its ability to enrich 
uranium, and give up its ability to make plutonium. And the 
Europeans are clear on that. Neither of these materials is 
necessary to run Iran's civilian nuclear program. But the 
parties are still very far apart.
    In March, Iran proposed that it be allowed to run 3,000 
centrifuges. It proposed to be able to restart its conversion 
facility, manufacture thousands more centrifuges, up to 50,000, 
and at the same time receive additional reactors from the 
Europeans. The Europeans consider this a nonstarter, which is 
obvious.
    So, right now the question is: What is going to happen? Are 
these parties ever going to get together? If they do not, then 
one possibility is that the present freeze could simply 
continue for a while. If that happened, I think we would be 
seeing a situation similar to the one that existed after the 
agreed framework between the United States and North Korea was 
concluded. That is, the North Koreans agreed to freeze their 
operation. They did not agree to give it up or to dismantle 
their capability. The same question basically is now facing 
Iran, that is, how long to keep the freeze in place.
    It seems to me that it might depend on two things. First, 
how much the suspension is really hurting Iran's nuclear 
progress--how much it is pinching. And the second one is Iran's 
assessment of how much pain it will receive by being referred 
to the U.N. Security Council, because that is what the 
Europeans have said will happen if the freeze is broken.
    If the case does go to the Council, what will happen? Mr. 
Burns sagely declined to elucidate that, but I think we could 
probably expect that the United States and the Europeans would 
ask for a U.N. resolution under which Iran would agree to 
resume the suspension. There seems to be a fair amount of 
support for that.
    If Iran did not comply, then the question would be a 
resolution compelling Iran to suspend. If Iran did not comply 
with that, the question would be sanctions. Nobody knows at 
this point what that would produce, including the Iranians. So, 
I think, in our favor is the fact that the Iranians probably do 
not want to face the uncertainties in going down that path at 
the United Nations.
    On the other hand, we would also face uncertainties. If the 
Security Council does little or nothing, what would emerge is 
the fact that a country can basically violate its pledges under 
the nonproliferation treaty and not be punished, which would be 
a great blow to the treaty and a great blow to the 
nonproliferation efforts we have made and the structures we 
have in place internationally. So everybody has a lot at stake 
if this case goes to the U.N. Security Council.
    Right now, there does not seem to be the kind of support it 
would take for an oil embargo or strong international trade 
sanctions, but that support may come after a while. I think, 
personally, that we ought to start thinking about where this 
chain of events is going to wind up. And Mr. Kemp has mentioned 
that.
    I do not think international inspections will prevent Iran 
from success, and it is pretty clear that the U.N. route is 
uncertain. So, I think we ought to get used to the idea of 
thinking about what it would be like to live with an Iranian 
bomb; because if you just look at all the possible outcomes, 
that one is probably more likely than any other, in my 
judgment.
    So what would such a world be like? What would the United 
States do in a world where Iran had the bomb? I think we would 
have to consider adopting a policy of containment, just as we 
did with respect to the Soviet Union. We would be facing an 
overtly hostile nuclear power.
    This would mean that we would have to consider extending 
our nuclear or conventional umbrella to additional states. I 
think that Egypt and Saudi Arabia would be candidates. Also, I 
think that there would be a period of testing the waters. Iran 
would be exploring the boundaries of its new power. Somebody 
could make a mistake during this period.
    To reduce that risk, I think the United States would have 
to formulate and promulgate what are known as red lines, that 
is, statements that if certain red lines were crossed, certain 
consequences would ensue. That is not a pleasant prospect. So 
the question is, how do we avoid that situation, which I think 
is, as I said, among the possible ones at this point, and 
perhaps the most probable.
    The best outcome is for these negotiations succeed. And I 
agree with those who have said that we need to put more on the 
table for that to happen. Only the United States could provide 
security assurances or comfort to Iran. That is just a fact. 
And we have to be willing to accept that fact. And we have to 
start thinking about what kind of assurances we would be 
willing to provide.
    We have also heard that it would be helpful if Russia and 
China supported this process. I think it is essential for them 
to do so. And also it is essential for the neighbors, for 
Iran's neighbors to support the process. If all that happened, 
if the world presented a united front to Iran, then Iran might 
decide that it would be better off without the bomb than with 
it.
    But if you would just look at the whole situation, I think 
it is difficult to be optimistic. You have to say that we are 
now in a process which could result in a willingness on the 
part of the world community to use sanctions or even the use of 
force, but we are not there yet. I do not think we will get 
there for a while. And before getting there, I think the United 
States and Europe, in particular, would have to convince the 
rest of the world that all the other options had been 
exhausted. Thank you.
    [The prepared statement of Dr. Milhollin follows:]

     Prepared Statement of Dr. Gary Milhollin, Professor Emeritus, 
 University of Wisconsin Law School and Director, Wisconsin Project on 
                  Nuclear Arms Control, Washington, DC

    I am pleased to appear today before the Senate Committee on Foreign 
Relations to discuss Iran's nuclear program. I direct the Wisconsin 
Project on Nuclear Arms Control, an organization here in Washington 
that maintains a Web site specifically devoted to monitoring Iran's 
mass destruction weapon efforts, www.lranWatch.org, to which I would 
like to refer the committee for additional information and analysis on 
Iran. In accordance with the committee's request, I will concentrate my 
remarks upon the present negotiations Iran is conducting with Britain, 
France, and Germany.
    First, I would like to point out that the deal struck among these 
countries in November should be seen as a tactical step. It was 
intended to buy time, and to provide an opening for continued talks. It 
should not be seen as an answer to the overall strategic question posed 
by Iran's nuclear effort. The aim of the Europeans was to get Iran to 
freeze its uranium enrichment and plutonium processing work while 
negotiations went forward. The Europeans saw this as the best chance of 
working toward a long-term solution. That solution would be some 
arrangement in which Iran received economic and security benefits in 
exchange for giving up its plans to enrich uranium and produce 
plutonium. Both enriched uranium and plutonium are used to fuel nuclear 
weapons, and Iran does not need to produce either domestically to run 
its civilian nuclear energy program.
    The parties to these negotiations still seem far apart. In March, 
Iran proposed that it be allowed to resume processing uranium at its 
conversion plant by July, be allowed to install and operate 3,000 
centrifuge machines, and be allowed to manufacture thousands more while 
receiving benefits such as additional nuclear reactors that the 
Europeans would supply. This is directly opposed to the stated European 
position, which is that Iran would have to give up uranium enrichment 
as part of any overall solution.
    If Iran could operate 3,000 centrifuge machines, it would allow 
Iran to master the enrichment process, bringing it a step closer to 
being able to produce nuclear weapons. In addition, the machines 
themselves might be able to produce enough enriched uranium for two or 
three nuclear weapons per year if configured to do so. Iran asserts 
that it will only produce low enriched uranium and will immediately 
make it into fuel for its reactor at Bushehr. Iran, however, has 
already contracted with Russia to supply this reactor's fuel. Thus, it 
is hard to see what peaceful purpose the enrichment process would 
serve. Iran itself has admitted that its enrichment effort ``cannot be 
justified on economic grounds,'' according to a leaked European summary 
of the negotiations.
    Since the talks began last December, Iran has been threatening to 
resume enrichment. Britain, France, and Germany have replied that if 
Iran does so, they will support the United States effort to refer the 
matter to the U.N. Security Council. They made this clear in a March 
letter to the European Union. At the present moment, it is difficult to 
predict how the standoff will end. If the Europeans are steadfast in 
their opposition to enrichment, Iran will have to decide how long to 
abide by the present suspension.
    If the suspension continues, it could begin to resemble the one 
that existed after the ``Agreed Framework'' was reached between the 
United States and North Korea in 1994. Like Iran, North Korea agreed to 
freeze its production of fissile material, while retaining the ability 
to restart production at any time. The question was how long North 
Korea would decide to keep the freeze in place. That same question is 
now facing Iran. The answer may depend on two things: How much the 
suspension is slowing Iran's nuclear progress, and how much Iran thinks 
it will suffer by being referred to the Security Council.
    To push forward its enrichment effort, Iran must finish converting 
its existing supply of natural uranium to uranium hexafluoride (UF6), 
suitable for feeding into centrifuges. It must also manufacture, 
install, test, and operate a centrifuge cascade in order to produce 
enriched uranium. Is Iran technically ready to do that? If not, then 
extending the present suspension is not costly. If Iran is ready, then 
the pressure will build to end the talks unless they produce 
substantial benefits. Iran has already produced several tons of UF6 and 
has tested a 10-centrifuge cascade using UF6. Judging from the 
insistence of the Iranians on finishing the conversion process, it 
appears that the delay is beginning to pinch.
    But to end the talks means facing the Security Council. The United 
States and Europe can be expected to push for a resolution calling on 
Iran to reinstate the suspension. There already appears to be 
widespread support for such a resolution. If the resolution passes and 
Iran does not comply, then a subsequent resolution might require Iran 
to suspend. Failing to suspend at that point would put Iran in defiance 
of the Security Council, a position Iran would not relish. Defiance 
might lead to the imposition of sanctions, mild at first, but then 
possibly more severe. It is a progression that Iran would have to 
consider carefully before deciding to trigger it.
    There are also risks for the United States and Europe. It could be 
counterproductive to send Iran to the Security Council without a good 
prospect that effective action will be taken. If the Council does 
little or nothing, it would show that states in violation of the 
Nuclear Nonproliferation Treaty do not bear any real cost. That could 
be the lesson Iran has already learned from North Korea's recent 
referral. The Council endorsed six-party talks with North Korea but has 
not voted any punitive measures. A repeat performance with Iran would 
deal a major blow to the treaty.
    An oil embargo or other trade sanctions would impose the most 
severe burden on Iran, but there is little chance that such measures 
would be adopted unless Iran does something to provoke worldwide 
outrage, such as conducting more secret nuclear work, or producing 
nuclear weapon components, or dropping out of the Nuclear 
Nonproliferation Treaty. Absent such a provocative act, the political 
will to vote strong sanctions probably does not exist, especially on 
the part of veto-wielding members such as Russia and China.
    Therefore, it is time to ask where this chain of events is likely 
to take us. First, there seems to be little doubt that Iran has a 
nuclear weapon in mind. All of its actions, so far, point in that 
direction. For 18 years it has been deceiving the International Atomic 
Energy Agency in order to run a secret and illegal effort to produce 
nuclear material that is not needed for Iran's civilian energy program, 
but is needed for atomic bombs. If this activity were only for peaceful 
purposes, as Iran says, why break the rules and do it secretly? And why 
spend money for something that is not needed for civilian energy? The 
activity includes building a 40-megawatt heavy water reactor, which 
happens to be larger than needed for research, but too small to make 
electricity, and just right for producing bomb-quality plutonium. 
Indeed, most countries with this sort of reactor are using it to make 
bombs, including India, Israel, and Pakistan. The IAEA has also 
documented Iran's experiments with polonium, a specialized material 
that can serve as a neutron initiator in fission bombs, and Iran has 
been observed shopping for the high-precision switches that can trigger 
a nuclear explosion. And finally, Iran is building a 1,300-kilometer-
range missile called the Shahab-3, the most practical use for, which is 
to carry a nuclear warhead. When one puts all of these activities 
together, they add up to a nuclear weapon effort.
    Unfortunately, international inspections are not likely to prevent 
Iran from achieving this goal. Last November, my organization convened 
a roundtable discussion that included two senior veterans of the U.N. 
inspection effort in Iraq, during which this point was raised. The 
results can be found on www.IranWatch.org. The roundtable concluded 
that it would be difficult, if not impossible, to verify that Iran was 
not secretly making nuclear weapons under any deal that allowed Iran to 
enrich uranium. The inspection burden would either be unacceptable to 
Iran or provide inadequate assurance for the rest of the world. Only an 
intrusive, specialized inspection regime--perhaps modeled on the U.N. 
special inspections organized in Iraq--in which inspectors were allowed 
anyplace, anytime access would offer a robust guarantee against 
cheating. This would require access to sensitive military sites with no 
declared relation to Iran's civilian nuclear infrastructure. Iran is 
unlikely to agree to such a regime, which it would see as a grave 
infringement on its national sovereignty.
    The IAEA should not be asked to do more than it is capable of 
achieving. The agency can verify a suspension of activity at known 
facilities and it can track nuclear material at these facilities. But 
agency inspectors, under any inspection regime, are limited in their 
ability to detect secret nuclear processing at undeclared sites. 
Further, the IAEA is not equipped to detect any work that deals with 
the manufacture and testing of weapon components. Over nearly two 
decades, Iran has conducted secret nuclear processing at a number of 
sites. Some of these sites were known to the IAEA, others were never 
declared. Iran's experience in duplicity will make it doubly difficult 
to catch any illicit nuclear work in the future.
    If, therefore, inspections won't stop Iran, and effective action is 
not likely to be endorsed by the Security Council, and we accept the 
statements by relevant governments that military strikes are not in the 
offing, it is logical to assume that Iran may actually succeed in 
getting nuclear weapons. That poses a question: How would we live with 
an Iranian bomb? What would be the main effect on the United States?
    As in the cold war, the United States would face an overtly hostile 
nuclear power. It would therefore be in America's interest to weaken 
that power as much as possible without resorting to force. To do so, we 
would probably embark on a new policy of containment. America would use 
its resources and influence to undermine Iran on every front.
    The United States would be forced to consider extending its nuclear 
or conventional umbrella to additional states, as a way of restricting 
Iran's influence and persuading these states not to get nuclear weapons 
themselves. The most likely candidates would be Egypt and Saudi Arabia. 
It would also be natural to expect a period of ``testing the waters,'' 
in which Iran explores the boundaries of its new power. As in the cold 
war, there would be a risk that someone could miscalculate. To reduce 
that risk, the United States would have to work out and then announce 
some clear ``red lines'' that Iran would be told not to cross.
    The United States would also have to deal with Iran as a 
proliferation threat. After getting the bomb Iran could pass it to 
others. We have learned that Pakistan was a giant source of 
proliferation during the years when we were only worrying about 
Pakistan itself becoming a nuclear power. Iran might present the same 
problem. Its technology could spread through corruption, or its 
government could decide to spread the technology as a way of extending 
its influence. In addition, we would have to worry about Iran's ties to 
terrorist groups, which take on an entirely new meaning in the context 
of nuclear weapons.
    It would, of course, be better if the United States never had to 
face such issues. What is the best chance now for not having to do so?
    Negotiations seem to offer the only realistic hope. The United 
States has little choice but to join the Europeans in their talks with 
Iran. A package of economic, political, and security benefits could be 
offered for Iran's cooperation, while at the same time punitive 
measures threatened in the event of noncooperation. U.S. Secretary of 
State Condoleeza Rice's endorsement of the talks on March 11 was a good 
first step. She also said that the United States would no longer block 
Iran's application to be considered for the World Trade Organization or 
the purchase of spare parts for its ageing civilian aircraft. These two 
decisions were also positive. They helped convince the Europeans that 
the United States was behind a negotiated solution, if one could be 
reached. To have a chance of success, however, the process must have 
help from Russia, China, and Iran's neighbors. All parties would have 
to work together to induce Iran to roll back its nuclear effort. If 
that were to happen, Iran might eventually decide that nuclear weapons 
would have a negative impact on its security, its economy, and its 
standing in the world.
    The Europeans have a great deal to offer Iran economically. Europe, 
unlike the United States, has active commercial ties to Iran and had 
been negotiating a trade agreement with Iran before the present nuclear 
crisis erupted in 2003. The promise of future benefits in exchange for 
cooperation is the main thing Europe has to offer; their denial is 
Europe's primary threat.
    While economics are important, Iran's nuclear program remains 
motivated by security concerns--which Europe is less capable of 
addressing--and by Iran's desire to increase its military and 
diplomatic power in the region. Only the United States is capable of 
providing Iran with adequate security assurances. It should start 
thinking about how to do so.
    It would also be useful if Russia and China could approach Iran and 
underscore the importance of maintaining the current enrichment freeze. 
In particular, Russia and China could warn Iran that it should not try 
to back out of the freeze by accusing the Europeans of not delivering 
on their promises. Iran must understand that it currently lives under a 
suspended sentence, thanks to the deal it struck with the Europeans. If 
Iran decides to renege, then the sentence--notification to the U.N. 
Security Council of its previous inspections violations--would be 
applied.
    Even with these steps, however, it is difficult to be optimistic. 
At the least, negotiations could increase awareness of the danger of a 
nuclear-armed Iran among key states in Europe, as well as in Russia and 
China, and, therefore, help to consolidate support for sanctions or the 
use of force should either be required. Before resorting to such 
measures, Europe and the United States would have to convince the rest 
of the world that all other options for preventing a nuclear-armed Iran 
had been exhausted.

    The Chairman. Thank you very much, Dr. Milhollin.
    Dr. Perkovich.

 STATEMENT OF DR. GEORGE PERKOVICH, PH.D., VICE PRESIDENT FOR 
     STUDIES, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Dr. Perkovich. Thank you, Mr. Chairman. I just want to pick 
up on where Mr. Milhollin left off and say that if things do 
not change, then the outcome of Iran, at least acquiring the 
capability to build nuclear weapons--there is a fine 
distinction between that and actually having the weapons--is 
the most likely outcome.
    And I think that means logically and politically that we 
have to do some things to change, also, because how we got to 
today is based on 26 years of Iranian behavior, our behavior, 
and other countries' behavior. And in that regard I want to say 
that Secretary Burns' testimony was remarkably positive and 
encouraging, because it represented, I think, a real shift, a 
subtle, but a real shift in the United States approach and the 
recognition, for example, that we absolutely have to cooperate 
and be as one with Europe if we are going to change Iranian 
behavior.
    And also, there was a recognition in what he said, and how 
he said it, that the tone of America's presentation to Iran has 
to change, precisely because Iran is a country with a vibrant 
civil society, with an active political class, and a great 
history. So all of those features of what he said, while 
subtle, I think were very important and suggestive of a way 
that we could go on.
    Let me talk a little bit about what may be a decisionmaking 
context in Iran. I was there in March and have been there at 
other times, talking to some of their officials, certainly, not 
a representative sample.
    But my sense is that Iranian decisionmakers feel their 
situation is far from desperate. They say the removal of Saddam 
Hussein from power in Iraq was a great benefit to Iran. The 
removal of the Taliban in Afghanistan was a great benefit to 
Iran.
    Moreover, the United States campaign for democracy in the 
Middle East is a great benefit to Iran; because one of the 
consequences of that is that Shiite minorities, which exist in 
much of the region, now have a political hope and a greater 
opportunity to protect their minority interests than they ever 
had before. And there is great solidarity that Iranians feel 
for it. So that is welcome. So history, in that way, is moving 
in their direction.
    People recognize that they have a constitutional problem in 
Iran. We have not spoken of it in those terms here. We speak, 
correctly, about the problem of nonelected leaders and so on. 
But that problem is in their Constitution. So when we talk 
about wanting political change and complete popular sovereignty 
in Iran, there is a problem that the office of the religious 
leader is a constitutional office in Iran. And so we need to 
think more about how that change, that clearly many Iranian 
people want, and also one we want, how that can come about.
    One of the things that I think any visitor in Iran hears 
is, people are unhappy with their government. They are 
dissatisfied with especially the Mullahs. But then they look 
and they say, ``Okay. How do you change that?'' And they look 
at Iraq and they say what is happening in Iraq is definitely 
not what we want, because what they see is the bloodshed and 
the chaos and the violence. And they say, ``We welcome this. It 
is to our benefit. But it is not--if that is democracy, we do 
not want to go down that road, because lots of people are 
getting killed.''
    And it harkens back to their own revolution, which even the 
leaders of that revolution, in many ways, the young people who 
are now leaders, now regret. They now look back on it and say, 
``My god, that was--lots of people died.'' They do not want to 
return to that possibility. So they are kind of stuck.
    Yes, they want political change, but they want it to be 
peaceful and gradual, and they do not want it to come at the 
tip of a U.S. bayonet. And so they are, in a sense, confused, 
but also worried that we are not going to be patient enough to 
let them figure out how to change their government.
    All of this then forms part of the context in which we are 
engaging with Iran on the nuclear issue and these other issues. 
It is perceived that what we are trying to do is to keep Iran 
from being a developed, advanced technological country, because 
Iranian people believe what their government is saying, which 
is all they want is to acquire nuclear technology for energy 
and to demonstrate prowess. Most Iranian people you talk to say 
a nuclear weapon is a terrible idea for Iran. ``It does not 
accomplish anything for us,'' they say. ``It brings bad 
results, but we want the technology, because great countries 
have the technology. We are a great civilization. We are really 
smart people. We should be able to do this. And why the United 
States is trying to stop us is that you have never gotten over 
the revolution. You cannot stand Iran as a nation. We know what 
you did with Mossadegh in 1953. You supported a repressive 
shah. Now you cannot get over the revolution. And so what you 
are trying to do is to retard us from being an advanced 
country.'' And so they resist.
    They do not say, ``We have to have the bomb.'' They do not 
think they are trying to get the bomb. But they want to resist 
this kind of outside pressure.
    That leads to the conclusion that we have to change our 
policy in part. Not the objectives. The objectives Secretary 
Burns laid out were right on. Those were exactly the objectives 
that we should have. But in order to change Iranian behavior, 
we have to recognize that you have to change the political 
dynamic in which the Iranians see this issue.
    And, I think, there are three key points there. One is that 
we cannot do it unilaterally. We need to have with us other 
people that Iranians care about, in particular, the Europeans. 
Second, coercion, sanctions, and pressure, and denunciations 
are not sufficient. And that has been our strategy for the last 
26 years. That is insufficient.
    So, at a minimum, we have to clarify that if Iran stops 
supporting terrorist organizations and accepts that its nuclear 
program will be run without indigenous fuel cycle, they will 
have a nuclear program, but will rely on foreign supply, if 
they do that, that the United States is prepared to guarantee 
Iran's security, that the United States will not pose a threat 
to Iranian security and will deal with the constitutional 
Government of Iran. Even as we think that the Iranian people 
should change that Constitution, we will deal with the 
constitutional Government of Iran.
    We have to convey that we support Iran's technological 
modernization and would be willing to work with it on projects 
that are technologically advanced through international 
cooperation.
    And third, I think we have to convey that we have gotten 
over the revolution and the hostage crisis. The Iranian people 
love the American people. They are not so wild about the 
American Government. But when you are visiting in Iran, 
anywhere you go people slap you on the back and say, ``Oh, it 
is great to see an American. Can I get you anything? America is 
a great country,'' and so on.
    By the way, visiting our ally, Pakistan, you get a very 
different response. But in Iran, people love visiting 
Americans. They are not so wild about the U.S. Government. I 
think it's very important to signal that we have gotten over 
the hostage crisis, and that we are not going to keep the 
Iranian people hostage to their government.
    There are ways we can deal with particularitives--we can 
talk about it in the questions, but I think the general 
attitude is key, and is an extrapolation of the subtle shift 
that we heard, I think, today from Secretary Burns. I think we 
have to move farther in that direction. Thank you.
    [The prepared statement of Dr. Perkovich follows:]

 Prepared Statement of Dr. George Perkovich, Ph.D., Vice President for 
  Studies, Carnegie Endowment for International Peace, Washington, DC

    Mr. Chairman, it is an honor to testify before the Foreign 
Relations Committee. I commend you and the committee for convening this 
hearing on Iran. I believe that it is vital to United States and global 
interests to integrate Iran into the international community as a state 
that does not threaten its near or distant neighbors, that respects its 
citizens' human rights, including the right of popular sovereignty, and 
that facilitates its talented citizens' contributions to a diverse 
international culture. Iranian citizens and leaders ultimately will 
determine whether such integration occurs, but the United States, too, 
will play a role. I hope this hearing will contribute to this end.
    By way of background, I am vice president for studies at the 
Carnegie Endowment for International Peace. For the past 23 years I 
have concentrated much of my work analyzing nuclear-weapons related 
problems in the United States, the Soviet Union, India, Pakistan, and 
Iran. I have written extensively on nuclear issues and advised several 
U.S. Government institutions on policy approaches to them. Most 
recently, my colleagues and I at the Endowment have produced 
``Universal Compliance: A Strategy for Nuclear Security,'' which 
provides comprehensive policy recommendations to deal with all major 
nuclear proliferation challenges, including Iran. I have traveled to 
Iran three times since 1997, most recently this March, and have 
interacted frequently with Iranian officials and scholars through Track 
II dialogs.

What Are Iran's Nuclear Intentions and Capabilities?
    Public accounts indicate that the United States and international 
intelligence communities have been unable to paint an accurate, full 
portrait of Iran's nuclear program. Perhaps there is some solace in the 
likelihood that Iranian officials negotiating nuclear matters also do 
not know the full range of activities and intentions in their nuclear 
program. Historically, including in the United States, diplomats, and, 
sometimes, relevant Cabinet officials and even heads of state, do not 
know exactly what their nations' technical establishments are doing 
related to the design and manufacture of capabilities that could be 
used to produce nuclear weapons. Iran's decisionmaking structure is 
factious and informal, making it extremely difficult to ascertain who 
intends to do what.
    The doubt I have expressed about our knowledge assumes that Iran 
may still be conducting undeclared nuclear activities. Such activities 
could include current or planned clandestine work to master uranium 
enrichment and/or development of know-how and means to fabricate and 
detonate a nuclear device. But it is also possible that Iran, after 18 
years of lies, deception, and suspicious behavior, is no longer 
conducting nuclear activities beyond those that they have declared. The 
International Atomic Energy Agency has a couple more outstanding 
questions to resolve and then seems ready to conclude that all of 
Iran's declared nuclear activities can be explained and accounted for 
consistent with Iran's NPT obligation to limit its nuclear activities 
exclusively to peaceful purposes. If no clandestine activity is 
occurring, then the International Atomic Energy Agency has a good 
picture of Iran's nuclear program.
    Recall that UNSCOM inspectors and the IAEA actually developed a 
good picture of Iraq's nuclear, biological, and chemical weapons 
capabilities in the 1990s, and that what was assumed missing from this 
picture--namely, WMD in Iraq--turned out not to exist. This is because 
Saddam Hussein concluded, after the UNSCOM inspectors had proved their 
skill and determination, that he could not get away with hiding illicit 
weapons work and that the costs of getting caught were too great.
    Considering the previous points, intelligence communities should 
test their data against the following scenario. From the late 1980s 
through 2004 Iran was secretly developing the full-range of 
capabilities and knowledge necessary to have the option to build 
nuclear weapons. Many of these activities were undeclared. Most, but 
not all of them were exposed between 2002-04 as a result of revelations 
by Iranian opposition activists and subsequent investigations by the 
IAEA. The revelations of Iranian deceit and deception, and the intense 
international condemnation and scrutiny through the IAEA, surprised 
Iranian decisionmakers and embarrassed informed Iranian society. Many 
elements of Iran's political class did not know anything about the now-
documented illicit activities, and concluded that the people 
responsible for getting caught had made stupid mistakes. As more elites 
began to pay attention to nuclear issues, they learned about the rules 
of the nonproliferation regime, and came to the conclusion that if Iran 
had played by the rules and not lied it could have acquired 
capabilities to enrich uranium (and later to produce and separate 
plutonium). A declared nuclear program playing by the rules would give 
Iran nuclear know-how, materiel, and prestige sufficient to satisfy its 
interests for the foreseeable future, much as Japan has done with its 
nuclear program. Conversely, undeclared, illegal nuclear activities 
bring risk of detection that badly damages Iran's prestige, leads to 
its isolation, and buttresses its enemies. Therefore, Iranian leaders 
could well conclude that, for the time being, Iran should desist from 
illicit nuclear activities and play entirely by the rules.
    If the intelligence community has not already done so, it should be 
tasked specifically to assess whether any inflexion has occurred in 
data indicating clandestine nuclear activities. Does the case that Iran 
is clandestinely trying to build nuclear weapons rely heavily on 
activities occurring prior to 2003? Are there more or fewer data points 
indicating clandestine nuclear activities in the 2004-05 period than 
there were in previous years? Is there reason to think that Iran has 
changed its nuclear strategy--activities and intentions--as a result of 
having been exposed and put under pressure not only by the United 
States, but also by the European Union and the IAEA?
    Paradoxically, it will be easier to handle the Iranian and global 
proliferation threats if indicators of illicit Iranian nuclear activity 
are rising rather than declining. Rising indicators would heighten the 
chances of finding the ``smoking gun'' that would prove Iran's 
violation not only of safeguards agreements but of the core commitments 
of the Nuclear Nonproliferation Treaty. Such proof would destroy Iran's 
international credibility and severely damage the internal position of 
the decisionmakers responsible in Iran, including the Supreme Leader. 
Strong indications of ongoing illicit activity also would strengthen 
the case for more rigorously interpreting the rules of the 
nonproliferation regime--for freezing further net increases in uranium 
enrichment and plutonium separation capability worldwide, and for 
putting facilities in current producing countries under international 
management.
    Conversely, if indicators of illicit nuclear activity in Iran are 
decreasing, and Iran has decided to strictly adhere to the rules, then 
the nonproliferation challenge may become greater. By complying with 
all IAEA requirements, Iran could strengthen the case for preserving 
the traditional interpretation of rules regulating nuclear technology. 
Iran could rally many other countries to preserve the ``right'' of all 
treaty-compliant states to acquire uranium enrichment and/or plutonium 
separation capabilities. Iran would find more support for its refusal 
to accept demands by France, Germany, and the United Kingdom (and the 
United States) that Iran revise its nuclear plans and rely on 
guaranteed international fuel services rather than national uranium 
enrichment and/or plutonium reprocessing. By foregoing illicit 
activities, and pursuing nuclear fuel-cycle capabilities in strict 
adherence with the rules, Iran would make military attacks by the 
United States or Israel much more politically risky.
    In other words, if Iranian decisionmakers are clever, they will 
bring their nuclear program back into compliance with all international 
requirements, play by the rules and insist on outmoded ``rights'' to 
develop whatever nuclear technology they want under strict 
international monitoring and safeguards, and gradually acquire the 
know-how, technology, and materiel necessary to produce nuclear weapons 
some day, if a dire strategic threat should arise. This scenario, a 
variant of the Japanese model, is very difficult to counter, and could 
be a model for states beyond Iran.

What Should Our Strategic Objectives Be?
    The most immediate objective in dealing with Iran's nuclear 
activities is so important that achieving it alone would be a 
tremendous boost to international security: Iran should implement an 
agreement to develop peaceful applications of nuclear energy without 
acquisition and operation of uranium enrichment and plutonium 
separation capabilities. This objective recognizes that it will be 
politically impossible to seek Iran's abandonment of nuclear technology 
altogether. Neither Iran nor many other states would accept this 
objective. On the other hand, this objective seeks greater restrictions 
on Iran's nuclear activities than required by traditional readings of 
the NPT.
    Pursuant to the objective of ending activities related to uranium 
enrichment and plutonium separation in Iran, states need to clarify the 
definition of which particular technologies states have a ``right'' to 
under the Nuclear Nonproliferation Treaty. Iran, backed by many 
countries, including perhaps the United States, argues that the Nuclear 
Nonproliferation Treaty gives states the ``right'' to acquire uranium 
enrichment and plutonium separation capabilities as long as such states 
comply fully with their safeguard obligations and do not seek to 
acquire nuclear weapons. Thus, if and when the IAEA deems Iran to be in 
full compliance with its NPT obligations, Iran will refuse to give up 
claimed ``rights'' to enrich uranium and/or separate plutonium. The 
problem, in this case, would be the international interpretation of 
nuclear ``rights,'' not Iran per se. Thus, while the international 
community concentrates now on the specific case of Iran, we must also 
establish rules that would apply not only to Iran but to subsequent 
cases.\1\ The United States and the IAEA and the United Nations High-
Level Panel on Threats, Challenges and Change all recognize this need 
to prevent construction and operation of new uranium enrichment and 
plutonium separation facilities in countries that do not now have such 
facilities. IAEA Director General ElBaradei has wisely proposed a 
moratorium on construction of new fuel production and reprocessing 
facilities. International leaders should apply their energies without 
delay to this end. U.S. officials should help by recognizing that major 
inducements will have to be offered to win support for new rules.
---------------------------------------------------------------------------
    \1\ States that might see an interest in moving to acquire fuel 
production capability include South Korea, Taiwan, Turkey. Brazil 
already is constructing a uranium enrichment plant.
---------------------------------------------------------------------------
    Persuading Iran to revise its nuclear plans and substitute 
guaranteed international fuel services for nationally produced fuel 
production and waste processing will require negotiations, including 
with United States participation, indirectly at first. These 
negotiations, in turn, will require satisfaction of additional Iranian 
and international objectives that are directly related to concerns 
about nuclear technology. These other germane objectives are 
encompassed in the framework under which France, Germany, the United 
Kingdom, and Iran are currently negotiating. The parties commit 
themselves to combat terrorism, to address regional security issues, to 
negotiate trade cooperation, and to support democracy in Iraq.

The Decisionmaking Context in Iran
    Based on a recent visit to Tehran, and ongoing interactions with 
Iranian officials and scholars, I offer the following impressions of 
the context in which Iranian leaders will decide how to guide their 
nuclear and related policies. These impressions are admittedly limited, 
derived from interactions with elites in Tehran ranging from advisors 
to conservative politicians, Western-trained scholars, students, 
reformers, and current officials. The overall conclusion is that 
Iranian decisionmakers feel that their situation is far from desperate.
    High oil prices have greatly enhanced national revenue and have 
allowed the government to keep popular disaffection manageable. 
Infrastructure has improved and parks and public spaces are well kept. 
Tehran bustles with activity on the streets and construction all 
around. Shops are filled with imported electronic goods. Traffic is 
horrendous, even as major roadways and a subway have been added. Young 
businessmen are optimistic about their economic prospects, though they 
would like various economic reforms to be implemented. Yes, people 
complain about the government and the economy, as many do in other 
societies, too, but one senses awareness that things could be much 
worse.
    The removal of Saddam Hussein from power in Iraq, and the defeat of 
the Taliban in Afghanistan, have greatly improved the sense of 
security. One cannot overstate the intensity of memories of the 1980-88 
war with Iraq. So many Iranian families suffered losses in the war and 
experienced the fear of Iraq's use of chemical weapons. Walking around 
Tehran University I saw walls adorned with posters portraying grotesque 
photographs of victims of the war--almost 20 years after hostilities 
ended. Iranians are relieved that Saddam and his regime are gone. The 
Taliban, too, frightened many Iranians with its violent sectarian Sunni 
ideology. Iranians felt (feel) that Sunni extremists, including Osama 
bin Laden, are terrorists and that Iran--Shiites--are more immediate 
targets than Americans. So the United States intervention in 
Afghanistan created welcome results.
    As a result of the wars in Iraq and Afghanistan, and the broader 
United States campaign for democracy, Iranians feel that Shiites are in 
the best position ever to have their rights as a beleaguered minority 
protected. Iraq now is led by Shiites (the majority there), but even 
where they remain a minority, as in Afghanistan and Saudi Arabia, they 
are gaining opportunities to participate in politics and to have their 
rights better protected. The overall impression is that history is 
moving in beneficial ways.
    Notwithstanding the good news for Shiites in Iraq, it is important 
to note that Iranians draw cautionary lessons from the turmoil and 
bloodshed there: If Iraq represents regime change and a transition to 
democracy, it is frightening. Iranians extrapolate from Iraq not the 
danger of sectarian conflict--Iran is much more homogenous--but rather 
the danger of partisan bloodletting and chaos reminiscent of the early 
years of the Iranian Revolution.
    From the above, a general impression forms that Iranians do not 
want to rock the political boat--shake it a bit, maybe enough ideally 
to throw the office of Religious Leader overboard, but not so much as 
to capsize it. This fear of capsizing, of major political upheaval, 
gives the impetus to established authorities. Average people realize 
this and simply retreat from politics and lower their expectations. The 
bloodshed and chaos of Iraq shows how much worse things could be and 
leads people to hope somehow for incremental peaceful change. Indeed, 
Iran's own revolution shows how much worse things could be. Most 
urbanites don't like the idea of Iran being seen as a pariah state--it 
rubs off on them as individuals, and limits their freedom of movement 
and opportunities to participate in international life. They blame 
``the mullahs'' for what frustrates them. Corruption is always 
obnoxious, but when religious leaders are corrupt, the injury is 
doubled by the hypocrisy of its perpetrators. Still, if the choices are 
the existing system or political upheaval, people prefer the existing 
system and the hope that a new leader will make it work better.
    The greatest fear that most of my interlocutors expressed was of 
``radical'' conservatives tied to the Revolutionary Guards and newly 
potent factions elected to the Parliament. These elements, many of them 
veterans of the Iraq war, are financially and ideologically wedded to 
relative autarky. They benefit from Iran's economic isolation and would 
lose out if the economy and polity were opened up to international 
competition. An example of this group's mentality and interests was the 
takeover by Revolutionary Guards of the new Imam Khomeini Airport as it 
was due to open. The takeover appeared to be economically motivated--
the occupiers wanted to capture the income from airport services--but 
the state's incapacity to resolve the issue for almost 2 years has 
demonstrated the limitations not only of the elected leadership's power 
but also that of the Religious Leader. The airport still sits vacant 
and unused.
    Iranians also take some comfort from international antipathy toward 
the United States Government. Iranians emphatically welcome visiting 
Americans and profess admiration for ``America,'' but they also worry 
that the United States Government could act aggressively toward Iran. 
Awareness of international disaffection toward the United States 
Government (demonstrated in many ways, including international polls) 
therefore reduces Iranian fears that the United States would risk 
aggression against Iran. Liberal-minded Iranians feel that United 
States attacks would unify the nation around the government in Tehran 
and set back prospects of gradual reform, including efforts to diminish 
the role of the nonelected Supreme Leader.
    Finally, consistent with these impressions, Iranian elites see the 
``nuclear issue'' primarily in symbolic terms. This is not to diminish 
the importance of these perceptions. The nuclear issue in Iran, as in 
most countries, is an elite affair. Most people's concerns are much 
more immediate, prosaic, and close to home. But for elites, the nuclear 
issue is about modernity, prowess, national superiority, and 
anticolonialism. Iranian officials insist they are seeking nuclear 
technology for peaceful purposes within the rights granted under the 
NPT. Most discussants in Iran argue that nuclear weapons would do Iran 
little good, but that Iran should acquire nuclear technology in order 
to modernize. This is not a detailed, rigorous analysis, but rather a 
common equation of nuclear technology with modernity--nuclear 
technology proves that a society is smart and advanced. Efforts to 
prevent Iran from acquiring nuclear technology are seen as colonial 
discrimination, an effort to keep Iran from becoming an advanced 
country. The fact that the United States and Israel are seen to be 
leading the charge against Iran deepens the feeling that inherent 
hostility toward Iran is driving the dispute, not specific concerns 
about particular Iranian activities. Iranian officials smartly play on 
this by offering unprecedented monitoring of their nuclear activities 
to prove that Iran is playing by the rules. Rejections of these offers 
are seen as evidence that the United States-Israeli axis is determined 
to keep Iran down no matter what Iran offers.
    This description of how the nuclear issue is seen politically in 
Iran does not preclude the possibility that the men actually driving 
Iranian technological development and policy have elaborated strategic 
plans to make use of a nuclear deterrent. The point is that such 
discussions do not feature in the political debate over the issue and 
over the negotiations with the EU-3. I have reminded Iranian experts 
that the evidence indicates that their country is trying to acquire, at 
least, the capability to produce nuclear weapons, and asked, ``what 
security benefits would you gain from this capability?'' They tend to 
answer that the capability to produce a bomb is enough to deter any of 
Iran's regional adversaries from militarily threatening it. They point 
out that no one would threaten to attack Japan because Japan can 
produce plutonium, has stockpiles of the material, and a full range of 
missile capabilities. Iranians say they merely want to exercise the 
rights that Japan has exercised in playing by the rules.
    If the foregoing gives a sense of the context in which Iranians 
will decide which outcomes of negotiations would meet their interests, 
one last tactical point should be made. Iranian leaders have been 
shaken by the negative attention, pressure, and potential isolation 
they have experienced over the nuclear issue in the past 2 years. They 
do not want the matter referred to the U.N. Security Council in part 
because this would be humiliating--an insult to national pride and to 
the leadership's protection of national interests. Ostracism of such a 
great nation as Persia--Iran--would be a major set back.
    Hence, Iranian leaders see themselves in a contest over isolation 
with the United States. Iran loses if the United States rallies the 
international community to isolate Iran; Iran wins if it can split the 
United States (and Israel) from the international community. The 
European Union is the pivotal player here. Whoever ``gets'' the 
European Union wins, because a combined United States-European Union 
front will likely pick up Russia and be able to isolate Iran. Whereas, 
if Europe defects from the United States, Iran will not be isolated. 
And, if the United States and the European Union split, Iranians feel 
they will be able, eventually, to negotiate an accommodation with the 
United States on better terms than if the United States and the 
European Union are unified in isolating Iran.

What Should the United States Do, Then?
    By definition, United States policy toward Iran over the past 26 
years has not worked. Otherwise, you would not be having this hearing. 
If we keep doing what we have been doing, we are sure to fail. In order 
to influence change in Iran, United States policy has to change, too.
    The core failure is the refusal of the executive and legislative 
branches to agree that something more than sanctions, hostile rhetoric, 
and coercion are necessary to induce Iranian authorities to change 
their behavior. United States policy, often driven by congressionally 
mandated sanctions, focuses on seeking to inflict pain and loss on 
Iran. But Iran, like India, in important ways, is too big, too capable, 
too proud, and too important for the United States alone to coerce into 
major behavior change. Let me be clear: It would be ideal if the United 
States could coerce Iran to change its threatening behavior; but as 
realists we must admit regretfully that this ideal condition does not 
exist. A more realistic approach is necessary.
    Change in U.S. policy should be informed by two key points. First, 
the United States cannot, by itself, motivate Iranian leaders to change 
their most threatening behavior. We need the cooperation, at least, of 
Europe, Israel, and in the nuclear area, of Russia, too, at a minimum. 
Second, sanctions, denouncements, and other forms of coercion are 
insufficient.
    Coercive unilateralism does not work against Iran for reasons that 
an alternate strategy should exploit. Iran is by far the largest, most 
accomplished Islamic state in greater Middle East. Indeed, its proud 
national identity long predates Islam. Persia's magnitude and grandeur 
limit Iran's susceptibility to bullying. But this same national 
identity does make Iranians averse to pariahdom. Right now, the United 
States is the leading bully (paired with Israel), which must be 
resisted, but has not rallied enough partners to make the truly 
troubling threat of pariahdom real for Iran. A more effective strategy 
would play to Iran's national identity and at the same time rally 
international cooperation necessary to make Iran a pariah if it acts 
threateningly.
    Because the threat of isolating Iran is key, the United States, by 
definition, must develop strategy and tactics with the states needed to 
accomplish isolation. The European Union and the United States, plus 
Russia, must build robust mutual trust that none will accept a result 
short of Iran's willingness to build a nuclear power program that 
relies on guaranteed foreign-fuel services and eschews uranium 
enrichment and plutonium separation facilities in Iran. That bottom 
line must be immovable; once this is firmly agreed, the European Union, 
the United States, and Russia must then be willing to cooperatively 
devise incentives to raise Iran's interest in such an arrangement and 
disincentives to dissuade Iran from pursuing unsafe nuclear policies. 
If Iran perceives a unified European-American-Russian front, it can be 
expected to conclude that the benefits of accepting the trade-off or 
offer are greater than the costs of becoming isolated by the United 
States, Europe, Russia, and other states that would join them.\2\
---------------------------------------------------------------------------
    \2\ Transatlantic unity on the issue of removing intermediate-range 
nuclear missiles from Europe in the 1980s was the key in persuading 
Soviet leaders ultimately to accept the zero-option arrangement that 
was codified in the 1987 Intermediate Nuclear Forces Treaty, an outcome 
that in the early 1980s seemed no more likely than a successful 
negotiation to persuade Iran to desist from operating facilities that 
can produce nuclear weapon fuels.
---------------------------------------------------------------------------
    The greatest impediment to this strategy has been United States 
unwillingness to provide the European negotiators with commitments that 
the United States will provide positive inducements commensurate with 
the obligations Iran would have to implement as a result of 
negotiations. (Washington's eagerness to provide negative incentives is 
well known.) The immediate issue is not whether the United States is 
willing to negotiate directly with Iranian authorities, but rather 
whether Washington accepts the premise that it is imperative to 
negotiate--to give and take--with the current constitutional 
authorities in Iran. Europeans can conduct the negotiations, but if the 
United States is unwilling to provide positive inducements to Iran, 
European negotiators are badly handicapped and Iranian decisionmakers 
are unable to calibrate whether their interests can possibly be met 
through such negotiations.
    While the United States and the European Union (and Russia ideally) 
must collaboratively devise sequences of specific positive and negative 
incentives, the central elements are obvious.

  <bullet> An Iran that does not threaten its neighbors' security 
        should be reassured of its own security: The United States 
        should clarify that if and when Iran stops supporting 
        organizations that purposely target noncombatants with violence 
        and stops pursuing technologies vital to the production of 
        nuclear weapons, then the United States will join the European 
        Union and other relevant countries in reassuring Iran that its 
        security interests will be respected, notwithstanding our 
        ongoing support of the Iranian people's desire for full popular 
        sovereignty.
  <bullet> Iranians also want to be, and be seen as, the most 
        technologically advanced state in their neighborhood. The 
        United States, the European Union, Russia, and others should 
        demonstrably support Iran's technological ambitions, and 
        suggest impressive technological collaborations that will be 
        pursued if Iran desists from acquiring nuclear technologies 
        that make the world insecure.
  <bullet> Iranians--in the government and outside--feel that the 
        United States is determined to keep Iran down as a nation, as 
        payback for the humiliation of the hostage crisis. The United 
        States should cease holding the Iranian people hostage for the 
        misdeeds of the nonelected elements of their government, and 
        instead should demonstrate that it wants the Iranian people to 
        prosper regardless of their government.

    Reducing the sense that the United States is obsessed with bullying 
Iran is necessary not only to facilitate nuclear negotiations but also 
to encourage political change in Iran. Countries being threatened from 
outside are less inclined to transition to peaceful democracy: Security 
concerns ``argue'' for strong, if not dominant, roles by militaries or 
security services, and make open political competition seem too 
uncertain, inefficient, and divisive at a time when unity and strength 
are imperative. States facing insecurity tend toward strong central 
authority and resistance to dissent or even pluralism. Thus, even if 
one believed that the United States could, and should, play a decisive 
role in causing regime change in Iran, security reassurance is probably 
a precondition. (Frontloaded United States security assurances also 
would strengthen European leaders' capacity to get tough if Iran 
refuses to eschew uranium enrichment. Anti-American European publics 
will give their own governments more latitude to pressure Iran if they 
see that the United States actually is trying to be nice.)
    In addition to conditional security assurances, the United States 
should consider three moves that could dramatically buttress the case 
for Iran's relying on international fuel services rather than domestic 
uranium enrichment or plutonium separation. These moves would 
strengthen Iranian public sentiment toward the United States and throw 
hostile factions on the defensive, significantly improving the 
political context for the ongoing Iran-European Union negotiations and 
the leverage of European Union negotiators.
    First, and most dramatically, the United States should demonstrate 
its interest in letting historical bygones be bygones by releasing the 
Iranian financial assets that have been frozen since the revolution. 
The Iranian people, most of whom were born after the revolution, want 
to move on and want their old-guard leaders to move on. If the United 
States demonstrates that it can get over the revolution, it could 
strengthen forces within Iran that would like to abandon revolutionary 
institutions, people, policies, and attitudes.
    Second, the United States should not renew or tighten sanctions 
against non-American entities investing in Iran's oil and gas sectors. 
To abandon dangerous nuclear fuel-cycle activities, Iranians must have 
confidence that they can rely on international markets and cooperation 
in meeting their energy needs. The Iran-Libya Sanctions Act has only 
strengthened Iranian arguments that indigenous nuclear fuel production 
is necessary; by letting these sanctions expire, the United States 
would change the terms of the debate in Iran and also gain leverage in 
Europe for other forms of pressure on Iran. This is an important 
tactical step that only Congress can take.
    Third, the United States should not impede development of the 
proposed natural gas pipeline that Iran and Pakistan would build to 
bring gas to India.
    Of course, Iran's own actions will shape these possibilities: Moves 
to acquire nuclear weapons, to continue support of terrorism or other 
subversive activities against neighboring states will cause 
countervailing pressures on Iran that will exacerbate insecurity. To 
avoid a vicious insecurity cycle, the United States, Iran, and other 
relevant actors must establish a regional security forum in which 
relevant parties can redress security dilemmas. Iran needs to hear from 
its Arab neighbors how its nuclear program and other policies heighten 
their insecurity and make them rely more heavily on the United States. 
Iran needs a forum where it can express its security concerns and try 
to identify conditions under which the United States military presence 
in the region could be reduced. The United States and Iraqis need a 
forum where Iraq's security needs, especially against infiltrations, 
can be addressed collectively. The European Union could facilitate 
formation of such a regional security forum.

A Likely Scenario
    I close with a scenario that assumes that the United States will 
take none of the steps recommended above (the most likely case). No 
later than September, Iran will move toward resuming operation of the 
uranium conversion plant at Esfaham, and perhaps resuming tests of 
centrifuges. Iranian officials will insist that such activities are 
entirely within Iran's rights under the NPT, and that they will be 
conducted in accord with IAEA safeguards. They will argue that the 
demands being made by Europe exceed any legal requirement, and that 
Iran is ending its voluntary suspension of enrichment activity because 
certain countries--read the United States and Israel--will never relent 
in their attempt to make Iran a backward, weak country. At the behest 
of these hostile states, the European Union has rejected Iran's offer 
of the most intrusive possible monitoring and inspections of its 
nuclear activities. Iran will publish what it has offered and let the 
world judge who is being reasonable or not. There is nothing more Iran 
can do to demonstrate that it will play by the rules in exercising its 
right to nuclear technology. Rather than be bullied by the United 
States, Iran must rightfully resume its nuclear program.
    The United States will seize on Iran's ending of its suspension and 
insist that France, Germany, and the United Kingdom should ``do what 
they've promised'' and take Iran to the U.N. Security Council. Popular 
opinion and many political figures in these countries will balk. 
Officials will leak that the United States was unprepared to take steps 
that ``everyone'' knew would be necessary to persuade Iran to accede to 
demands that it permanently cease uranium enrichment and plutonium 
separation activities. ``How can Iran be expected to give up nuclear 
capability if the United States is threatening regime change?'' Many in 
Europe and elsewhere will argue that the United States intended all 
along to repeat the Iraq scenario and manufacture a case for war 
against Iran. As the EU-3 waver about when to refer Iran's case to the 
Security Council and what action to take in the Council, Members of the 
United States Congress will denounce French perfidy and German 
equivocation. Trans-Atlantic recriminations will mount. Developing 
countries in the IAEA, and in the United Nations, will decry U.S.-led 
efforts to ignore their rights and to impose a new form of nuclear 
apartheid.
    In Iran, the U.S. Congress's reauthorization of secondary sanctions 
and the administration's eagerness to refer the Iran case to the 
Security Council, straightaway, will strengthen the feeling that Iran 
must hunker down to defend its rights to technological development. 
Known political reformers do not dissent. Student demonstrations occur 
demanding that Iran not give up its nuclear program. The new Iranian 
President takes a defiant stance, and all factions of the Parliament 
unite to insist on exercising the ``right'' to enrich uranium. Iranian 
leaders will travel to China to sign new deals for investment in Iran's 
energy resources.
    All the while, Iranian leaders calculate that if the United States, 
the European Union, and Russia maintain a united front and somehow 
refer the Iranian nuclear issue to the Security Council, Iran can then 
reinstate the suspension and return to negotiations with the EU-3 with 
a clearer sense of what action members of the Security Council would be 
prepared to take against Iran, if any. (If the matter got to the 
Security Council, and Iran reinstated the suspension, it would likely 
be able to rally significant support for its position against a United 
States effort led by Ambassador Bolton.) And if the United States, the 
European Union, and Russia split over immediate referral to the 
Security Council, then Iran has many tactical options.
    Among other things, this scenario suggests that the United States 
must augment the European negotiating position by demonstrating that 
the United States is not unreasonable or ineluctably hostile to Iran, 
and that Iran truly has much to gain by modifying its nuclear program. 
As further evidence of reasonableness and moderation, the United States 
and Europe need to build a bridge of intermediate steps leading toward 
the U.N. Security Council. Going to the Council in one leap is a tactic 
too easy for Iran to counter, a bluff that could be called. This 
testimony has focused on positive inducements that the United States 
should be prepared to offer, in many cases through European 
negotiators. But the United States and the EU-3 also need to form a 
working group to develop an agreed series of escalatory punitive 
measures that could lead up to and beyond referral to the Security 
Council. These measures need to be coordinated and multilateral, not 
unilateral, as the failure of past and current unilateral U.S. 
sanctions indicates. EU officials should tell Iranian officials 
privately that the European Union and the United States have devised 
such an escalatory plan with international public opinion in mind.
    Again, this challenge is ultimately about isolation. U.S. 
policymakers must ensure that each step they take, and word they utter, 
helps the United States and Europe isolate Iran within the 
international community, and Iranian leaders within Iranian society. 
United States officials should take no steps or speak no words that 
help Iran isolate the United States within the international community.

    The Chairman. Thank you very much, Dr. Perkovich.
    We appreciate the fact that the witnesses are all listening 
to each other and then supplementing these answers. This is 
very helpful.
    Dr. Samii.

STATEMENT OF DR. ABBAS WILLIAM SAMII, PH.D., REGIONAL ANALYSIS 
COORDINATOR FOR SOUTHWEST ASIA AND THE MIDDLE EAST, RADIO FREE 
              EUROPE/RADIO LIBERTY, WASHINGTON, DC

    Dr. Samii. Good morning, Mr. Chairman. Thank you very much 
for giving us this opportunity. As was referred to earlier, the 
Iranians are going to be holding their ninth Presidential 
election in less than 1 month. But also it is a deeply flawed 
process, and one of the problems that you are referring to, not 
a problem, but the Constitution, it is a deeply flawed 
Constitution, which basically disallows any sort of real 
democratic process taking place there.
    Iranian's efforts to elect officials and reform the system 
have failed to yield results. Unelected institutions and 
officials can overrule elected ones. The Iranians have also 
tried to express themselves politically through the press, 
media, Internet, and so on. All these factors have really 
failed to yield any results.
    But I have to express some caution here. For us to somehow 
expect that there is a democratic movement waiting in the wings 
ready to move against the regime with plans for its 
replacement, I believe, is unrealistic. The government uses 
extensive repression against its opponents. More than 100 
mostly proreform publications have been closed down since the 
year 2000.
    The Internet became a popular source for public expression, 
but a crackdown against online journalists began in autumn 
2004, with complaints of torture while in prison. And also 
forced confessions. The Iranian Government has, of course, 
linked these issues with the United States and it blames global 
network directed from the United States.
    We have very high expectations from young Iranians, 
something that has been referred to earlier. Some two-thirds of 
the Iranian population is under the age of 30, with 46 million 
out of a total population of 69 million. However, there are 
only 1.2 million university students. So it would be a mistake, 
I believe, to expect a great deal from this group.
    These are students. Many of them are politically apathetic. 
They are more interested in working and earning a living than 
in politics. They are discouraged by these pointless elections 
and elected officials who never fulfill their promises. The 
impact of this has been a brain drain. Young Iranians love 
America. They would love to come here to work and gain a decent 
living.
    The student groups are disunited. The main student 
organization underwent some splits in the year 2000. It 
allegedly came back together in May of last year, but the 
reality of it is that the split still exists. There are also 
government-backed student organizations. Again, the government 
uses repression against student leaders, and you have people 
getting detained by unaccountable security institutions, a 
network of secret prisons, which are very similar to the dirty 
war that took place in Argentina in the 1970s.
    There have been calls for an election boycott by some of 
the student groups. Then we have the exile groups that were 
referred to in the earlier session. These exiled leaders and 
the groups do not have any measurable backing in Iran. The 
Mujahedin Khalq organization, known as the MKO or the MEK, is 
hated in Iran for siding with Saddam Hussein's regime during 
the Iran-Iraq war.
    Human Rights Watch yesterday issued a report about the MKO 
entitled, ``No Exit, Human Rights Abuses Inside the MKO 
camps.'' Nevertheless, the regime is concerned about these 
exiled groups. It complains frequently about the MKO personnel 
in Iraq and demands their extradition to Iran. Also, 
demonstrators in October 2001 chanted the name of Reza Pahlavi, 
the son of the former monarch of Iran.
    There are practical steps that we can take to help the 
democratic process in Iran. We should assist carefully selected 
nongovernmental organizations. This kind of assistance can 
include the provision of laptop computers, satellite phones, 
cell phones, and even fax machines. There is no independent 
labor organization in Iran. Collective action is rare and 
workers are not free to express themselves.
    The United States could play a part in organizing workers 
and creating independent unions. Ethnic groups also deserve 
attention. They complain of discrimination at the hands of the 
state, poor programming by state media, jobs going to Persians, 
low-quality schools.
    In mid-April, ethnic Arabs in southwest Ahvaz rioted 
against the government for almost a week, all because of a 
false letter which claimed the government planned to move them 
to other parts of the country and bring Persians to their 
predominantly Arab region.
    Prospective Iranian leaders should be identified and their 
travel to the United States or other overseas locations 
facilitated. Once outside Iran, they could learn more about the 
roles played by NGOs in other countries' transitions to 
democracy and receive organizational training. Expatriates who 
travel to Iran could organize workshops and conduct training.
    Just to summarize very quickly, things like pressure from 
other countries does have an influence in Iran, especially if 
it is connected with sanctions. The international community 
must continue to criticize the politicized court system that 
closes newspapers and jails journalists, and also criticism 
must come for the legal system in Iran, which discriminates 
against women and ethnic and religious minorities. Thank you, 
sir.
    [The prepared statement of Dr. Samii follows:]

  Prepared Statement of Abbas William Samii, Ph.D., Regional Analysis 
 Coordinator for Southwest Asia and the Middle East, Radio Free Europe/
                     Radio Liberty, Washington, DC

    Iranians will vote for a new President on 17 June, and some 1,100 
prospective candidates registered from 10-14 May. This will be the 
ninth Presidential election since the Islamic revolution of 1979, and 
Iran's rulers cite the number of elections as evidence of their 
theocracy's democratic nature. But these elections are democratic in 
name only. Presidential candidates' qualifications must be approved by 
a cleric-dominated body called the Guardians Council. The council's six 
clerics are selected by the country's top official, another unelected 
cleric known as the Supreme Leader. The six lawyers on the council are 
selected by the head of the country's judiciary, another cleric 
appointed by the Supreme Leader.
    Iranians want a voice in running their own affairs, they want to 
determine their own fates, and they want relief from the oppressive 
theocracy that runs their country. They tried to achieve these goals by 
electing a charismatic dark horse with a relatively liberal reputation 
as President in 1997 and re-elected him 4 years later. They also voted 
in a parliamentary majority of reformists in 2000. However, Iran's 
political system, in which unelected institutions have the power to 
overrule the elected officials of the executive and legislative 
branches, made it difficult to accomplish anything substantive. 
Moreover, a timid President Mohammad Khatami failed to use his popular 
mandate to push through the measures that could have democratized the 
system.
    Iranians' political expression is not restricted to the electoral 
process. They frequently demonstrate against injustice and incompetence 
on the part of state officials. They expressed themselves in the press, 
and when that venue was severely restricted by the authorities, they 
turned to the Internet. In a recent development, they are using the 
Internet to push for a referendum on the country's Constitution.
    These developments may lead observers to expect regime change in 
Iran. However, most of the factors necessary for a revolution's success 
are absent in Iran. Most importantly, there is no unified democratic 
movement that is ready to act against the regime and which has plans 
for its replacement. For example, students, who were among the most 
vociferous political actors in Iran during the last decade, are members 
of several groups with divergent views toward the regime. Nor have any 
serious leaders emerged--imprisonment and torture has been used against 
a brave few in Iran, and the effectiveness of those in exile is 
questionable. Finally, there is no agreement on foreign involvement in 
opposition activities--organizers of an online referendum welcome this, 
but student leaders and mainstream reformist figures oppose it.
    Nevertheless, there are measures that could assist and accelerate 
the democratic process in Iran. These include logistical assistance to 
nongovernmental organizations, the creation of independent labor 
organizations, and identification of, and training for, potential 
prodemocracy leaders. Furthermore, the international community should 
continue to condemn the Iranian legal system, which closes news 
publications on the flimsiest of excuses and which does not grant equal 
rights to women nor to ethnic and religious minorities.

                            STIFLING DISSENT

    Iranians' dissatisfaction with the regime is never far from the 
surface. Townsmen and villagers demonstrate against inadequate 
provision of social services, workers protest over layoffs and factory 
closures, and students object to poor facilities. After 25 years in 
power, the regime has become quite skilled in dealing with such events. 
In some cases it just lets the unrest burn itself out by allowing the 
demonstrators to gather, shout some angry slogans, and maybe burn some 
buses or break some windows. But the security forces contain the 
situation, and calm is restored after people have let off steam.
    The unhappiness of some Iranians is not confined to personal and 
immediate issues, however. They are also disturbed by the limits on 
personal and political freedom. In the face of serious press 
restrictions, some express their political views via the Internet, 
particularly through Web logs (blogs).
    The regime has taken a resolute approach to the Internet 
dissidents, combining disinformation and repression. In September 2004 
an editorial in Kayhan, a high-circulation daily affiliated with the 
Supreme Leader's office, accused Iranian journalists, living in and 
outside the country, of participating in a United States controlled and 
directed network. This network allegedly shaped and manipulated 
information originating in Iran, and then relayed it as news to Europe 
and then back to Iran.
    Around that time--autumn 2004--a number of the online journalists 
and bloggers were arrested. According to Reporters Without Borders and 
the bloggers' interviews with a Presidential commission in early 2005, 
they were kept in solitary confinement and tortured. They were released 
after newspapers published their open letters, in which the online 
journalists said they'd seen the error of their ways and expressed 
gratitude for the kindness they received while in detention. The online 
journalists acknowledged participating in a network that involved 
``foreigners and counterrevolutionaries'' who were cooperating with 
reformist politicians in Iran and ``fugitives'' who left the country. 
The letters of contrition referred to illegal Web sites, and their 
authors admitted giving interviews to foreign radio stations.
    If the regime cannot get to somebody it will go after his family. 
In the case of Netherlands-based online journalist Sina Motallebi, the 
authorities arrested his father, Said Motallebi, and released him only 
after forbidding him from having any contact with international 
organizations or the press.
    These measures have been quite effective and appear to have forced 
some of the Internet activists to withdraw from politics. ``I am 
quitting political work for good in Iran,'' activist Hanif Mazrui said 
in the New York Times on 26 December 2004. A former detainee who 
requested anonymity told the newspaper that he and some of his 
colleagues intend to leave the country. On 10 May 2005, the Aftab-e 
Yazd daily newspaper reported that 17 bloggers were acquitted, but the 
father of one blogger complained in the 14 May issue of the daily that 
his son is still in jail and the authorities have not acted on his case 
yet.

                           ONLINE REFERENDUM

    The Internet has proven to be an important new vehicle for public 
expression. Persian is reportedly the third-most popular language on 
the Web, after English and Chinese. For many young Iranians, the Web 
logs (blogs) are a means by which boys and girls can communicate and 
discuss topics no more significant than movies and hip-hop music.
    Internet use took a more political turn in autumn 2004, when a 
group of Iranian dissidents and students called for a referendum on the 
country's form of goverment. Their Web site (http://www.60000000.com) 
encourages people to sign a petition calling for ``a national 
referendum with the free participation of the Iranian people, under the 
supervision of appropriate international institutions and observers, 
for the drafting of a new Constitution that is compatible with the 
Universal Declaration of Human Rights and all its associated 
covenants.'' The Committee to Organize a Referendum includes prominent 
figures such as Harvard University professor and human rights lawyer 
Mehrangiz Kar, national religious activist and former Tehran University 
president, Mohammad Maleki, and journalist, Mohsen Sazegara, who is 
currently in Washington. Moreover, the involvement of Iranian 
expatriates and the international community is being encouraged.
    Theoretically, the call for a referendum is not so far-fetched. 
Article 59 of the current Iranian Constitution says there can be 
recourse to public opinion on important economic, political, social, 
and cultural issues by holding a referendum if two-thirds of the 
legislature approves of this, and article 177 says the Constitution can 
be revised by a referendum if the conditions of article 59 are met.
    Realistically, it is very unlikely that the current legislature 
would permit a referendum to take place. The majority of sitting 
parliamentarians are conservatives, and the younger and more activist 
ones tend to dominate political discourse. They owe their posts to the 
Constitution and the electoral interference of powerful unelected 
bodies. They will not seek to undo the arrangement which brought them 
to power.
    Moreover, the call for a referendum has generated opposition from 
mainstream reformist politicians in Iran. Their preference is for 
operating within the current constitutional framework, and they also 
argue that the call for a referendum leaves a number of important 
questions unanswered. For example, what is the relationship between 
mosque and state, and what about rights for religious and ethnic 
minorities? An organizer of the referendum told the author in early May 
2005 that the reformists' opposition stems from their fear of losing 
access to power.
    The referendum's objective is 60,000,000 signatures. As of mid-May 
it has approximately 36,000. The dispute over the referendum and its 
lack of realism is one reason for the low interest in it. Another 
reason could be that the regime has blocked access to the Web site. 
Possibly reflecting frustration over the lack of progress, an organizer 
of the referendum, Ghassem Sholeh Sadi, said two approaches to the June 
Presidential election are being considered, the New York Sun reported 
on 31 March 2005. The original plan was a boycott, he said, but with 
fresh inspiration from events in Kyrgyzstan the election could be 
turned into an uprising. He did not explain further.

                           DISUNITED STUDENTS

    Observers inspired by the role of youth movements such as Serbia's 
Otpor, Georgia's Kmara, and Ukraine's Pora in those country's 
revolutions may have similar expectations from their Iranian 
counterparts. Indeed, some two-thirds of the Iranian population is 
under the age of 30 (46 million out of a total population of 69 
million), there are approximately 1.2 million university students, and 
the voting age is 15.
    Iranian students have a long history of political activism, and 
student demonstrations in Tehran and Tabriz in July 1999 rocked the 
country and alarmed the regime. Students in major cities protested in 
November 2002 after a provincial court sentenced political activist and 
university lecturer Hashem Aghajari to death for blasphemy. There were 
more demonstrations in June 2003, as university students reacted to 
rumors that they would have to pay tuition. The audience at Student Day 
speeches every December has gotten increasingly unruly, and in 2004 
President Mohammad Khatami was heckled the entire time.
    There are many reasons to be skeptical about the student's 
revolutionary potential. Many university places are reserved for 
children of war veterans and state officials, and they are unlikely to 
oppose the regime outright. For others, economic and professional 
issues take precedence over politics. Those who must get a university 
place on their own merits face a vigorous and demanding examination 
process. Hoping that a college degree will help in the quest for a job 
when there is double-digit unemployment, they are unlikely to risk 
expulsion. In fact, the Iranian media and the country's officials 
occasionally bemoan the continuing ``brain drain,'' as educated young 
people seek employment overseas.
    Those students who are politically active are not very united. The 
best-known student organization, the Office for Fostering Unity 
(Daftar-e Tahkim-e Vahdat), split in two in early 2002 because of a 
dispute regarding support for President Khatami and the reformists. 
This situation persisted until May 2004, when members of the two wings 
reportedly decided to reunite and elected a new leadership consisting 
of older figures.
    Nevertheless, the Iranian media continues to describe the existence 
of two separate factions. Indeed, members of the majority wing 
organized a sit-in at Amir Kabir University in early May to protest the 
holding of political prisoners and actions against student activists.
    There is a more radical student organization known as the 
``Tabarzadi Group'' (named for its founder, the oft-imprisoned 
Heshmatollah Tabarzadi). Furthermore, the regime created the University 
Jihad and the Student Basij in the early 1980s to monitor on-campus 
political tendencies; 1998 legislation created a Basij unit in every 
university.
    The regime's formal and informal repressive apparatus also limits 
the students' potential. The July 1999 unrest, which was triggered by 
the attack of uniformed police and plainclothes vigilantes on a Tehran 
University dormitory, came to an end after massive arrests and a threat 
by Islamic Revolution Guards Corps commanders to President Khatami that 
if he did not calm the situation they would take matters into their own 
hands. The June 2003 demonstrations ended only after vigilantes 
intervened and police arrested some 4,000 people.
    The national police force has taken a new tack since several low-
level officers were tried for their part in the 1999 unrest (this was a 
show-trial intended to assuage public anger). Rather than using brute 
force to suppress dissent, the police try to keep student protestors 
and vigilantes apart. Nevertheless, the vigilantes act with support 
from state institutions. Furthermore, unofficial parallel security 
institutions that do not answer to any elected branch of the government 
have emerged. The threat of violence, therefore, is omnipresent.
    ``Unknown prisons'' is a phenomenon reminiscent of Argentina's 
Dirty War in the 1970s. There are many detention facilities that are 
not under the purview of the Prisons, Security, and Correction 
Organization. The national police, police precincts, the Armed Forces 
Judicial Organization, the Ministry of Intelligence and Security, the 
Islamic Revolution Guards Corps, the judiciary, and the Revolutionary 
Courts all run separate penal facilities that are free of oversight. 
Detainees sometimes disappear into this system and are not heard from 
for weeks.
    The majority of the detainees are eventually released. But rather 
than dismissing the charges against them, the authorities merely 
suspend the charges. This means that the charges can be reinstated at 
any time and the individual can be arrested again. Moreover, 
individuals are arbitrarily summoned for questioning. These actions 
serve to intimidate individuals and discourage their activism. There 
are notable exceptions to this rule. A photograph of student Ahmad 
Batebi waving a bloody shirt was published by major international media 
in July 1999, and he was subsequently imprisoned for his role in the 
1999 tumult and his comments and actions. He and some other students 
are still in jail. This serves as a powerful reminder to other young 
Iranians.
    Economic prioritization, the lack of organizational unity, and the 
constant threat of violence and repression has discouraged many 
potential activists. Their activism of 8 years ago has changed, with 
the Office for Fostering Unity reportedly urging people not to vote in 
the June 2005 Presidential elections, in the hope that this will be 
interpreted as a vote against the system.

                               NO LEADERS

    Politically active students and promoters of democracy in Iran face 
yet another problem--the absence of leadership. Anybody who is 
considered a serious threat is imprisoned. Incarceration and the 
accompanying dangers of torture, death, or disappearance tend to 
discourage all but the most ardent activists. It is reasonable, 
therefore, to look to the Iranian diaspora for a possible leadership 
figure, but there are few candidates.
    One side of the opposition spectrum is represented by the Mujahedin 
Khalq Organization (MKO or MEK) which the U.S. State Department 
designated a ``foreign terrorist organization'' in 1997. Still 
identified as a terrorist organization, the MKO also is known as the 
National Liberation Army of Iran (the militant wing of the MKO), the 
People's Mujahedin of Iran, National Council of Resistance, the 
National Council of Resistance of Iran, and Muslim Iranian Student's 
Society (a front organization used to garner financial support). The EU 
designated the MKO's military wing as a terrorist organization in May 
2002.
    The MKO was created in the 1960s and its ideology combines Islam 
and Marxism. It was involved with anti-U.S. terrorism in the 1970s, and 
it initially supported the 1978-79 revolution. In June 1981, it staged 
an unsuccessful uprising against the Islamic regime; many members were 
imprisoned while others fled the country. The MKO transitioned from 
being a ``mass movement'' in 1981 to having ``all the main attributes 
of a cult'' by mid-1987, Professor Ervand Abrahamian writes in his 1989 
book, ``Radical Islam: The Iranian Mojahedin.'' The MKO refers to its 
head, Masud Rajavi, in religious terms, calling him the rahbar (leader) 
and imam-i hal (present imam).
    From its Iraqi exile the MKO attacked the Iranian regime's 
leadership: A 1981 bombing killed President Mohammad-Ali Rajai and 
Prime Minister Mohammad-Javad Bahonar, in 1992 it attacked 13 Iranian 
Embassies, and it is behind other mortar attacks and assassination 
attempts in Iran. Former President Saddam Hussein granted the MKO 
refuge in Iraq, and it helped Saddam Hussein suppress the 1991 
uprisings of Shia in southern Iraq and Kurds in the north, so it is not 
very popular in Iraq. The MKO fought Iranian forces in the Iran-Iraq 
war, and this has discredited the organization among the Iranian 
public.
    In May 2003, after Operation Iraqi Freedom, the MKO agreed to turn 
over its weapons to U.S. forces, and over time most of them have been 
restricted to one location, Camp Ashraf. In July 2004, MKO members in 
Iraq were granted ``protected status'' under the Geneva Conventions. 
The Iranian Government has repeatedly offered an amnesty to rank-and-
file members if they return to Iran, but the amnesty does not extend to 
the organization's leadership. A reluctance to return is 
understandable: Many MKO members who were imprisoned in the early 1980s 
were tortured into recanting, and for a few months in 1988-89 thousands 
of MKO and leftist prisoners were executed. Iranian state media 
sporadically reports on groups of former MKO members who have returned, 
but it is not clear how they are treated.
    Some United States commentators have recommended removing the MKO 
from the terrorist list and using it as an armed resistance movement 
against Iran. There also are suggestions that MKO personnel should be 
cultivated as intelligence assets that might re-energize the reform 
movement in Iran. It is unlikely that MKO members would be trusted, 
since some reformists fought MKO personnel in the war, others created 
the security institutions that hunted them down, and most are part of 
the current political system. Furthermore, information provided by the 
MKO, which does not have the same objectives as the United States, is 
likely to be self-serving and unreliable. Using MKO personnel as a 
partisan force is appealing, but association with them will discredit 
the United States in Iranians' eyes.
    The MKO is just one end of the spectrum. There are other expatriate 
leaders who have less of a formal organization. For example, Reza 
Pahlavi, son of the last Iranian monarch, appears with some frequency 
on satellite television programs broadcast from the United States. In 
October 2001 the authorities arrested over 1,000 people for rioting 
after Iran lost a World Cup qualifying match in Bahrain. Chanting 
``Only Reza Pahlavi'' and egged on by the television broadcasts, 
rioters attacked banks, ticket kiosks, public telephones, and traffic 
signs, as well as police and public vehicles.
    It is impossible to quantify these leaders' impact (i.e., the 
number of followers). Furthermore, are those who chanted in favor of 
Reza Pahlavi in October 2001 truly monarchists, are they old enough to 
recall the monarchy, or were they just reacting to the TV broadcasts 
and letting off steam? Regardless, they are an annoyance to the regime, 
which arrested hundreds of people in 2001 and mentioned the possibility 
of reeducation.
    Other exile promoters of regime change are secular communists, 
constitutionalists, nationalists, and pan-Iranists. There are 
organizations with inspiring names such as the Alliance for Democracy 
in Iran, Coalition for Democracy in Iran, and the International 
Committee for Transition to Democracy in Iran. This listing is not a 
comment about any group's objectives, nor does it reflect the size of 
its membership. This is not a comment on how representative the 
organizations are, either, because there is no way to independently 
confirm the extent of support within Iran.

                         RESPONDING WITH APATHY

    In countries where the government depends on tax revenues to fund 
its activities, it is answerable to taxpayers and their elected 
representatives. In Iran, the government depends mainly on oil revenues 
to operate, and it is the public that is dependent on the state. 
Commodities such as cooking oil, meat, rice, and bread are available at 
subsidized prices, and subsidized gasoline is among the cheapest in the 
world. The country's unemployment rate is estimated to be over 20 
percent, and hiring quotas for veterans' families and a privileged few 
serve to exacerbate the situation. This dependence tends to discourage 
those who would oppose the regime.
    Apathy appears to be the overwhelming Iranian response to the 
country's political climate, the limits on political expression, and 
the threat of repression. After participating in large numbers in the 
1997 and 2001 Presidential elections (88 percent and 63 percent 
turnout, respectively), 1999 municipal council elections (about 64 
percent nationwide), and 2000 parliamentary elections (69 percent), 
fewer and fewer voters have turned out as reformers failed to deliver. 
The council election of 2003 saw a 50-percent nationwide turnout and in 
the major cities of Tehran, Esfaham, Shiraz, and Mashhad turnout was 
12-20 percent. In the February 2004 parliamentary election, 51 percent 
of eligible voters cast ballots, and 6 percent of the ballots were 
spoiled or voided. Defacing ballots is a traditional Iranian way of 
showing dissent.
    Some Iranian activists want to convert public apathy into political 
action by advocating a boycott of the 17 June Presidential election. As 
candidates registered from 10-14 May, more than 500 Iranians signed a 
letter saying they will not vote because the polls are neither free nor 
do they serve the public, Radio Farda reported. An Interior Ministry 
official conceded that a possible boycott worries the regime. In fact, 
this is a lose-lose situation. If Iranians do not vote, the victory of 
a conservative candidate is almost certain. The conservatives have 
easily mobilized constituencies, such as conscripts and state 
employees, so those who bother voting will back conservative 
candidates. If Iranians vote in large numbers, the regime will describe 
this as popular support and sign of its legitimacy. In the unlikely 
chance that a pro-reform candidate is elected, his or her ability to 
implement meaningful changes is sharply curtailed.

                    THE VIEW FROM THE UNITED STATES

    The United States wants to help the Iranian people. President 
George W. Bush has enunciated America's solidarity with the Iranian 
people several times. At his 3 February 2005 State of the Union 
Address, for example, Bush said ``And to the Iranian people, I say 
tonight: As you stand for your own liberty, America stands with you.'' 
During his February 2005 tour of Europe, Bush again expressed his 
support for Iranians' aspirations. ``We also look for Iran to finally 
deliver on promised reform,'' he said. ``The time has arrived for the 
Iranian regime to listen to the Iranian people and respect their rights 
and join in the movement toward liberty that is taking place all around 
them.''
    Congress is similarly supportive. The recently introduced ``Iran 
Freedom Support Act'' states: ``Congress declares that it should be the 
policy of the United States to support independent human rights and 
pro-democracy forces in Iran.'' (H.R. 282; 6 January 2005) and 
``Congress declares that it should be the policy of the United States 
(1) to support efforts by the people of Iran to exercise self-
determination over the form of government of their country, and (2) to 
actively support a national referendum in Iran with oversight by 
international observers and monitors to certify the integrity and 
fairness of the referendum'' (S. 333; 9 February 2005). The legislation 
authorizes the White House to assist the advocates of democracy in 
Iran, and it calls for increased contacts with ``opposition groups in 
Iran.''
    These are praiseworthy objectives, and the President's statements 
remind Iranians that they are not forgotten and should not lose hope. 
However, as the discussion above shows, putting these plans into action 
would be very difficult. Nevertheless, there are several practical 
steps that can help the democratic process in Iran.

  <bullet> Assistance should go to carefully selected nongovernmental 
        organizations in Iran. This could include the provision of 
        laptop computers, satellite phones, cell phones, and even fax 
        machines. The provision of cash is risky but may be 
        unavoidable, as in the case of Serbia, relatively small amounts 
        of funding from the National Endowment for Democracy and the 
        International Republican Institute helped create Otpor offices 
        and branches in Belgrade and other cities.
  <bullet> There are no independent labor organizations in Iran. A 
        state-licensed House of Labor purports to represent workers, 
        but individuals from the House of Labor attacked the office of 
        an independent labor syndicate and injured its leaders, Eqbal 
        daily newspaper reported on 10 May. Furthermore, labor actions 
        are usually connected with problems at individual workplaces, 
        such as a factory where workers have not received their wages. 
        Collective action is rare, and workers are not free to express 
        themselves. The United States could play a part in organizing 
        workers and creating independent unions.
  <bullet> Prospective Iranian leaders should be identified and their 
        travel to the United States or other overseas locations 
        facilitated. Through no fault of our own, there is no United 
        States Embassy or consulate in Iran, and Iranians who want to 
        visit the United States must go to Dubai or Istanbul to request 
        a visa. The process is slow and potentially expensive for the 
        applicant, and there is no guarantee of success. Washington 
        should maintain a list of Iranians whose visa applications are 
        preapproved. Individuals on this list could be political 
        figures, journalists, academics, and intellectuals, and even 
        promising young Iranian students. This would encourage them to 
        visit the United States. Even if travel to the United States is 
        not feasible, these individuals could meet with democratic 
        organizers in international locations. Once outside Iran they 
        could learn more about the roles played by NGOs in other 
        countries' transitions to democracy and receive organizational 
        training. Expatriates who travel to Iran could organize 
        workshops and conduct training.
  <bullet> Pressure from other countries has an influence in Iran, 
        especially if it is connected with sanctions. The international 
        community must continue to criticize the politicized court 
        system that closes newspapers and jails journalists. These 
        events have become so commonplace in the last 5 years that they 
        are rarely mentioned in the Western media. International bodies 
        should call for the dismissal of the notorious press court 
        judge, Said Mortazavi, who is responsible for many of the press 
        closures.
  <bullet> Continuing international criticism must be directed toward 
        Iran's legal system, where the value of one's testimony and the 
        extent of one's rights are based on gender. Iranian women must 
        have the same legal rights as Iranian men. International 
        criticism of this situation will show Tehran that trying to 
        justify this situation by attributing it to religious and 
        cultural peculiarities is unacceptable. Similarly, ethnic and 
        religious discrimination must face continuing and vocal 
        condemnation.

    Some observers believe Iranians should be left alone to sort out 
their own political evolution. This is an appealing thought, and if 
there was an infinite amount of time it would have a lot to recommend 
it. As Iran comes ever closer to becoming a nuclear power, because its 
regime sponsors international terrorism, and because the Iranian 
Government continues to interfere in Iraqi affairs, waiting is not an 
option. A democratic Iran is far less likely to pursue such destructive 
policies.
    In conclusion, there are steps the United States can take to hasten 
Iran's becoming a democracy. The belief that there is a pre-existing 
democratic movement or even an effective opposition group, however, is 
inaccurate. And although most Iranians undoubtedly favor independence 
and self-determination, assisting individuals rather than organizations 
without proper planning will be neither efficient nor effective.

    The Chairman. Thank you very much, Dr. Samii.
    I would like to recognize now Senator Biden, distinguished 
ranking member, who may have an opportunity to give his opening 
statement as well as initiate questions.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Thank you, Mr. Chairman. I apologize. My 
Governor was in town and I am sorry I missed Ambassador Burns' 
testimony. I would ask that my opening statement be placed in 
the record.
    The Chairman. It is placed in the record in full.
    Senator Biden. And I will wait my turn for questions, if 
you would like to begin. Thank you.
    [The opening statement of Senator Biden follows:]

   Opening Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    With the dispute over Iran's nuclear program coming to a head, our 
hearing today couldn't be more timely.
    Iran is threatening to break out of an agreement it reached with 
the Foreign Ministers of Britain, France, and Germany last November in 
which it committed to halt all uranium enrichment and reprocessing 
related activity.
    Any breakout by Iran must be met with a swift, firm, and united 
response by the United States and our European allies.
    Just last week, Europe's strong response to Iran's latest threats 
to resume enrichment-related activity caused Tehran to back away from 
the brink . . . for the time being.
    Mr. Chairman, our diplomacy is facing a serious test. We must 
urgently develop, with our European allies, a strategy that will 
penalize and isolate Iran should it choose to go down the nuclear path. 
At the same time, we should agree on credible security and economic 
incentives for Iran should it verifiably abandon its quest for nuclear 
weapons. The risks of miscalculation are high on all sides.
    Iranians of all political stripes seem to share the desire for 
nuclear weapons capability, whatever their differences may be on 
domestic policy. Tehran may believe that Europe won't follow through 
with penalties because of Iran's geopolitical weight, including its oil 
reserves.
    Europe has consistently demanded that Iran give up a full nuclear 
fuel cycle, but it hasn't said what it will do if Iran doesn't.
    For our part, it is not clear to me that we have our diplomatic 
ducks in a row. Should Iran be referred to the United Nations Security 
Council, have we done the spadework with our European partners, with 
Russia, with China, to find common ground?
    Unfortunately, the record of our diplomacy has been mixed in recent 
years. The Bush administration has vacillated between two very 
different approaches. At times it signaled support for regime change. 
At other times, it engaged in direct discussions with Tehran over Iraq 
and Afghanistan.
    I was pleased that the President, after his visit to Europe in 
February, decided to explicitly support the EU-3 initiative. This is a 
significant development. Previously, the administration had simply 
thrown cold water on the EU effort.
    There is no guarantee that the EU-3 effort will succeed. But by 
backing Europe, the President has made it more likely that a decision 
by Iran to break out will isolate Iran, not the United States.
    So where do we go from here?
    I believe we must urgently develop, with Europe, a more detailed 
game plan consisting of European sticks and American carrots. Europe 
should be willing to support a gradually escalating set of sanctions if 
Iran breaks out of its obligations. The United States should be willing 
to offer specific economic and security incentives in exchange for a 
tough, verifiable agreement with Iran to give up enrichment and 
reprocessing.
    The bottom line is this: Neither the United States nor Europe can 
succeed on their own. But we have a chance of dissuading Iran from 
taking a terrible step if we work together.
    I am eager to hear from Secretary Burns on progress that has been 
made in forging a common approach with Europe and others.
    I also want to get a sense of the administration's priorities. To 
me, the most clear and present challenge from Iran is its nuclear 
program, but it is far from the only challenge that Iran poses.
    The world should lend greater support to the Iranian people's 
desire for democracy and freedom. Three years ago, I called for an end 
to self-defeating restrictions that prevent United States NGOs from 
directing aid to Iranians working for democracy. Those restrictions 
inexplicably remain in place, even as the reform movement has been 
crushed before our eyes.
    Iran's support for terrorist groups that seek to undermine an 
Israeli-Palestinian peace is unacceptable and must be confronted.
    Also, we are now Iran's neighbor, with over 150,000 combined troops 
in Iraq and Afghanistan.
    And we are, obviously, directly affected when Iranian hardliners 
play an unhelpful role in these countries.
    We will have to keep working at these other matters, even as we 
deal with the urgent issue of Iran's nuclear programs. It is clear that 
we have our work cut out for us.
    I look forward to the testimony.

    The Chairman. Thank you very much.
    We will have a 10-minute round on this occasion. Let me 
begin by once again summarizing some of the thoughts you have 
enunciated so well.
    Essentially, we have heard in the committee before that the 
United States is held in high esteem, especially by the young 
people of Iran. As the foundation and others have conducted 
polls elsewhere in the world, asking for approval, disapproval, 
frequently the United States does not come out well, depending 
upon the question. And that might be true in Iran as a whole. 
At least the young people, perhaps two-thirds under 30, tend to 
like us, as you have just identified.
    Now this leads some people to say, ``Well, if that is the 
case, they must not have high regard for the Mullahs,'' the old 
people that might be moving off stage in due course. Perhaps 
so. But as everybody else universally points out, they are not 
in a rebellious mood. They are not appearing to be indigenous 
cell groups. Political activity, if there has been any, has 
been successfully repressed by the government.
    And likewise, they may have the view, as you have expressed 
in having taken a look at Iraq next door, that they would not 
want to see a repetition of bloodshed, disorder, and so forth. 
So, as a result, they may just sort of bumble through in the 
process hoping for the best.
    The Mullahs, understanding that, may appreciate that they 
may not be loved, but on the other hand, they do have leverage 
and authority. And some among that group, maybe not all, 
likewise, maybe have some desire for an Iranian nuclear weapon, 
for whatever reasons. Some may want to go short of that.
    Now the problem in all of this is how does this ever 
resolve itself in Iranian society without there being 
substantial debate, some representative institution, somebody 
who can object peacefully, vote, and so forth. This is not 
clear. It seems to many Americans that things are drifting 
despite the fact that two-thirds of the country might like us 
to work through a course of nuclear armament.
    So this might lead at least a couple of you to suggest, 
well, it is best to consider what happens after they have 
weapons. What do we do then under those circumstances? And how 
well does the NPT work, or is it around at all at this point? 
That conference has not been going particularly well in trying 
to define what the NPT is these days.
    That is unfortunate. And that might be the result of a part 
of our policy of maybe being less definitional about what we 
wanted from that conference or from the NPT. But I keep having 
a feeling that despite the fact that no one really wanted this 
to happen, the drift of affairs is that covertly, despite stops 
and starts, there might be some attempt to satisfy the 
Europeans or us, that somewhere back in the weeds somebody is 
still working with centrifuges, attempting to find somewhere in 
the world maybe some fissile material that would hurry up the 
process. They might get lucky. Somebody might turn up someday 
with some material. There is still some around, unfortunately, 
that could make that hastier.
    We have been left with this issue, which some of you have 
suggested, and which I asked in my first round of comment or 
questions today, do we take military action? You suggested that 
if we did, it would probably be very unilateral, condemned even 
maybe by the United Kingdom, quite apart from the United 
Nations or anybody else. But we could say, ``After all, that is 
our burden. Too bad others do not step up to the plate, but 
nevertheless, somebody has got to do the job.''
    But then some say, ``Well, how are we certain? We think 
that we know where all of these installations are, including 
ones we think have been closed down or delayed. But there might 
be ones that may be out there somewhere that are not known to 
us.'' And, of course, we do not know all that much, I suspect.
    With military action, we cause destruction. We maybe change 
the course of events, but we do not really get the job done, 
necessarily, with regard to the nuclear weapon, if that was the 
point. And some have raised the question, well, how good is our 
intelligence? Is it better than pre-Iraq? How confident are we, 
as we ask the American people for a declaration of war, that we 
are after something here? Well, that is a very good question. 
And we all need to be raising those issues as we contemplate 
that.
    Another prospect has been that we do not necessarily go to 
war, but we try to get economic sanctions that are of 
sufficient quantity and quality that they make a difference. 
Maybe they will. There are some who will say that the Iranians 
are sensitive to this. Certainly, they would be sensitive if 
the world said that we are not going to buy your oil, period. 
We are just stopping it. But we are not optimistic enough to 
think the world will come to that conclusion.
    In fact, many Americans are either pessimistic or cynical, 
believing that a good number of countries in Europe and Russia 
have trade relations that are very strong, that their 
populations would say, ``Hold on here, and before your foreign 
policy gets carried away, there is business to be done. There 
is unemployment abounding in Europe. No growth. We need both 
the energy plus the commerce.'' So that would tend to mainly 
bumble along further in that direction.
    In essence, almost all of the signs dictate, although we 
may talk about going to the Security Council, we have Secretary 
General Kofi Annan saying, caution light here. Members might 
not act in concert. As a matter of fact, the Russians and the 
Chinese may not like the idea at all, and, therefore, we can 
debate the issue. But in terms of effective action, once again, 
are we left to go unilaterally or with the coalition of the 
willing, or do we have this?
    So I am looking for some ray of hope in all of this for our 
policymakers. I agree with you that those looking for more 
engagement will find that there are some who argue that there 
ought to be a great deal more. But if there was, if the United 
States was fully engaged with these folks right now, and we got 
everybody to agree that we go to the Security Council, and we 
are still not sure exactly what is going on back in the weeds 
in terms of developments, even while we are talking there, what 
is the hope for us in all of this?
    Is there a glimmer, at least at the end of the day, that 
the right policy might lead to, one, no development of nuclear 
weapons in Iran? And second, to an Iran that became a normal 
nation, that had some general relationships with us, with the 
Europeans, with the rest of the world, that would be, in fact, 
a country that was able to work in the Middle East 
constructively, in an area where there are all sorts of other 
controversies, in which sometimes they become involved.
    Can anybody offer a glimmer of hope, a scintilla, at least, 
of sunlight to the situation? Dr. Kemp, would you like to try?
    Dr. Kemp. Not in the short run, Mr. Chairman, but I do 
think that if you look at the big picture over the years, it is 
clear that the regime is worried about its own internal 
stability for the long term, given the demographics, given the 
inability of the economy to truly reform. And here, I would say 
parenthetically, I think sanctions have had a significant 
impact on deterring foreign direct investment in Iran.
    Now, I think one of the dilemmas we have is that there is a 
great deal of confusion, both in Iran and, I think, here, about 
what we mean by Iran going nuclear. I mean it is one thing for 
Iran to develop nuclear weapons, put them on a missile, and 
declare like Pakistan and India have, that they are a fully 
fledged nuclear power.
    It is quite another for Iran to develop all the wherewithal 
to fabricate a nuclear warhead, but not physically cross the 
line, creating a more ambiguous set of circumstances. My 
judgment is that most Iranians support the Iranian Government's 
arguments that they make in public, namely, that they have the 
right to develop the technology. But I am not sure there has 
ever really been a debate in Iran about how good it would be 
for them to actually have the bomb.
    In fact, you find a lot of Iranians who say we oppose the 
idea of the bomb. Indeed, the government opposes the idea of a 
bomb, they want the technology. And one of the reasons I think 
this great ambiguity exists about this is because the Iranians 
themselves have to think through very carefully what impact a 
bomb in Iran would have on the neighborhood, and, therefore, on 
them. I think it is certainly possible that if Iran gets the 
bomb, Saudi Arabia, Egypt, and possibly even Turkey, would 
reconsider their nonproliferation stances.
    Certainly, the smaller gulf states would turn to us for 
help. There would be huge downsides for the Iranian regime 
getting the bomb. And one of the things we can do, I think, is 
to encourage more of a debate in Iran about the benefits they 
get from crossing this awful red line.
    The Chairman. Senator Biden.
    Senator Biden. Mr. Chairman, you approached your question 
the way I was about to. High regard. Regime change not likely. 
Nuclear capacity desired pretty much across the board; 
acquisition inevitable with that capability. And United States, 
Europe should stay the course, but we are not really going to 
be able to do anything about it. That is the essence of what I 
am getting from you all.
    If we go to the Security Council, we may get something we 
did not wish for, which we have to basically accept or act 
unilaterally militarily. And even then that is another 
question, accept this inevitability, which basically says a 
nation that openly and recently defies the NPT, it is okay. 
There is no downside, which is further undermining this already 
shaky regime.
    I have three questions. One of the things we do not discuss 
a lot, at least in my experience, is the impact of acquisition. 
The American people hear us say all the time, it would be a 
disaster if the Iranians acquired a nuclear weapon and acquired 
the capacity to thrust that nuclear weapon some distance from 
their borders in a missile.
    But there is very little discussion publically about why 
that would be so disastrous for the United States. Some suggest 
that the likelihood of the Iranians ever using such a weapon, 
knowing they would be annihilated if it were done, that this is 
one place where the doctrine of assured destruction still has 
relevance.
    The other question I want to ask you about is the impact 
not only of acquisition, but the impact of threats. We hear 
from varying quarters. Those of us who spent a lot of time 
focusing on this, and experts like yourselves, intelligence 
folks, and a whole array of people, are concerned that threats 
do not work very well in Iran. They actually may be 
counterproductive in terms of dissuading them from pursuing 
this acquisition capability.
    And it has been said by some that I respect, that sanctions 
have even had a perverse impact of not moving the process 
forward.
    And so I would like to know what you think about the impact 
on U.S. interests with acquisition of a nuclear capability, the 
impact of physical threats and sanctions, combined, and I would 
like to ask the rhetorical question. You have said, Dr. Kemp, 
and others have said, that the regime has a long-term concern 
about its own stability, although it is not in jeopardy and the 
likelihood of some spontaneous uprising of antiregime forces in 
Iran is nonexistent in the minds of almost everyone I have 
spoken to at this point. But if there is a long-term concern 
about their viability, then why is it not a good idea for us to 
focus on short-term efforts that have the effect of delaying 
the ability to acquire this technical capability?
    Do you speak to people who are very steeped in the 
knowledge of the construction of, the acquisition of, the 
production of, fissile material and the like? It is not an easy 
undertaking, and the Iranians are not particularly close to 
that process at this point, according to most people that I 
have spoken to.
    So, does it make sense for us to seek objectives that have, 
if nothing else, the ability to maintain inspectors in place on 
their centrifuge system, the one site that we know they have. 
Is that a good thing? Does that slow up the process?
    And is time on the side of the United States and those who 
are concerned about the acquisition of a nuclear capability? 
And if it is, how do we push this down the lane so that we move 
further in the direction of observing the prospect of Iranian 
discontent with the theocracy growing.
    There is a lot of questions in there, but acquisition, what 
is the impact? Impact of the threats and sanctions. And impact 
of us having delay as a strategy, increasing the difficulty, in 
terms of time, of acquiring the ability to produce their own 
fissile material. Anybody?
    Dr. Perkovich. Let me jump in a little bit, Senator. I 
think, partly because of what Senator Lugar said and what you 
said, that the default position is going to be the buying-time 
position. I mean that is kind of where you get led through the 
logic that none of the options are great, and the options are 
not that great for Iran, and so we will buy some time.
    Let me try to address the other two questions. The impact 
of acquisition, we can all model ways in which you get a 
relatively stable outcome or a bad one. The metaphor for me, 
which makes me nervous about it, is the Iranians built a new 
airport in Tehran, the Imam Khomeini Airport. The day it was to 
open, the revolutionary guards took it over.
    It has been there, built, ready to go for, I think, going 
on 2 years now. No revenue. No nothing. We have an image of the 
Leader, the Ayatollah Khamenei, who somehow can control 
everything. But this inactive airport is not something he 
welcomes. They have this airport sitting out there for 2 years 
with nothing.
    So the concern would be that they acquire a nuclear 
capability. Who controls it? By which lines of authority? It is 
a very kind of circular difficult governmental structure there 
to try to figure out. So that would be a worry about 
acquisition.
    Last, on the impact of threats. I think you have to have--
--
    Senator Biden. Is that the totality of the worry? In other 
words, what is the case you make to the American people as to 
why this is such an absolute disaster, catastrophic, would 
change our security circumstances in a fundamental way if Iran 
got a weapon?
    Dr. Milhollin. Could I respond to that, sir?
    Senator Biden. Yes. Is that not----
    Dr. Milhollin. I think that the case of Pakistan is the 
best piece of evidence that it would be a catastrophe.
    For years we were worried about Pakistan itself becoming a 
nuclear power. And during that time, we did not realize that 
Pakistan was helping other countries become nuclear powers; 
that Pakistan was not just a threat on its own, but it was 
proliferating. And so we are going to face that problem with 
Iran, also.
    In fact, I would say that Iran's knowledge probably brings 
us there already. That is, Iran is going to have the ability to 
extend the ability to make the bomb beyond itself, and will 
probably use it to further its foreign policy goals. Other 
countries have. The Chinese have for years. So that is one of 
the most powerful arguments behind this, I guess you could say, 
``catastrophe'' rubric.
    I think there is a second one, and that is that we tend to 
think that the delivery capability of a nuclear weapons state 
is limited by its missiles or its aircraft. I think after 9/11 
we should realize that that is not necessarily so. With Iran's 
ties to terrorist groups, with the obvious fact that our 
borders are porous, I think if the Iranians had a dozen bombs 
and were worried about an imminent war with us, I think they 
could get one here without putting it on a missile.
    Senator Biden. We are really in trouble with Korea, are we 
not, right now?
    Dr. Milhollin. Well, I think we are. We do not know how 
many SQs, how many significant quantities, how many warhead 
quantities North Korea really has, and we do not know where any 
of them are.
    Senator Biden. We know they have. We are not sure, we think 
Iran does not have. But we know North Korea does have.
    Dr. Milhollin. Well, we know they have enough material to 
make probably eight or nine bombs.
    Senator Biden. Right.
    Dr. Milhollin. We know that they have worked on making 
warheads. We know they have probably received a design that 
works perhaps from A.Q. Khan. And we know that somebody can 
figure it out. I mean, after all, we figured it out in the 
forties.
    So, if you are just looking at probabilities, you would 
have to say that the North Koreans, if they wanted to, could 
probably get one here tomorrow. So, I mean, I do not think we 
could ever assume that that was not possible. And as time goes 
on, that is going to be with us.
    But I think there is a glimmer of hope that if we can 
continue the freeze, we might see a change in heart in Iran. 
That is what happened in Argentina and Brazil. We slowed their 
programs down long enough so that there was a political change 
in those countries, and instead of becoming nuclear powers, 
they did not.
    Senator Biden. It seems to me that this is the only 
rational strategy proffered thus far, that if you were 
President of the United States yourself all the other 
strategies that are talked about seem to be beyond the ability 
to accomplish in the near term. The one strategy is if we could 
accomplish a freeze, that it buys time. Is there any other 
suggestion other than that one?
    Dr. Kemp. Not really. I mean the other model that has 
sometimes been used, which I happen to think will not work in 
the case of Iran, is what is called the Qadhafi model. After 
all, here is a man who had all the ingredients for WMD, and 
gave them all up, lock, stock, and barrel, but in exchange for 
one very important thing, regime survival.
    And I think that the only lesson we can learn from that is 
that this regime does worry that we are interested in regime 
change, and, therefore, the extent they see our strategy is to 
delay, delay, delay until they topple. They are more and more 
encouraged to accelerate their programs so that they have this 
insurance----
    Senator Biden. But, is not that argument even more profound 
when you say to the extent that they see us threaten, threaten, 
threaten, the extent that they see us sanction, sanction, 
sanction, they are even more encouraged to move more rapidly?
    Dr. Kemp. With one caveat, Senator. I think that they--they 
are worried about the idea of joint United States-European 
sanctions, possibly joined by Russia, China, and Japan. I think 
they would be very worried about the impact of those sort of 
sanctions on them. They can live with our unilateral sanctions.
    Senator Biden. But you do not think that and I do not think 
that and they do not think that. They are wiser than that. I 
have not heard a single person realistically suggest that there 
will be genuine sanctions in Iran. They are making their deal 
with China right now, pretty darn smart, with Russia. They have 
their own interests that are related--unlikely to cause Russia 
to engage in these overall sanctions.
    Are any of you seriously suggesting that you think there is 
even a 20-percent chance that Europe, Russia, and China would 
engage in a full sanction on no purchase of Iranian oil? 
Anybody thinking that? What makes you think they think that?
    Dr. Milhollin. Well, I do not think you can rule it out 
completely. If you get into a defiance situation where they are 
defying U.N. resolutions, you do not know what will happen.
    Senator Biden. I will make you a bet. Maybe I have been 
around here longer than you. I will make you a bet.
    Dr. Milhollin. Well, it is uncertain, obviously.
    Dr. Kemp. If there were a global recession where we did not 
need their oil, it would be a different story.
    Senator Biden. That is true. That is true.
    Dr. Perkovich. There is one alternative, Senator, that 
falls on what both Senators have said, and that is that if we 
made the focus broader, in other words, we are not saying that 
only Iran cannot have uranium enrichment or plutonium 
separation capability, it is a broader requirement, that would 
generate a lot more pressure on them.
    For example, ElBaradei, the Director General of the IAEA, 
has proposed a moratorium, a global moratorium on constructing 
new facilities. If you could get that, then it adds a lot more 
pressure on Iran.
    The problem is that we oppose it, the Japanese oppose it, 
and the Europeans oppose it, because our nuclear industries do 
not want moratoria on those things. So then we are back to----
    Senator Biden. Bingo.
    Dr. Samii. If I may interject also, if we look in terms of 
the Presidential election, we will see that Hashemi Rafsanjani, 
the former President, he actually advocated Iran having weapons 
of mass destruction back in 1988. So it seems unlikely that if 
the front runner is suddenly going to have a sea change, 
although it might be a little more discreet about it. The other 
conservative leaders for the Presidential election, Larijani, 
he has dismissed negotiations with the NPT saying--with the EU, 
saying that Iran has given away too much in the negotiation 
process. Rezai has pretty much said the same thing. He says the 
diplomats are trying hard, but they are not very good at their 
jobs. So it seems very unlikely to me that any of these 
candidates would give up this nuclear capability.
    The Chairman. Thank you very much, Senator Biden. I 
appreciate listening to the thoughts about the IAEA solution, 
NPT, and these other situations. We are all searching for 
something that makes some difference in all this.
    Senator Dodd.
    Senator Dodd. Well, thank you, Mr. Chairman. I will be 
brief here. You have been very patient, all of you.
    Let me just ask you to quickly comment on this. I used the 
word ``engagement.'' And obviously, a lot of things can fall 
under the rubric of engagement. But I think you all understand 
what I was driving at here, the question of whether or not you 
are sort of relying, to the extent we have become reliant on 
the Europeans, to be the principal negotiators in this entire 
effort.
    Tell me how you feel about this notion of us getting more 
directly involved with the Europeans, that is, the United 
States more directly involved. I know what the Iranian reaction 
has been, but I suspect that were we a bit more aggressive in 
pursuing our engagement with Iran, there might be a bit more of 
a positive reaction there. And I wonder if you would quickly 
give an assessment of that.
    Dr. Kemp. Well, I quite agree. I think that unless there is 
more direct American engagement, there will be no deal at the 
end of the day, because the Europeans cannot come up with 
enough carrots for the----
    Senator Dodd. Right.
    Dr. Kemp [continuing]. Iranians--only the United States 
can.
    Senator Dodd. Right.
    Dr. Kemp. And, therefore, what we have to decide is if we 
are prepared to go the extra yard and provide more than just a 
few aircraft spare parts. Obviously, we have to put much more 
on the table. I do not think the government has decided whether 
to do that or not.
    Dr. Milhollin. I agree with Mr. Kemp. I think that what we 
have to do is put the best offer on the table we can put. The 
United States has to think about it, work it out with the 
Europeans, and figure out what our best shot is. That is, we 
have to calculate what it is that we can afford to offer, what 
it is we think the Iranians will take, and we have to give it 
our best shot.
    If that is insufficient, which probably one would say is 
more likely to be the case than not, then, at least, we will 
have shown the world that we are willing to go that route and 
to explore every possibility short of sanctions or force. And I 
think even doing that would improve our position.
    Senator Dodd. And it probably would increase the 
likelihood--I think your point is made. And the possibility of 
getting a sanctions regime imposed will increase dramatically 
with our direct involvement, I think.
    Dr. Milhollin. Yes. And without that, it is going to be 
harder for us to achieve that.
    Senator Dodd. I agree.
    Dr. Perkovich. I would make a distinction between our 
participation, physically, in the negotiations with EU and 
Iran, which I think is a bad idea, and what my colleagues have 
said, our conveyance to our European colleagues that we would 
support and are prepared to provide what they need, whether it 
be Presidential statements, economic policies, whatever. Having 
us in the room----
    Senator Dodd. I was not suggesting that necessarily. I am 
talking about more direct U.S. involvement here. You are for 
that. You presume that is correct.
    Dr. Samii, what are your thoughts on that?
    Dr. Samii. Sir, all I can say is that the Iranian 
negotiating process, in my opinion, seems to always be one of 
demanding a great deal, giving away just a little bit, and when 
things seem to come to a standstill, then the Iranians will 
give yet a little more ground.
    Senator Dodd. Right.
    Dr. Samii. But they seem to be trying to get much more out 
of it than they are giving up. And I think that will continue 
to be the process. Rafsanjani, this morning, said that 
basically, the Americans should gradually begin to take 
positive actions instead of misbehaving with Iran. They should 
not expect to see an immediate big reaction in return for a 
small action. When these positive United States actions are 
forthcoming, the people of Iran and its government will fuel 
that idea that the United States is giving up its hostility.
    Senator Dodd. Yes.
    Dr. Samii. So they are always demanding things from us.
    Senator Dodd. Yes.
    Dr. Samii. And they do not seem to be giving any ground at 
all.
    Senator Dodd. No. I understand that. I mean, look, I am not 
arguing about who we are dealing with here, and obviously, I 
could show you some of the statements being made by Members of 
Congress in the last month or so on these issues, and I presume 
they are being read widely by Iranian officials from time to 
time, too. I am trying to get beyond that a bit.
    And the point here, that I think has been made by the 
Chairman, by Senator Biden, by all of you, as I have heard you, 
is that the best likely outcome here is to have something 
happen before the Iranians reach the ability, if they have not 
already, to really possess these weapons of mass destruction. 
That is our greatest hope, that all the other options we are 
talking about are just rife with problems, serious, serious 
problems. And the question I had was: Can we rely--can we 
outsource, in a sense, our participation in that? Will the 
Iranians accept that and agree on some formulation here that 
would limit their willingness or ability to acquire these 
weapons? So I was curious about your comments on the 
engagement.
    Let me ask you one other question, if I can, because I am 
curious about the change. And by the way, I could not agree 
more. I think, Dr. Kemp, you made this point. I think others 
have. Certainly, there is tremendous, what I see as a 
significant change in the administration's view on the EU-3 
effort. And I applaud that. Go back, and people can have fun, 
if they want, politically about what was going on before. But I 
think we ought to welcome and applaud our very significant 
engagement, and the comments this morning of Secretary Burn's 
support that.
    I guess I am sort of curious, as you are watching this as 
people who are very astute observers of this situation, what 
are the motivations here? Do we wish success of this effort or 
is it more tactical, in your opinion?
    Dr. Kemp. My view is that I think there was an appreciation 
both in Washington and in Europe, that without this coming 
together----
    Senator Dodd. Yes.
    Dr. Kemp [continuing]. It would fail. The Europeans would 
fail in their approach and we would fail in our options. So it 
is the only hope. And it is better to go down together, rather 
than to go down divided, because of what follows afterward.
    Senator Dodd. Any other----
    Dr. Milhollin. I think there was also the factor that the 
Europeans assured us that if the deal did flounder that they 
would deliver in the sense that they would be willing to go to 
the United Nations and they would stand side to side with us in 
demanding whatever action was appropriate. That is, I think we 
got something in exchange for supporting their position.
    Senator Dodd. Yes.
    Dr. Milhollin. Which was a promise by them that they would 
support us if the process failed.
    Dr. Perkovich. I do not think it was just tactical, because 
I do not think we have plan B. So tactical makes sense if you 
have plan B that you think is a great plan, but nobody here has 
a great idea how we solve the nuclear problem. To suggest that 
all of this talk about cooperating with Europe is somehow a 
ruse because we have a strategy we really think is going to 
work, is rather optimistic.
    Senator Dodd. Unless you accept the notion that there are 
those who believe that there is quite a military answer to all 
of this, in which case you have now gone down the road of the 
political diplomatic approach, if you will, and that has 
cratered and failed. Thus our options are off the table and we 
are left with what Secretary Burns talked on earlier, and that 
is saying we would never take any option off the table.
    There are those who, I think, embrace that view, 
unfortunately, within the administration, but I think I would 
be naive to assume otherwise.
    The Chairman. Thank you.
    Senator Dodd. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Dodd. And 
we thank each one of you for staying with us and responding to 
our questions and engaging in dialog. I suspect that the 
committee will have additional hearings on this topic, because 
the subject that we have been discussing today will be with us, 
I suspect, for a period of time. And our role is to conduct 
oversight, but likewise, to be inquisitive, and to try to be 
helpful in the formulation of American foreign policy. You have 
made great contributions to that with your testimony this 
morning.
    The hearing is adjourned.
    [Whereupon, at 12:36 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
